<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-201]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 110-201, Pt. 3
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 3

                    READINESS AND MANAGEMENT SUPPORT

                               ----------                              

                         APRIL 10 AND 24, 2007


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
             2008--Part 3  READINESS AND MANAGEMENT SUPPORT


                                                 S. Hrg. 110-201, Pt. 3

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 3

                    READINESS AND MANAGEMENT SUPPORT

                               __________

                         APRIL 10 AND 24, 2007


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
39-437 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                 ______

            Subcommittee on Readiness and Management Support

                   DANIEL K. AKAKA, Hawaii, Chairman

ROBERT C. BYRD, West Virginia        JOHN ENSIGN, Nevada
EVAN BAYH, Indiana                   JAMES M. INHOFE, Oklahoma
HILLARY RODHAM CLINTON, New York     JEFF SESSIONS, Alabama
MARK L. PRYOR, Arkansas              SAXBY CHAMBLISS, Georgia
CLAIRE McCASKILL, Missouri           ELIZABETH DOLE, North Carolina

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
    Military Installation, Environmental, and Base Closure Programs
                             april 10, 2007

                                                                   Page
Grone, Hon. Philip W., Deputy Under Secretary of Defense, 
  Installations and Environment..................................     5
Eastin, Hon. Keith E., Assistant Secretary of the Army, 
  Installations and Environment..................................    15
Penn, Hon. B.J., Assistant Secretary of the Navy, Installations 
  and Environment................................................    25
Anderson, Hon. William C., Assistant Secretary of the Air Force, 
  Installations, Environment and Logistics.......................    41

                Readiness of United States Ground Forces
                             april 24, 2007

Beech, COL Michael F., USA, Commander, 4th Brigade Combat Team, 
  4th Infantry Division, Fort Hood, TX...........................    96
Craparotta, Col. Lewis A., USMC, Commander, 1st Marine Regiment, 
  Camp Pendleton, CA.............................................    98
Orr, COL Timothy E., USARNG, Commander, 2nd Brigade Combat Team, 
  34th Infantry Division, Iowa Army National Guard...............    99

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        TUESDAY, APRIL 10, 2007

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

    MILITARY INSTALLATION, ENVIRONMENTAL, AND BASE CLOSURE PROGRAMS

    The subcommittee met, pursuant to notice, at 4:10 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Daniel K. 
Akaka (chairman of the subcommittee) presiding.
    Committee members present: Senators Akaka, Inhofe, 
Sessions, and Ensign.
    Majority staff members present: Peter K. Levine, general 
counsel; and Michael J. McCord, professional staff member.
    Minority staff members present: Gregory T. Kiley, 
professional staff member; David M. Morriss, minority counsel; 
and Lucian L. Niemeyer, professional staff member.
    Staff assistants present: David G. Collins and Benjamin L. 
Rubin.
    Committee members' assistants present: David E. Bonine, 
assistant to Senator Byrd; Jeremy Shull, assistant to Senator 
Inhofe; and D'Arcy Grisier, assistant to Senator Ensign.

     OPENING STATEMENT OF SENATOR DANIEL K. AKAKA, CHAIRMAN

    Senator Akaka. This hearing of the Subcommittee on 
Readiness and Management Support on the fiscal year 2008 budget 
request for the Department of Defense (DOD) installations and 
environmental programs will come to order.
    We now reconvene this hearing in open session. I want to 
publicly welcome our witnesses: Philip Grone, Secretary Keith 
Eastin, Secretary B.J. Penn, and Secretary William Anderson. It 
is good to have all of you back with us again this year.
    We meet this afternoon to discuss DOD's fiscal year 2008 
military construction (MILCON), housing, and environmental 
programs, as well as the implementation of the 2005 base 
realignment and closure (BRAC) rounds. Much has happened since 
our hearing with all of you a year ago. The fiscal year 2007 
MILCON appropriation bill got sidetracked by objections from a 
few members and ended up in a year-long continuing resolution. 
About $3 billion of funding requested to implement the 2005 
BRAC round ended up being deferred from that bill to the 
pending supplemental.
    Lost for good was an appropriation to match the 
authorization for dozens of projects my colleagues and I in the 
House and the Senate had worked to secure to help the military 
and civilian workers at installations in our States.
    DOD now has a new Secretary of Defense and under the new 
leadership, DOD has reversed its opposition to increasing the 
size of the ground forces. This budget was submitted with 
placeholders, essentially seeking a blank check of over $2.5 
billion for Army and Marine Corps facilities to support this 
proposal. Last week the Army started filling in the details of 
their proposal, but we have yet to receive similar details on 
the specific Marine Corps projects that you are requesting, and 
we will need more information from both Services if we are to 
properly address this important issue in our markup.
    This ``Grow the Force'' proposal will be a challenge for 
all of us. It appears that the proposal before us would commit 
taxpayer funds to facilities to support the entire 5-year 
planned growth in end strength, not just the end strength 
increases through fiscal year 2008 that we will be acting on in 
the personnel section of the bill.
    Due largely to those two factors, BRAC and the growing 
force, the fiscal year 2008 MILCON request is, I think, the 
largest any of us have ever seen, $21 billion, compared to $12 
billion just 2 years ago. Yet, absent these two factors, the 
underlying program is still the same size that it was back in 
2006, about $10 billion.
    Because of the closed session that preceded this open 
session, we do not have as much time as we normally do. 
Therefore, without objection, all of your prepared statements 
will be made a part of the record, as will your responses to 
the advance questions sent to you by the committee. In 
addition, there will be questions for the record on topics we 
do not have time to address this afternoon.
    [The prepared statement of Senator Akaka follows:]
             Prepared Statement by Senator Daniel K. Akaka

    Good afternoon. We now reconvene this hearing in open session. I 
want to publicly welcome our witnesses: Mr. Grone, Secretary Eastin, 
Secretary Penn, and Secretary Anderson, it is good to have all of you 
back with us again this year. We meet this afternoon to discuss DOD's 
fiscal year 2008 military construction, housing, and environmental 
programs, as well as the implementation of the 2005 base closure round.
    Much has happened since our hearing with all of you a year ago. The 
fiscal year 2007 military construction appropriation bill got 
sidetracked by objections from a few members and ended up in the year-
long continuing resolution. About $3 billion of funding requested to 
implement the 2005 base closure round ended up being deferred from that 
bill to the pending supplemental. Lost for good was the appropriation 
to match the authorization for dozens of projects my colleagues and I 
in the House and the Senate had worked to secure to help the military 
and civilian workers at installations in our states.
    In addition to this unfortunate delay in funding the implementation 
of this BRAC round, we now have, pending in conference on the 
supplemental, an attempt to re-open that BRAC round with respect to 
Walter Reed. Whatever one may think of the merits of any particular 
BRAC decision, if we start to reopen past BRAC decisions, that will 
greatly complicate our work on planning and building the infrastructure 
we need to support our troops.
    The Department now has a new Secretary of Defense, and under that 
new leadership, the Department has reversed its opposition to 
increasing the size of the ground forces. This budget was submitted 
with placeholders essentially seeking a ``blank check'' of over $2.5 
billion for Army and Marine Corps facilities to support this proposal. 
Last week the Army started filling in the details of their proposal, 
but we have yet to receive similar details on the specific Marine Corps 
projects that you are requesting. We will need more information from 
both Services if we are to properly address this important issue in our 
markup.
    This ``grow the force'' proposal will be a challenge for all of us. 
It appears that the proposal before us would commit taxpayer funds to 
facilities to support the entire 5-year planned growth in end strength, 
not just the end strength increases through fiscal year 2008 that we 
will be acting on in the personnel section of the bill.
    Due largely to those two factors--base closure and growing the 
force--the fiscal year 2008 military construction request is the 
largest I think any of us have ever seen--$21 billion, compared to $12 
billion just 2 years ago. Yet absent those two factors, the underlying 
program is still the same size as it was back in 2006, about $10 
billion.
    Because of the closed session that preceded this open session, we 
do not have as much time during this open session as we normally do. 
Therefore, without objection all of your prepared statements will be 
made part of the record, as will your responses to the advance 
questions sent to you by the committee. In addition, there will be 
questions for the record on topics we do not have time to address this 
afternoon.

    Senator Akaka. Senator Ensign?

                STATEMENT OF SENATOR JOHN ENSIGN

    Senator Ensign. Thank you, Mr. Chairman.
    The 2008 budget request for MILCON and family housing 
programs supports the transformation of our forces around the 
world to more efficient bases and smarter alignments to address 
our Nation's most urgent national security needs. DOD is 
proposing to spend billions in 2008 for barracks and other unit 
facilities to support BRAC, global realignments, modularity, 
and most recently the need to grow the Army and Marine Corps 
end strength. These are absolutely critical projects that must 
be funded as soon as possible to ensure that permanent 
facilities are ready when the forces arrive at each 
installation.
    But I am concerned that this limited budget request does 
not allow the military Services to construct all required 
facilities ahead of incoming forces. We cannot afford to risk 
the safety and security of our personnel by relying on trailers 
and inadequate facilities to be used as interim living quarters 
for the next 5 years.
    The unfortunate conditions at Walter Reed Army Medical 
Center have reaffirmed this committee's consistent concern over 
the past years on the relatively low priority placed within 
each military Service on maintaining facilities and the 
replacement of deteriorated infrastructure. This year's budget 
request for MILCON reinforces my concern that very little 
funding is being used to replace deteriorated facilities 
supporting current missions.
    The budget goals established by DOD for funds to sustain 
and recapitalize facilities have been persistently overcome by 
higher priorities. While we support DOD's need to maintain 
flexibility in operations and maintenance expenditures, this 
flexibility must be accompanied by congressional confidence in 
DOD's ability to use that flexibility wisely. This confidence 
was shaken by leaders in the Army who did not act quickly and 
decisively to correct the deplorable living conditions at 
Walter Reed Army Medical Center.
    I look forward to hearing from our witnesses about the 
initiatives under way by military leaders to ensure adequate, 
safe facilities are provided to our military personnel and 
their families. What are you doing today to identify and 
quickly get rid of all the other Building 18s in the military?
    I also ask each of the witnesses to discuss the challenges 
they face in complying with environmental laws and regulations 
and the impact of encroachment on their ability to carry out 
force realignments, the introduction of new missions, and the 
conduct of realistic combat training.
    I look forward to a discussion of any new problems or 
changes in the law the witnesses believe Congress should 
consider. Again, Senator Akaka, I thank you for this hearing 
and look forward to it.
    [The prepared statement of Senator Ensign follows:]

               Prepared Statement by Senator John Ensign

    Thank you Mr. Chairman. I also want to thank our witnesses for 
testifying this afternoon, and for their dedicated service to our 
country. You have outlined in your written statements a tremendous 
amount of construction and environmental work in progress that will 
have a significant impact on our military for many years to come.
    The 2008 budget request for military construction and family 
housing programs supports the transformation of our forces around the 
world to more efficient bases and smarter alignments to address our 
Nation's most urgent national security needs. The Department is 
proposing to spend billions in 2008 for barracks and other unit 
facilities to support base realignment and closure, global 
realignments, modularity, and most recently, the need to grow the Army 
and Marine Corps end strength. These are absolutely critical projects 
that must be funded as soon as possible to ensure that permanent 
facilities are ready when the forces arrive at each installation. But, 
I am concerned that this limited budget request does not allow the 
military Services to construct all required facilities ahead of the 
incoming forces. We cannot afford to risk the safety and security of 
our personnel by relying on trailers and inadequate facilities to be 
used as interim living quarters over the next 5 years.
    The unfortunate conditions at Walter Reed Army Medical Center have 
reaffirmed this committee's consistent concern over past years on the 
relatively low priority placed within each military Service on 
maintaining facilities and the replacement of deteriorated 
infrastructure. This year's budget request for military construction 
reinforces my concern that very little funding is being used to replace 
deteriorated facilities supporting current missions. The budget goals 
established by the Department for funds to sustain and recapitalize 
facilities have been persistently overcome by higher priorities. While 
we support the Department's need to maintain flexibility in operations 
and maintenance expenditures, this flexibility must be accompanied by 
congressional confidence in the Department's ability to use that 
flexibility wisely. This confidence was shaken by leaders in the Army 
who did not act quickly and decisively to correct the deplorable living 
conditions at Walter Reed.
    I look forward to hearing from our witnesses about initiatives 
under way by military leaders to ensure adequate, safe facilities are 
provided to our military personnel and their families. What are you 
doing today to identify and quickly get rid of all the other building 
18s in the military?
    I also ask each of the witnesses to discuss the challenges they 
face in complying with environmental laws and regulations and the 
impact of encroachment on their ability to carry out force 
realignments, the introduction of new missions, and the conduct of 
realistic combat training. I look forward to a discussion of any new 
problems or changes in the law the witnesses believe Congress should 
consider.
    I again thank you, Senator Akaka, and look forward to an 
informative hearing.

    Senator Akaka. Thank you very much.
    Mr. Grone.

 STATEMENT OF HON. PHILIP W. GRONE, DEPUTY UNDER SECRETARY OF 
             DEFENSE, INSTALLATIONS AND ENVIRONMENT

    Mr. Grone. Thank you, Mr. Chairman, and I will be brief so 
that we can get to the questions and the dialogue with you, 
Senator Ensign, and the other members of the subcommittee.
    My colleagues and I are certainly pleased to appear before 
you today to discuss the budget request for the DOD for fiscal 
year 2008, particularly for those programs that support the 
management of installation assets. As you noted, sir, the 
MILCON budget for this coming year is the largest in recent 
memory. In support of the responsibilities of all of us, all of 
us as portfolio managers across DOD, the budget request, 
whether it is MILCON, military family housing, BRAC, 
installation support, or environmental programs, the entire 
management portfolio of DOD to support installations is $56 
billion in this budget request.
    The budget request supports a number of key elements of our 
comprehensive asset management strategy and I want to highlight 
just a few. The budget request supports a recapitalization rate 
of 67 years. That includes the investment we are making through 
BRAC as we reposition missions to provide more modern 
facilities, to recapitalize those assets at aging locations, 
from which we are to realign or close.
    We have achieved our goal in this budget of a 67-year 
recapitalization cycle. In 2001 that rate stood at 192 years.
    The budget request provides 88 percent of the funds needed 
to sustain our facilities. Last year's budget, as enacted, 
positioned DOD to fulfill our commitments to eliminate 
inadequate military family housing in the United States, and we 
remain on track to achieve the elimination of such units 
overseas by fiscal year 2009. Military housing privatization is 
central to our strategy. In the end state we expect 90 percent 
of DOD's then-existing military family housing inventory to 
have been privatized.
    On the matter of encroachment, efforts such as the 
readiness and environmental protection initiative and our 
outreach to the States, local communities, private and 
nonprofit land trusts, and the environmental community are 
bearing fruit. DOD has requested $30 million in the fiscal year 
2008 budget to support this important program.
    We also continue our aggressive approach to energy 
conservation and the purchase and development of renewable 
sources of energy. In fiscal year 2006, military installations 
reduced their consumption by 5.5 percent, exceeding the energy 
conservation goal of 2 percent.
    Certainly the largest portfolio of investment we have for 
the coming year is $8.2 billion in the request to support BRAC 
efforts all across the country, across the 800 locations all 
across America that will bear in one way or another closure, 
realignment, or an inbound mission. These moves are critically 
important to the future of the armed forces. The timely receipt 
of an authorization and appropriation to support these actions 
is critically important to keeping us on schedule to meet our 
legally mandated deadline of September 15, 2011, to conclude 
implementation of the BRAC.
    Sir, thank you for your attention and certainly to the 
members of the subcommittee for all the support you have 
provided to DOD over many years. We look forward to your 
questions. Thank you, sir.
    [The prepared statement of Mr. Grone follows:]

               Prepared Statement by Hon. Philip W. Grone

    Chairman Akaka, Senator Ensign, and distinguished members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to address the President's budget request for fiscal year 2008 and to 
provide an overview of the approach of the Department of Defense (DOD) 
to the management of the Nation's military installation assets.

                                OVERVIEW

    As our Nation's security challenges become more complex, the 
military must become an increasingly agile joint force that is dominant 
across the full spectrum of operations. Installations are a critical 
component to this Nation's force capabilities. DOD is vigorously 
managing its facilities and infrastructure to ensure that it delivers 
cost effective, safe, and environmentally sound capabilities and 
capacities to support the National Defense Mission.
    Not only is the Department incorporating best business practices 
but it is also expanding these practices into new, previously 
unexplored areas. For example, DOD's infrastructure investment strategy 
uses key metrics to provide quality facilities that directly support 
mission and readiness and also developed advanced business processes 
that align more closely to warfighter mission area requirements. 
Implementation of the Real Property Inventory Requirements document 
provides the basis for a more accurate and current asset inventory 
database which will maximize asset management and provide senior 
leaders with an improved decisionmaking tool to measure performance. 
With the development of a net-centric data warehouse for the 
Department's real property infrastructure and utilization information, 
timely and accurate real property data will be readily available to 
support key facilities metrics. The rigor provided by these practices 
in planning, managing, and maintaining DOD installations improves 
overall efficiency while improving investment decisionmaking.

                         GLOBAL DEFENSE POSTURE

    The Department continues its efforts to realign its permanent base 
structure at home and abroad to effectively enable military 
transformation and to better deal with 21st century security 
challenges. The Department has begun the process of realigning or 
closing a number of large permanent bases overseas in favor of small 
and more scalable installations better suited for rapid deployments. 
The Global Defense Posture realignment effort identified an overall set 
of plans for returning overseas forces back to military installations 
in the U.S. These plans were integrated with the base realignment and 
closure (BRAC) process regarding relocations from overseas to domestic 
bases during the prescribed BRAC time period. All Services factored 
requirements of returning forces into their domestic infrastructure 
requirements and this resulted in recommendations to accommodate forces 
at U.S. installations.
    Some overseas changes have already been implemented in accordance 
with ongoing Service transformation efforts and within the framework of 
negotiations with host nations. In many cases, the changes involve 
units that are inactivating or transforming with no significant BRAC 
impact. As we begin implementing the BRAC recommendations there are 
overseas posture changes still being developed or being phased to be 
implemented after the BRAC implementation period. DOD will continue to 
consult with Congress on its plan and will seek your support as we 
implement these far-reaching and enduring changes to strengthen 
America's global defense posture.

             IMPLEMENTING BASE REALIGNMENT AND CLOSURE 2005

    The President approved and forwarded the commission's 
recommendations to Congress on September 15, 2005. Congress expressed 
its support of these recommendations by not enacting a joint resolution 
of disapproval and on November 9, 2005, the Department became legally 
obligated to close and realign all installations so recommended by the 
Commission in its report. BRAC 2005 affects over 800 locations across 
the Nation through 25 major closures, 24 major realignments, and 765 
lesser actions. The significant transformation to the Total Force and 
its operational capability, the Departments business operations, and to 
the savings ultimately derived from BRAC require resources to meet 
adequately the challenges of implementation.
    Congress provided $1.5 billion to the Department in fiscal year 
2006 ($1.9 billion was requested in the fiscal year 2006 President's 
budget) to begin implementing the BRAC recommendations. This initial 
funding was used to begin planning, design and construction, program 
management, and the environmental studies that serve as the foundation 
for constructing and renovating facilities to accommodate missions at 
receiving sites. Notable examples include the Brigade Combat Team 
complexes at Fort Carson, CO; Fort Knox, KY; and Fort Bliss, TX; and a 
Division Headquarters and Sustainment Brigade Headquarters at Fort 
Riley, KS.
    The fiscal year 2007 President's budget requested $5.6 billion to 
continue implementation. Previous continuing resolutions for fiscal 
year 2007 provided $542M to the Department for this purpose. However, 
the recently passed Joint Resolution limits fiscal year 2007 funding to 
$2.5 billion, a $3.1 billion (55 percent) reduction from the 
President's budget. This seriously affects construction timelines 
because over 80 percent of the BRAC budget in fiscal year 2007 directly 
supports military construction. This 55 percent reduction will 
significantly jeopardize our ability to execute BRAC 2005 by the 
statutory deadline of September 15, 2011, thereby sacrificing savings 
that could have been achieved during the delayed timeframe, and delay 
achievement of operational mission requirements. The magnitude of the 
reduction requires careful evaluation to support allocating the reduced 
funding within the Department so that only those projects with the 
highest priority, determined by their operational and/or business case 
effects, go forward on the schedule previously provided to Congress. 
While operational impacts are self-explanatory, business case 
considerations are worthy of note. These include cases where 
incrementally funded projects started last year must continue, and/or 
where projects support follow-on actions, produce significant savings, 
or lead to expeditious asset disposal. This evaluation formed the basis 
for the BRAC portion of the expenditure report required by the Joint 
Resolution that was provided to the appropriations committees on March 
16, 2007. Implementing BRAC 2005 actions represents a significant 
financial commitment by the Department. In the fiscal year 2007 budget 
justification material provided to Congress, the Department indicated 
that, in some cases, the out-year program did not fully reflect 
expected costs for the remainder of the BRAC implementation period 
(fiscal years 2008-2011). The Department of Army anticipated a 
shortfall as much as $5.7 billion and the Air Force estimated its 
shortfall at approximately $1.8 billion over the program.
    The fiscal year 2008 President's budget request is approximately 
$3.0 billion more than the fiscal year 2007 President's Budget request 
and the $8.2 billion requested, as well as the outyear program, 
represents full funding for BRAC 2005 implementation assuming funding 
is restored for fiscal year 2007. In previous BRAC rounds, the third 
year of implementation was generally the peak of the ``bell shaped'' 
investment curve. For BRAC 2005, the fiscal year 2008 budget request 
represents the critical year of execution in the 6-year statutory 
implementation period and includes $6.4 billion for military 
construction, $1.2 billion for operations and maintenance (O&M) to 
relocate personnel and equipment, $112 million for environmental 
studies and remediation, and $453 million for ``other'' costs primarily 
associated with installation communications, automation, and 
information management system equipment in support of construction 
projects.
    The Department has embarked on assessing the domino impact the $3.1 
billion reduction will have on the fiscal years 2008-2011 
implementation program should it not be restored. The complexity and 
duration of many implementation actions required fiscal year 2007 
funding. Military construction projects and other expenditures related 
to the movements of missions contained in the fiscal year 2008 
President's budget will need to be re-baselined.

                         ASSISTING COMMUNITIES

    The Department, through the Office of Economic Adjustment (OEA) and 
the Defense Economic Adjustment Program, continues to work with States 
and communities across the country as they respond to the effects of 
broad changes in Defense infrastructure, including efforts resulted 
from BRAC, Global Defense Posture Realignment, and modularity. In the 
context of BRAC, to date, the Department has recognized 121 Local 
Redevelopment Authorities (LRAs) that are responsible for creating a 
redevelopment plan for property made available for civilian reuse as a 
result of BRAC and to directing implementation of the plan. The 
majority of these communities, with assistance from OEA, are presently 
working to develop a consensus for redevelopment that reflects the 
specific market forces, public facility and service needs, and private 
sector circumstances found at each location and to gauge local homeless 
and community economic development interests in these properties. At 
the same time, efforts are being made between these LRAs and the 
military departments to link local civilian redevelopment activities 
with the Department's environmental and property disposal efforts, 
including any necessary environmental remediation.
    At the same time, DOD is working with several communities where 
mission growth is projected to impact the surrounding region. Across 
these locations, resources are being applied to assist communities to 
understand and respond to anticipated impacts on local housing, 
schools, water and sewer, and transportation. Additionally, spousal 
employment, health care, public services, and child care are of some 
concern. A primary concern for all is how to develop and apply local, 
State, and private resources to address local need. Through this 
process, possible gaps in these civilian sources are also being 
recognized as opportunities for third party and Federal assistance. 
Presently, these communities are in close dialogue with the local 
installations to understand the timing and scope of these growth 
actions.
    The ability to capably assist these communities, regardless of 
whether there is downsizing or mission growth, must include our Federal 
agency partners. On behalf of the Secretary of Defense, I chair the 
President's Economic Adjustment Committee (EAC) at the sub-cabinet 
level to coordinate efforts across 22 Federal agencies to assist these 
communities. Under the auspices of the EAC, team visits will likely be 
undertaken to locations to better understand the local adjustment 
challenge and more capably address potential needs for other Federal 
assistance. A report documenting the efforts of the EAC to date will be 
submitted shortly for your review.

                        MANAGING INFRASTRUCTURE

    The President's budget request for fiscal year 2008 will permit the 
Department to continue its efforts to manage installation assets 
comprehensively and efficiently. Along with continued improvement in 
business practices and a focus on environmental sustainability, the 
Department is focused on improving the quality of military 
installations as evidenced by the emphasis on more accurate Quality 
Ratings that are currently being collected by the military departments. 
Managing DOD real property assets is an integral part of comprehensive 
asset management. The Department currently manages over 533,000 
buildings and structures, which reside on over 51,400 square miles of 
real estate.
    The President's Management Agenda Real Property Asset Management 
initiative focuses on improved asset management planning, inventory and 
performance measure data, and the disposal of unneeded assets. DOD has 
implemented an asset management plan and provides inventory and 
performance data to the Federal Real Property Profile annually. DOD's 
Real Property Inventory Requirements implementation continues to refine 
the quality of data collected and reported to the government-wide 
database. We continue to improve our progress on the Real Property 
Scorecard.
    The quality of infrastructure directly affects training and 
readiness. To that end, the Department is incorporating installations 
assessments more fully into the Defense Readiness Reporting System. DOD 
has made significant progress in integrating its installations into 
this Department-wide program. There is currently an operational system 
in the Navy, Defense Readiness Reporting System-Navy, which is based on 
the contribution of installations to the achievement of mission 
essential tasks. To better manage infrastructure investments, the 
Department continues to develop models and metrics to predict funding 
needs. The Facilities Program Requirements Suite, a Web-based suite of 
real property inventory data models and fact sheets, continues to be 
refined and further expanded to more accurately determine requirements, 
predict funding needs, and better manage infrastructure investments.
Sustainment
    Facilities sustainment provides funds for maintenance and major 
repairs or replacement of facility components that are expected to 
occur periodically throughout the life cycle. Sustainment prevents 
deterioration, maintains safety, and preserves performance over the 
life of a facility. To forecast funding requirements, DOD developed the 
Facilities Sustainment Model using standard benchmarks for sustainment 
unit costs by facility type (such as cost per square foot of barracks) 
drawn from the private and public sectors. This model has been used to 
develop the Service budgets since fiscal year 2002 and for several 
Defense Agencies since fiscal year 2004. Full funding of facilities 
sustainment has been and continues to be the foundation and first 
element of the Department's long-term facilities strategy and goals. In 
fiscal year 2007, the Department-wide sustainment was budgeted at 90 
percent. In balancing risk across the Department's program, the fiscal 
year 2008 budget request reflects a slight decrease in the department-
wide sustainment funding rate to 88 percent, although the total amount 
of funds requested for the program represent an increase of $466 
million. The Department-wide long term goal remains full funding for 
sustainment to optimize the investment in our facilities and ensure 
their readiness.

                SUSTAINMENT AND RECAPITALIZATION REQUEST
               (President's Budget in Millions of Dollars)
------------------------------------------------------------------------
                                                    Fiscal Year Request
                                                 -----------------------
                                                     2007        2008
------------------------------------------------------------------------
Sustainment (O&M-like) *........................       6,276       6,733
Restoration and Modernization (O&M-like plus) *.         992       1,353
Restoration and Modernization (MilCon)..........       6,093       6,736
                                                 -----------------------
  Total SRM.....................................      13,352      14,822
------------------------------------------------------------------------
* Includes O&M as well as related military personnel, host nation, and
  working capital funds and other appropriations such as RDT&E.

Recapitalization
    Recapitalization includes restoration and modernization, provides 
resources for improving facilities, and is the second element of our 
facilities strategy. Recapitalization is funded primarily with either 
O&M or military construction appropriations. Restoration includes 
repair and replacement work to restore facilities damaged by inadequate 
sustainment, excessive age, natural disaster, fire, accident, or other 
causes. Modernization includes alteration of facilities solely to 
implement new or higher standards, to accommodate new functions, or to 
replace building components that typically last more than 50 years.
    The current DOD goal remains a recapitalization rate of 67 years. 
In fiscal year 2001, the Department's recapitalization rate was 192 
years. This budget request supports a recapitalization rate of 67 
years, an improvement over last year's budgeted rate of 72 years. The 
improvement in the rate is largely due to investments associated with 
BRAC construction investments and the Global Defense Posture 
realignment. Currently, DOD is in the process of developing and 
fielding a new recapitalization model for assessing the replacement 
cycle that will improve upon the existing recapitalization metric 
through the inclusion of depreciation schedules and other benchmark 
improvements that are derived from private and public sector standards.
    The Department remains committed to maintaining a rate of 
investment in facilities recapitalization that will improve, modernize, 
and restore existing facilities while at the same time replacing 
facilities in support of efforts to reshape and realign infrastructure. 
However, as the Department consolidates and reshapes its 
infrastructure, it will also experience localized growth in the size of 
the facilities footprint. This is necessary to provide the quality and 
quantity of facilities and assets necessary to support military 
personnel and their families. These efforts include facilities to 
support Army Transformation, Navy and Marine Corps barracks, and 
facilities for the beddown of new weapons systems such as Predator, F-
22, and the Joint Strike Fighter.
    On January 24, 2006, DOD joined 16 other Federal agencies in 
signing a Memorandum of Understanding (MOU) for Federal Leadership in 
High Performance and Sustainable Buildings. The MOU indicates a 
commitment to incorporate sustainable design principles through a 
comprehensive approach to infrastructure management.
    The Department continues to emphasize the elimination of excess and 
obsolete facilities, and to encourage the aggressive pursuit of 
demolition to avoid unnecessary facilities sustainment and support 
costs. This effort to eliminate facilities that are no longer needed is 
separate and distinct from the BRAC process. With approximately 48 
million square feet of infrastructure identified for elimination, the 
military Services and selected defense agencies are in the process of 
refining their annual targets for disposal and consolidation of excess 
capacity.
    The Department established a common definition for Facilities 
Operation, formerly referred to as ``Real Property Services.'' The 
budget request includes $7.15 billion for this program, to address 
utilities, leases, custodial services, grounds maintenance, and other 
related functions. The Facilities Operation Model was fielded to 
develop standard requirements, and the Department is continuing to 
refine the model with particular emphasis on Fire and Emergency 
Services, and Real Property and Engineering Management.
Installations Support
    The Defense Installations Strategic Plan articulates the need to 
define common standards and performance metrics for managing 
installation support, and the Department has made considerable progress 
in this area. DOD's objective is to introduce capabilities-based 
programming and budgeting within a framework for the Common Delivery of 
Installations Support which will link installation support capabilities 
to warfighter requirements. The Common Delivery of Installations 
Support also will play a large role in implementation of Joint Basing 
required by BRAC 2005. Guidance for implementing Joint Basing was 
developed in coordination with the Military Components and is currently 
in the review process.
    During the past year, DOD made significant progress toward 
developing Common Output Level Standards for all other functions of 
Installations Support to include Environment, Family Housing Operations 
and Services (formerly known as Base Operations Support). This effort 
is yielding common definitions and tiered performance output levels. 
These metrics are currently being further refined and a costing model 
initiative will soon be underway.
    The military construction appropriation is a significant source of 
facilities investment funding. The fiscal year 2008 Defense Military 
Construction and Family Housing Appropriation request totals $21.2 
billion. This funding will enable the Department to rapidly respond to 
warfighter requirements, enhance mission readiness, and provide for its 
people. This is done, in part, by restoring and modernizing enduring 
facilities, acquiring new facilities where needed, and eliminating 
those that are excess or obsolete.

     COMPARISON OF MILITARY CONSTRUCTION AND FAMILY HOUSING REQUESTS
      (President's Budget in Millions of Dollars--Budget Authority)
------------------------------------------------------------------------
                                                    Fiscal Year Request
                                                 -----------------------
                                                     2007        2008
------------------------------------------------------------------------
Military Construction...........................       6,390       9,480
NATO Security Investment Program................         221         201
Base Realignment and Closure IV.................         191         220
Base Realignment and Closure 2005...............       5,626       8,174
Family Housing Construction/Improvements........       2,092       1,080
Family Housing Operations and Maintenance.......       1,989       1,851
Chemical Demilitarization.......................         131          86
Family Housing Improvement Fund.................           3         0.5
Energy Conservation Investment Program..........          55          70
                                                 -----------------------
  Total.........................................      16,698      21,165
------------------------------------------------------------------------

                       IMPROVING QUALITY OF LIFE

    A principal priority of the Department is to support military 
personnel and their families and improve their quality of life by 
ensuring access to suitable, affordable housing. Servicemembers are 
engaged in the frontlines of protecting our National security and they 
deserve the best possible living and working conditions. Sustaining the 
quality of life of our people is crucial to recruitment, retention, 
readiness, and morale. At the outset of this administration, the 
President and the Department's leadership identified revitalizing 
housing, largely through privatization, as a central priority for the 
Department. An aggressive target of 2007 was established to meet that 
goal. By late fiscal year 2007, DOD will effectively complete all 
procedures to eliminate nearly all inadequate domestic family housing. 
More than 90 percent of our inadequate housing will be turned over to 
the private sector for replacement or renovation and the remainder will 
be in the final stages of solicitation for award. As of February 2007, 
over 110,000 housing units determined to be inadequate have been 
privatized. Inadequate units are considered to be eliminated when they 
are conveyed to the private owner, who then revitalizes the housing.
    The Department continues to rely on three pillars to improve 
housing thereby, enhancing the quality of life for our servicemembers: 
(1) Provide the basic allowance for housing (BAH) at zero-out-of-pocket 
expense for the average servicemember living in private sector housing 
(achieved in 2005, now maintaining); (2) Privatization of family 
housing, where feasible; and, (3) Military Construction funding for all 
other domestic and all overseas locations.
    The Department relies on a ``community first'' (private sector) 
approach to provide quality housing to its members and their families. 
Only when the private market demonstrates that it cannot supply 
sufficient levels of quality, affordable housing does the Department 
provide housing to our military families; first through the use of 
privatization, and where that is not feasible through government-owned 
and leased housing. For example, in the absence of privatization 
authorities overseas, we address our housing needs there through 
military construction and leasing.
    To ensure the Department is making the best investment decisions 
when determining the appropriate level of housing, the government 
provides a single and consistent methodology for calculating its 
housing requirement. This methodology was introduced in January 2003 
and is being utilized extensively by the Services. Currently, 75 
percent of military families living in the continental United States, 
Alaska, and Hawaii receive BAH (with 60 percent living in the local 
community, and 15 percent in privatized housing). An additional 22 
percent of our military families are provided government-owned housing 
and 3 percent live in leased housing. DOD projects that by the end of 
fiscal year 2008 over 90 percent of military families will be receiving 
BAH, thus allowing families the opportunity to make housing choices 
according to their individual preferences.
    As of February 2007, the Department has awarded 71 privatization 
projects, which includes over 147,000 total military family housing 
units privatized. The private sector's cumulative contribution to the 
71 awarded deals awarded thus far totals over $20 billion (or 90 
percent) of total project development costs. The Services have 
contributed $1.5 billion in development costs primarily through equity 
investment or government direct loans.
    For fiscal year 2008, the Department requests $2.93 billion, a 
decrease of $1.2 billion from the fiscal year 2007 President's budget 
request. The decrease reflects cost savings realized by the Department 
achieving its respective goal to eliminate inadequate housing and to 
privatize the inventory on a cost-effective basis. The Department's 
privatization plans in the fiscal year 2008 budget will ultimately 
result in the privatization of over 90 percent of its domestic family 
housing inventory, or roughly 194,000 units privatized by the end of 
fiscal year 2008.

        <bullet> Fiscal year 2008 funding provides for the continuation 
        of the privatization program to reduce costs to the government 
        and provide quality housing to service members and their 
        families. The fiscal year 2008 request will privatize 4,261 
        family housing.
        <bullet> Fiscal year 2008 request provides $353 million for the 
        Army and Navy ``Grow the Force'' initiative, which will provide 
        housing support for end-strength increases.
        <bullet> 1.9 billion to operate and maintain approximately 
        80,000 government-owned family housing units, and lease 38,000 
        units worldwide.

    In fiscal year 2008 and beyond, DOD will monitor the military 
housing privatization projects over the next 40+ years and conduct 
oversight of their financial performance. DOD will protect the 
government's interest while acknowledging that it is the responsibility 
of the private sector to take the lead on operating these projects. 
Current project highlights include:

        <bullet> The majority of the awarded privatization projects 
        initial development plans for renovation/construction are on 
        schedule.
        <bullet> Thirteen projects have completed their construction/
        renovation schedules.
        <bullet> The privatization projects are achieving 90 percent 
        occupancy across all projects.
        <bullet> There have been no defaults for the awarded projects.
        <bullet> Awarded projects are receiving high tenant 
        satisfaction ratings.

    Finally, in fiscal year 2008 DOD will continue to push expansion of 
the privatization authorities for unaccompanied housing and lodging. In 
fiscal year 2007, the Navy executed the first Unaccompanied Housing 
pilot project in San Diego in December 2006, with two additional 
projects planned--Hampton Roads, VA (award April 2007), and Mayport, FL 
(future date to be determined). The Army anticipates award of the first 
Lodging Privatization project in September 2007.

                          COMPETITIVE SOURCING

    The DOD continues to strongly support the President's Management 
Agenda Initiative for Competitive Sourcing. Introducing private sector 
competition into commercial functions performed by the Department 
improves business efficiency and reduces cost to the taxpayer. Public/
private competitions using the procedures of OMB Circular A-76 have 
demonstrated substantial savings whether the in-house or private sector 
wins the competition. During Fiscal Years 2000 through 2006, the 
Department completed 870 such competitions encompassing about 91,000 
positions. These competitions will have resulted in over $9 billion in 
savings (cost avoidance) over the life of the resulting performance 
periods, normally about 5 years. The Department has an additional 7,969 
positions currently undergoing competitions, plans to compete 10,000 
positions in fiscal year 2007, and expects to maintain the same level 
of competitions in fiscal year 2008.
    These new competitions use the procedures of OMB Circular A-76 
which evaluate public and private proposals concurrently using the 
Federal Acquisition Regulations. As the Department's designated 
Competitive Sourcing Official, my office is working continuously to 
improve the competition process. For example, competitions that used to 
take up to 48 months to complete can now be completed in as little as 
12 months. Such improvements will reduce stress on our workforce and 
will make savings available earlier to reinvest in the Department's 
operation.

                           ENERGY MANAGEMENT

    The Department continues to aggressively attempt to reduce its 
energy consumption and associated costs, while improving utility system 
reliability and safety. To that end, DOD developed a comprehensive 
energy strategy and issued updated policy guidance incorporating the 
provisions and goals of the Energy Policy Act (EPAct) of 2005 and is 
implementing the recent enactment of the new chapter 173 of title 10, 
U.S.C. The Department is also in the early stages of implementation of 
Executive Order 13423, recently issued by the President to strengthen 
Federal environmental, energy, and transportation management. This 
strategy will continue to optimize utility management by conserving 
energy and water usage, improving energy flexibility by taking 
advantage of restructured energy commodity markets when opportunities 
present themselves.
    DOD, as the largest single energy consumer in the Nation, consumed 
$3.5 billion of facility energy in fiscal year 2006. Though overall 
cost continues to increase due to commodity costs, consumption has 
decreased from the 2003 baseline. Our program includes investments in 
cost-effective renewable energy sources or energy efficient 
construction designs, and aggregating bargaining power among regions 
and the Services to achieve more effective buying power.
    The Department's efforts to conserve energy are paying off. In 
fiscal year 2006, military installations reduced consumption by 5.5 
percent, exceeding the energy conservation goal of 2 percent. Energy 
conservation projects accomplished through Energy Savings Performance 
Contracts (ESPC) typically account for more than half of all facility 
energy savings. Lapse of ESPC authority in 2004 negatively affected the 
Department's ability to reach the 30 percent reduction goal under 
Executive Order 13123. However, with ESPC authority reauthorized in the 
National Defense Authorization Act for Fiscal Year 2005 and extended 
for an additional 10 years in the EPAct of 2005, DOD has launched an 
aggressive awareness campaign and is well on its way to meeting the new 
goals established in the EPAct of 2005. Use of ESPC for 2006 increased 
316 percent, reaching an award value over $586 million.
    DOD has significantly increased its focus on purchasing renewable 
energy and developing resources on military installations. Renewable 
energy projects are consistently more expensive than similar 
conventional energy sources, resulting in limited opportunities but 
that are life cycle cost effective. The Department has increased the 
use of Energy Conservation Investment Program (ECIP) funds for 
renewable energy projects from $5 million in fiscal year 2003 to $17 
million planned in fiscal year 2007, and to $24 million budgeted for 
fiscal year 2008 out of a $70 million ECIP request. The fiscal year 
2007 program for ECIP also contains $2.6 million in hydrogen fuel cell 
projects. The Department easily exceeded the EPAct 2005 renewable 
energy goal of 2.5 percent in fiscal year 2006. The Department's total 
renewable energy purchases and generation accounted for 9.5 percent of 
all electricity use. Also, while EPAct 2005 did not articulate a 
specific water reduction goal, the new Executive Order 13423 does have 
a goal of a 2 percent water reduction per year. The Department has 
reduced water usage by an impressive 29.6 percent from the fiscal year 
2003 baseline year.

                        ENVIRONMENTAL MANAGEMENT

Managing Cleanup
    The Department is committed to cleaning up property that, as the 
result of past military activities, is contaminated with hazardous 
substances and military munitions. DOD has achieved ``remedy in place'' 
or ``restoration complete'' status at 85 percent (16,833 out of 19,796) 
of its environmental restoration sites on active installations. As of 
the end of fiscal year 2006, 85 percent (4,275 out of 5,010) of the 
environmental restoration sites at BRAC locations closed or realigned 
by the first four rounds of BRAC or closed in BRAC 2005 have a cleanup 
remedy constructed and in place and operating successfully, or have had 
all necessary cleanup actions completed in accordance with 
Comprehensive Environmental Response, Compensation, and Liability Act 
of 1980 (CERCLA) standards. Hazardous substance cleanup at Formerly 
Used Defense Sites (FUDS) has achieved ``remedy in place'' or 
``restoration complete'' status at 53 percent (2,487 out of the 4,654) 
of known sites.
    As of the end of fiscal year 2006, DOD fulfilled its cleanup 
obligations at over 122 of the approximately 373 identified Military 
Munitions Response Plan (MMRP) sites at BRAC installations, and has 
cleanup actions underway at 251 sites. A similar situation can be found 
at FUDS, where 29 percent of the MMRP sites identified have had all 
cleanup actions completed. Over 473 of the 1,633 FUDS with currently 
identified Unexploded Ordnance (UXO) contamination have been addressed, 
and another 1,160 are undergoing cleanup actions or study.
Environmental Management Systems
    DOD implemented environmental management systems (EMS) as required 
by Executive Order 13148 at all appropriate facilities. This 
transformation embeds environmental management as a systematic process, 
fully integrated with mission planning and sustainment and is essential 
for continued successful operations at home and abroad. Implementing 
EMS helps preserve range and operational capabilities by creating long-
term, specific and measurable targets in comprehensive programs to 
sustain capability while maintaining healthy ecosystems. Benefits 
accrued to date are an increased awareness of environmental issues and 
how they can impact operations, increased communication and cooperation 
between departments, new initiatives to mitigate environmental impact 
and risk, and strengthened relationships with communities and 
regulators.
Pollution Prevention
    Maintaining compliance with environmental laws is an integral part 
of sustaining DOD operations. From fiscal year 2000 through fiscal year 
2006 the Department reduced the number of new Federal and State 
enforcement actions received by 18 percent while the number of 
regulatory inspections increased by 6 percent during the same time 
period. In 2005, DOD installations reached a 95 percent compliance rate 
with wastewater treatment permits. For the 3.4 million customers served 
by DOD drinking water systems, in 2005, less than 7 percent of the 
population received notice that their water exceeded a drinking water 
standard (most ``exceedences'' were not immediate health concerns and 
both interim and long-term solutions are either completed or underway). 
The Department continues to demonstrate a commitment to reduce solid 
and hazardous waste. From 2000 through 2005, the Department reduced 
hazardous waste over 15 percent by using various pollution prevention 
opportunities. In 2006, over 3.7 million tons of solid waste was 
diverted from landfills which avoided approximately $153 million in 
landfill costs. This 59 percent diversion rate exceeds the Department's 
diversion goal of 40 percent in 2005. Integrating a strong compliance 
program into installation environmental management systems will 
strengthen this program.

                       SUSTAINING THE WARFIGHTER

    Our Nation's warfighters require the best training and the best 
equipment available. This means sustaining our vital range and 
installation infrastructure, both here and abroad, where we test 
equipment and conduct training. Development in the vicinity of DOD 
installations and ranges continues to challenge sustainability. The 
unintended consequences of this encroachment upon our ranges and 
installations are varied, and include such issues as more noise 
complaints from new neighbors; diminished usable airspace due to new 
structures or increased civil aviation; a compromised ability to test 
and train with the frequency needed in time of war; and a loss of 
habitat for endangered species.
    History and experience gained over decades demonstrate that proper 
training of U.S. troops will result in victory. Assured access to 
operational ranges is the only way to continue that training. In 2001 
the Department undertook the Readiness and Range Preservation 
Initiative to achieve a balance between national defense and 
environmental policies. As a result, DOD has successfully balanced the 
statutory requirements of the Migratory Bird Treaty Act, the Marine 
Mammal Protection Act, and the Endangered Species Act with our National 
defense mission requirements. However, the Department continues to seek 
legislative clarification under the Clean Air Act, the Comprehensive 
Environmental Response, Compensation, and Liability Act, and the 
Resource Conservation and Recovery Act.
    Congress provided statutory authority to use O&M funds to create 
buffers around our ranges and installations. Using this authority the 
Department established the Readiness and Environmental Protection 
Initiative (REPI) and has worked with willing partners to cost-share 
land conservation solutions that benefit military readiness and 
preserve natural habitat. In fiscal year 2005, REPI leveraged $12.5 
million of O&M funding to secure $48.2 million worth of buffer land and 
easements, encompassing 10,238 acres at 7 installations. The 2006 and 
2007 projects will continue to leverage REPI funds against partner 
contributions. REPI and partner funding has allowed DOD to protect the 
Navy's one-of-a-kind La Posta Mountain Warfare Training Facility in 
California; to keep training areas open at Marine Corps Base Camp 
Lejeune, NC; and buffer live-fire training ranges at Fort Carson, CO. 
Overall in fiscal year 2006, REPI initiated 23 projects in 17 States, 
and for fiscal year 2007 an additional 32 projects have been identified 
for funding. The Department has requested $30 million in the fiscal 
year 2008 budget to support REPI.
    Partnerships are essential to success and the Department continues 
to work with State governments and other Federal agencies in the 
Southeast Regional Partnership for Planning and Sustainability 
(SERPPAS). In 2006, the State of Alabama joined North Carolina, 
Florida, Georgia, and South Carolina as SERPPAS State members. Through 
this process, the partners hope to promote better planning related to 
growth, preservation of open space and protection of the region's 
military installations. The regional approach to facilitate dialogue 
and to address issues of mutual concern is proving successful, and in 
2006, the Department took the initial steps to establish a regional 
partnership in the western States.
    In 2006, DOD worked closely with other Federal agencies to sustain 
military readiness. At Fort Riley, KS, the Department of Agriculture's 
Natural Resource Conservation Service and DOD signed a MOU to work 
together on conservation efforts that sustain agricultural productivity 
on private lands that will buffer military lands. On energy issues, the 
DOD is working with other Federal agencies to ensure that wind farm 
projects and energy transmission corridors are compatible with military 
readiness activities. The Department is also working with the 
Department of Homeland Security to ensure that our military readiness 
activities and infrastructure in border regions are not impacted by new 
security measures. Outreach to non-Federal and non-governmental 
organizations continues to be a significant part of the Department's 
sustainability program, and today we are working with State, county, 
and local governments, Indian tribal, and environmental groups on 
issues of mutual concern to seek win-win solutions. Overseas, DOD is 
developing mission sustainment procedures to work with our host nations 
Global Defense Posture partners. To sustain today's warfighters, and 
our Nation's future warfighters, DOD will continue its engagement and 
partnering efforts.

                    INTEGRATING BUSINESS ENTERPRISES

    The Department as a whole has made significant strides in breaking 
down the cultural and information technology (IT) systems barriers that 
hinder business agility. There is an increased need for tighter 
alignment of end-to-end business functions, better management 
visibility into operations, and a definitive focus on execution 
excellence. The current climate of making measurable business 
improvements every 6 months, tied to releases of the DOD Business 
Enterprise Transition Plan, has succeeded in driving progress. Changing 
the cultural mindset has meant redefining Defense business in terms of 
functions performed and the customers served, rather than who performs 
them. Breaking down IT systems barriers has meant, among other things, 
using common standards to integrate the business data owned by the 
components.
    The Real Property and Installation Lifecycle Management (RP&ILM) 
Core Business Mission area has had tremendous success with business 
transformation because it has been driven by the top leadership and 
supported across all components and all levels. Over the past few 
years, RP&ILM has developed enterprise wide capabilities for real 
property accountability and visibility, environmental liability 
accountability and valuation, and hazardous materials operational 
controls. These capabilities are founded on requirements for standard 
business processes, data elements, and business rules. The military 
departments and agencies, in coordination with the DUSD (I&E), have 
begun implementation efforts for these capabilities.
    I&E community leadership actively oversees IT system investments to 
ensure that IT systems are being modernized to support the new business 
enterprise capabilities. I&E has become a leader in implementing DOD's 
net-centric vision and has already stood up a site unique identifier 
registry, that will allow all IT systems (and communities) with a need 
for location information to easily get authoritative source 
information. All of this foundational and transformational work has 
been achieved because of the established RP&ILM governance processes. 
These governance processes support federated management because the 
business owners themselves drive business modernization and the 
associated support IT. This work has also been completely integrated 
into the activities of the Business Transformation Agency, ensuring 
that RP&ILM capabilities support the broader DOD enterprise business 
transformation efforts.
    During the past year, the Department expanded its efforts beyond 
defining transformation requirements to actual implementation of 
business transformation. Each military Service has either completed and 
is implementing, or is developing implementation plans, to deliver 
these reengineered capabilities. Some of our recent successes include:

        <bullet> Ability to assign unique identifiers to all DOD's 
        sites. For the first time in our history, the warfighter and 
        business mission areas will have the ability to obtain access 
        to real property site information at the push-of-a-button, with 
        assurance that the data is authoritative and consistent from 
        Service to Service.
        <bullet> Development of Real Property Inventory Requirements 
        (RPIR) compliance assessment tools and procedures. These tools 
        assure that the Services will implement and maintain 
        consistent, accurate, and complete information on our vast and 
        geographically diverse real property asset portfolio.
        <bullet> Update of antiquated policies. Policy change promotes 
        behavioral change. Building on this best practice, DOD is in 
        the process of updating policies to include modernized 
        processes for construction in progress, real property 
        acceptance, and workplace hazard communication.
        <bullet> Completion of standardized requirements for the 
        management of regulatory and chemical hazardous materials 
        information. This success allows the Defense Logistics Agency 
        to serve the entire Department with standardized regulatory 
        information on hazardous materials from a central repository of 
        authoritative data. As the Services use this information in 
        their business processes, DOD will realize cost savings, and 
        more importantly, improve operational control of mission 
        activities involving hazardous materials.
        <bullet> The funding of a pilot to utilize geospatial 
        information systems and RPIR processes to determine official 
        DOD boundaries for land parcels. The pilot also supports 
        mapping any known environmental liabilities as outlined in the 
        new Environmental Liabilities requirements. This pilot will 
        enable DOD to reap many benefits as accurate geospatial 
        information will be easily available and no longer isolated in 
        the real property community.
        <bullet> The development of Spatial Data Standards for 
        Facilities, Infrastructure, and Environment (SDSFIE). Precision 
        and speed are no longer unique qualifiers of the operational 
        community alone. DOD is applying these drivers to core business 
        mission areas as well. Fundamental to total asset management is 
        knowing exactly where an asset is geographically located. The 
        SDSFIE will ensure a level of accuracy and consistency never 
        before seen as the Department geospatially enables its business 
        areas.

                               CONCLUSION

    In closing, Mr. Chairman, I sincerely thank you for this 
opportunity to highlight the Department's successes and outline its 
plans for the future. I appreciate your continued support of our 
installations and environment portfolio, and I look forward to working 
with you as we transform these plans into actions.

    Senator Akaka. Thank you very much, Mr. Grone, for keeping 
it brief.
    Secretary Eastin.

 STATEMENT OF HON. KEITH E. EASTIN, ASSISTANT SECRETARY OF THE 
              ARMY, INSTALLATIONS AND ENVIRONMENT

    Mr. Eastin. Thank you. I will try to be even briefer.
    The Army brings to you this year a rather ambitious program 
and it is ambitious only because we have a lot going on there. 
We are in the midst of transforming our Army from a division-
centric to a brigade-centric force that can be more reactive to 
world situations. We are involved in the BRAC procedures. We 
are involved in bringing back some of our soldiers from Korea 
and bringing back some likely from Germany. Then on top of 
that, the President has asked us to try to grow the Army, both 
the Active, Reserve, and Guard components.
    So we have a lot going on. In the BRAC realignment itself 
we are looking at something like 45,000 people moving about 
installations, here and there, between military and civilians. 
Global Defense Posture Review (GDPR), you may recall, brings 
back people from Korea and Germany, is another 50,000. All 
these people need places to stay, need places to train, and 
need places to raise their families.
    Add to that the growth of the Army, give or take 74,000 
(65,000 Active, 8,200 Guard, and 1,000 Reserve) here in the 
next 5 years. They too need places to stay, places to train, 
places to deploy from, and the installations to go along with 
it.
    We are under no illusions that this is not just a heck of a 
lot of money, but it also is a heck of a lot of jobs that we 
have in front of us to make this all work. So we look forward 
to answering your questions today.
    [The prepared statement of Mr. Eastin follows:]

               Prepared Statement by Hon. Keith E. Eastin

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, it is a pleasure to 
appear before you to discuss the Army's military construction budget 
request for fiscal year 2008. We have a robust budget that is crucial 
to the success of the Army's new initiatives and sustains vital, 
ongoing programs of critical importance to the Army. We appreciate the 
opportunity to report on them to you. We would like to start by 
thanking you for your unwavering support to our soldiers and their 
families serving our Nation around the world. They are and will 
continue to be the centerpiece of our Army, and they could not perform 
their missions so successfully without your steadfast support.

     OVERVIEW--TRANSFORMING INSTALLATIONS WHILE THE ARMY IS AT WAR

    Installations are the home of combat power--a critical component of 
the Nation's force capabilities. Your Army is working hard to ensure 
that we deliver cost-effective, safe, and environmentally sound 
capabilities and capacities to support the National defense mission.
    The tremendous changes in our National security environment since 
the terrorist attacks on our Nation clearly underscore the need for a 
joint, integrated military force ready to defeat all threats to U.S. 
interests. To meet these security challenges, we require interrelated 
strategies centered on people, forces, quality of life, and 
infrastructure. Regarding infrastructure, we need a global framework of 
Army installations, facilities, ranges, airfields, and other critical 
assets that are properly distributed, efficient, and capable of 
ensuring that we can successfully carry out our assigned roles, 
missions, and tasks that safeguard our security at home and abroad.
    Army infrastructure must enable the force to fulfill its strategic 
roles and missions to generate and sustain combat power. As we 
transform our operational forces, so too must we transform the 
institutional Army and our installation infrastructure to ensure this 
combat power remains relevant and ready. We will accomplish these 
efforts by the combined stationing efforts of Base Realignment and 
Closure (BRAC) 2005, Global Defense Posture Realignment (GDPR), Army 
Modular Force Transformation, and the President's ``Grow the Force'' 
initiative.
Stationing
    The stationing initiative is a massive undertaking, requiring the 
synchronization of base realignments and closures, military 
construction and renovation, unit activations and deactivations, and 
the flow of forces to and from current global commitments. Our 
decisions to synchronize activities associated with stationing and 
realigning our global basing posture continue to be guided by the 
following key criteria:

        <bullet> Meeting operational requirements
        <bullet> Providing economic benefits
        <bullet> Using existing infrastructure to reduce cost and 
        excess capacity
        <bullet> Funding critical requirements to achieve unit mission
        <bullet> Compliance with applicable laws
        <bullet> Minimizing the use of temporary facilities
        <bullet> Giving facility priority to ranges, barracks, housing, 
        vehicle maintenance shops, headquarters and operations, dining, 
        and instruction facilities

    Completion of this combined set of initiatives will result in an 
Army that is better positioned to respond to the needs and requirements 
of the 21st century security environment, with our soldiers and 
families living at installations that are truly ``Flagships of Army 
Readiness.''
Infrastructure Quality
    In addition to mission support, our installations provide the base 
of support for soldiers and their families. The environment in which 
our soldiers train, our civilians work, and our families live plays a 
key role in recruiting and retaining the high quality people the Army 
needs. Through efforts such as Barracks Modernization and Residential 
Communities Initiative (RCI) housing privatization, the Army has made 
tremendous progress in improving the quality of life for soldiers and 
their families. These efforts will combine with the Army's 
stabilization of the force to forge greater bonds between units, 
soldiers, families, and the communities in which they live.
    The quality of our installations is critical to support the Army's 
mission, its soldiers, and their families. Installations serve as the 
platforms we use to train, mobilize, and rapidly deploy military power. 
When forces return from deployments, installations enable us to 
efficiently reset and regenerate combat power for future missions. In 
the past year, the Army has made tremendous progress in enhancing 
training and improving its ability to generate and reset the force.
Global Defense Posture Realignment (GDPR)
    The United States' global defense posture defines the size, 
location, types, and roles of military forces and capabilities. It 
represents our ability to project power and undertake military actions 
beyond our border. Together with our overall military force structure, 
our global defense posture enables the United States to assure allies, 
dissuade potential challengers, deter enemies, and, if necessary, 
defeat aggression. The new global defense posture will be adjusted to 
the new security environment in several key ways: (1) expand allied 
roles, build new partnerships, and encourage transformation; (2) create 
greater operational flexibility to contend with uncertainty; (3) focus 
and act both within and across various regions of the world; and (4) 
develop rapidly deployable capabilities, and lastly, the United States 
and its allies and partners will work from a different paradigm than in 
the past: GDPR will relocate approximately 45,500 soldiers and their 
families from Europe and Korea to the United States over the next 5 to 
6 years. These moves are critical to ensure Army forces are properly 
positioned worldwide to support our National Military Strategy. The new 
posture will yield significant gains in military effectiveness and 
efficiency in future conflicts and crises and will enable the U.S. 
military to fulfill its many global roles. The new posture will also 
have a positive effect on our military forces and families. While we 
will be moving toward a more rotational and unaccompanied forward 
presence, these rotations will be balanced by more stability at home 
with fewer overseas moves and less disruption in the lives of spouses 
and dependents.
Army Modular Force
    The Army Modular Force initiative transforms the Army from units 
based on the division organization into a more powerful, adaptable 
force built on self-sufficient, brigade-based units that are rapidly 
deployable. These units, known as Brigade Combat Teams (BCTs), consist 
of 3,500 to 4,000 soldiers. BCTs increase the Army's combat power while 
meeting the demands of global requirements without the overhead and 
support previously provided by higher commands. The main effort of Army 
transformation is the Army Modular Force, which reorganizes the Total 
Army: the active component, Army National Guard, and Army Reserve into 
modular theater armies, theater support structure, corps and division 
headquarters, BCTs, and multi-functional and functional support 
brigades. The Army is reorganizing from a division-based to a modular 
brigade-based force to achieve three primary goals:
    First, increase the number of available BCTs to meet operational 
requirements while maintaining combat effectiveness equal to or better 
than previous divisional brigades. Second, create brigade-size combat 
support and combat service support formations of common organizational 
designs that can be easily tailored to meet the varied demands of the 
geographic combatant commanders and reduce the complexities of joint 
planning and execution. Third, redesign organizations to perform as 
integral parts of the joint force, making them more effective across 
the range of military operations and enhancing their ability to 
contribute to joint, interagency, and multinational efforts. By 
implementing the Army Modular Force, the Army is transforming to be 
better prepared to meet the challenges of the new security environment 
characterized by continuous full-spectrum operations against adaptive 
enemies in complex environments.
    The fiscal year 2008 budget includes projects to ensure that our 
facilities continue to meet the demands of force structure, weapons 
systems, and doctrinal requirements. As of fiscal year 2006, we have 
funded 93 percent of the military construction requirements for the 
Stryker BCTs, including Army National Guard requirements in 
Pennsylvania. Remaining construction funding for both the Active Army 
and Army National Guard will be requested in future budget requests.
    New facility requirements for transforming units are being 
provided, where feasible, through the use of existing assets. Where 
existing assets are not available, the Army is programming high-
priority projects to support soldiers where they live and work. The 
Army is requesting $414 million for fiscal year 2008 to provide 
permanent facilities in support of the BCTs. The remaining Army Modular 
Force requirements will be addressed in future budget requests.
Grow the Army
    The President's recent Grow the Force initiative announced on 
January 10, 2007, will increase the Army by 74,000 soldiers over the 
next 5 years. Part of this year's request, $2.363 billion, supports 
this initiative. Grow the Army projects include essential facilities 
required to support the increase in end strength such as brigade 
complexes and associated combat support, combat service support, 
training, and quality of life facilities worldwide. Funding is 
requested for planning and design and military construction projects in 
the active Army, Army National Guard, and for Army Family Housing. 
Details for these projects will be provided separately.

                             THE WAY AHEAD

    To improve the Army's facilities posture, we have undertaken 
specific initiatives or budget strategies to focus our resources on the 
most important areas--Range and Training Lands, Barracks, Family 
Housing, and Workplaces.
    Range and Training Lands. Ranges and training lands enable our Army 
to train and develop its full capabilities to ensure our soldiers are 
fully prepared for the challenges they will face. Our Army Range and 
Training Land Strategy supports Army transformation and the Army's 
Sustainable Range Program. The Strategy identifies priorities for 
installations requiring resources to modernize ranges, mitigate 
encroachment, and acquire training land.
    Barracks. Providing safe, quality housing is a crucial commitment 
the Army has made to its soldiers. We owe single soldiers the same 
quality housing that is provided to married soldiers. Modern barracks 
are shown to significantly increase morale, which positively impacts 
readiness and quality of life. The importance of providing quality 
housing for single soldiers is paramount to success on the battlefield. 
The Army is in the 15th year of its campaign to modernize barracks to 
provide 134,500 single enlisted permanent party soldiers with quality 
living environments. The new complexes meet DOD ``1+1'' or equivalent 
standard by providing two-soldier suites, increased personal privacy, 
larger rooms with walk-in closets, new furnishings, adequate parking, 
landscaping, and unit administrative offices separated from the 
barracks.
    Family Housing. This year's budget continues our significant 
investment in our soldiers and their families by supporting our goal to 
have contracts and funding in place to eliminate remaining inadequate 
housing at enduring overseas installations by the end of fiscal year 
2009. The U.S. inadequate inventory was funded for elimination by the 
end of fiscal year 2007 through privatization, conventional military 
construction, demolition, divestiture of uneconomical or excess units 
and reliance on off-post housing. For families living off post, the 
budget for military personnel maintains the basic allowance for housing 
that eliminates out of pocket expenses.
    Workplaces. Building on the successes of our family housing and 
barracks programs, we are moving to improve the overall condition of 
Army infrastructure by focusing on revitalization of our workplaces. 
Projects in this year's budget will address requirements for 
operational, administration, instructional, and maintenance facilities. 
These projects support and improve our installations and facilities to 
ensure the Army is deployable, trained, and ready to respond to meet 
its national security mission.
Leveraging Resources
    Complementary to these budget strategies, the Army also seeks to 
leverage scarce resources and reduce our requirements for facilities 
and real property assets. Privatization initiatives such as RCI, 
utilities privatization, and build-to-lease family housing in Europe 
and Korea represent high-payoff programs which have substantially 
reduced our dependence on investment funding. We also benefit from 
agreements with Japan, Korea, and Germany where the Army receives host 
nation funded construction.
    In addition, Congress has provided valuable authorities to utilize 
the value of our non-excess inventory under the Enhanced Use Leasing 
program and to exchange facilities in high-cost areas for new 
facilities in other locations under the Real Property Exchange program. 
In both cases, we can capitalize on the value of our existing assets to 
reduce unfinanced facilities requirements.
    The Army is transforming military construction by placing greater 
emphasis on installation master planning and standardization of 
facilities as well as planning, programming, designing, acquisition, 
and construction processes. Looking toward the immediate future, we are 
aggressively reviewing our construction standards and processes to 
align with industry innovations and best practices. In doing so, we 
expect to deliver quality facilities at lower costs while meeting our 
requirements more expeditiously. By encouraging the use of manufactured 
building solutions and other cost-effective, efficient processes, the 
Army will encourage nontraditional builders to compete. Small business 
opportunities and set-aside programs will be addressed, as well as 
incentives for good performance. Work of a repetitive nature coupled 
with a continuous building program will provide the building blocks for 
gaining efficiencies in time and cost.

                                              MILITARY CONSTRUCTION
----------------------------------------------------------------------------------------------------------------
                                                                             Authorization of
          Military Construction Appropriation              Authorization      Appropriations     Appropriation
                                                              Request            Request            Request
----------------------------------------------------------------------------------------------------------------
Military Construction Army (MCA).......................     $3,385,329,000     $4,039,197,000     $4.039,197,000
Military Construction Army National Guard (MCNG).......                N/A        404,291,000        4O4,291,000
Military Construction Army Reserve (MCAR)..............                N/A        119,604,000        119,684,000
Army Family Housing Construction (AFHC)................        419,400,000        419,400,000        419,400,000
Army Family Housing Operations (AFHO)..................        742,920,000        743,920,000        742,920,000
BRAC 95 (BCA)..........................................         73,716,000         73,716,000         73,716,000
BRAC 2005 (BCA)........................................      4,015,746,000      4,015,746,000      4,015,746,000
Global War on Terrorism MCA............................        730,850,000        738,850,000        738,850,000
                                                        --------------------------------------------------------
  Total................................................     $9,375,961,000    $10,553,804,000    $10,553,804,000
----------------------------------------------------------------------------------------------------------------

    The Army's fiscal year 2008 budget request includes $10.6 billion 
for Military Construction appropriations and associated new 
authorizations, Army Family Housing, and BRAC.

                   MILITARY CONSTRUCTION, ARMY (MCA)

    The Active Army fiscal year 2008 Military Construction budget 
request is $3,385,329,000 for authorization and $4,039,197,000 for 
authorization of appropriations and appropriation, including 
$1,608,129,000 for Grow the Army. This year's projects support the 
infrastructure necessary to ensure continued soldier readiness and 
family well-being.
    Soldiers as our Centerpiece Projects. The well-being of our 
soldiers, civilians, and families is inextricably linked to the Army's 
readiness. We are requesting $590 million of our MCA budget for 
projects to improve soldier well-being in significant ways.
    The Army continues to modernize and construct barracks to provide 
enlisted single soldiers with quality living environments. This year's 
budget request includes 14 barracks projects to provide improved 
housing for 3,703 soldiers and new barracks in support of major 
stationing moves as we recast the footprint of the Army. With the 
approval of $1,392 million for new barracks in this budget, 82 percent 
of our requirement will be funded at the ``1+1'' or equivalent 
standard.
    We are requesting the third increment of funding, $47.4 million, 
for the previously approved, incrementally funded, multiple-phased 
barracks complex at Fort Bragg, NC. In addition, we are requesting the 
second increment of funding, $102 million, for the brigade complex at 
Fort Lewis, WA. We will award the complex as a single contract to gain 
cost efficiencies, expedite construction, and provide uniformity in 
like facility types. The budget also includes a $175 million for two 
training barracks complexes at Fort Benning, GA; and another at Fort 
Bragg, NC, which will house 2,580 training soldiers.
    Overseas Construction. Included in this budget request is $382 
million in support of high-priority overseas projects. In Germany, we 
continue our consolidation of units to Grafenwoehr as part of our 
Efficient Basing--Grafenwoehr initiative. This allows us to close 
numerous installations as forces relocate to the U.S. and within Europe 
reducing base support requirements and enhancing soldier training. In 
Korea, we are again requesting funds to further our relocation of 
forces on the peninsula. This action is consistent with the Land 
Partnership Plan agreements entered into by the U.S. and Republic of 
Korea Ministry of Defense. Our request for funds in Italy is GDPR 
related and relocates forces from Germany to Vicenza to create a full 
Airborne BCT as part of the Army's transformation to a modular force. 
The Airborne BCT complex also includes new barracks to house 513 
soldiers. Additional locations in Germany will close as construction is 
completed.
    Mission and Training Projects. Projects in our fiscal year 2008 
budget will provide maintenance facilities, brigade complexes and 
headquarters, operational and administration facilities, and training 
ranges. These projects support and improve our installations and 
facilities to ensure the Army is deployable, trained, and ready to 
respond to meet our National Security mission. The budget request also 
includes two overseas Forward Operating Site base camps for $74 million 
that will provide a brigade (minus)-sized operational facility to 
support rotational training, allow for increased U.S. partnership 
training, and promote new military to military relationships.
    We will also construct a battle command training center and 
simulations training facility, urban operations terrain, urban assault 
course, modified record firing ranges, and digital multipurpose 
training ranges. These facilities will provide our soldiers realistic, 
state-of-the-art live-fire training. We are requesting a total of $177 
million for these high-priority projects. We are also requesting 
funding of $22.3 million for two defense access roads.
    Army Modular Force Projects. Our budget continues support of the 
transformation of the Army to a modern, strategically responsive force 
and contains $315 million for three brigade complexes and other 
facilities. The new barracks will house 1,156 soldiers in support of 
the Army Modular Force.
    Southern Command Headquarters Project. Our budget supports a new 
consolidated headquarters building with other support facilities. Our 
budget request contains $237 million for the new facilities that will 
replace multiple leased facilities scattered throughout the Miami, FL, 
metropolitan area. The new consolidated building will support over 
2,800 Active, Reserve, and civilian personnel whose mission is to 
achieve U.S. strategic objectives within their area of responsibility 
which spans 32 countries.
    Global War on Terrorism Projects. The budget request also includes 
$738.8 million for 33 critical construction projects in Iraq and 
Afghanistan to support Operations Iraqi Freedom and Enduring Freedom 
including $19.4 million for planning and design. These funds will 
provide force protection, airfield facilities, operational facilities, 
support facilities, fuel handling and storage, and roads.
    Other Support Programs. The fiscal year 2008 budget includes $481 
million for planning and design of future projects, including $383 
million to Grow the Army. As executive agent, we also provide oversight 
of design and construction for projects funded by host nations. The 
fiscal year 2008 budget requests $23 million for oversight of 
approximately $800 million of host nation funded construction for all 
Services in Japan, Korea, and Europe.
    The budget request also contains $23 million for unspecified minor 
construction to address unforeseen critical needs or emergent mission 
requirements that cannot wait for the normal programming cycle.

               MILITARY CONSTRUCTION, ARMY NATIONAL GUARD

    The Army National Guard's fiscal year 2008 Military Construction 
request for $404,291,000 for appropriation and authorization of 
appropriations, including $77 million for Grow the Army, is focused on 
current readiness, transformation, other support, and unspecified 
programs.
    Current Readiness. In fiscal year 2008, the Army National Guard is 
requesting $36.9 million for four projects to support current 
readiness. These funds will provide the facilities our soldiers require 
as they train, mobilize, and deploy. Included are one logistics 
building and three readiness centers.
    Army Modular Force. The Army National Guard is also requesting 
$237.8 million for 28 projects in support of new missions. There are 13 
projects for the Stryker BCT initiative, 4 for the Army Division 
Redesign Study, 8 range projects to support the Army Range and Training 
Land Strategy, and 3 Aviation Transformation projects to provide 
facilities for modernized aircraft and change unit structure.
    Other Support Programs. The fiscal year 2008 Army National Guard 
budget also contains $43.8 million for planning and design (including 
$17 million for Grow the Army) of future projects and $8.7 million for 
unspecified minor military construction to address unforeseen critical 
needs or emergent mission requirements that cannot wait for the normal 
programming cycle.

                  MILITARY CONSTRUCTION, ARMY RESERVE

    The Army Reserve fiscal year 2008 Military Construction request for 
$119,684,000 (for appropriation and authorization of appropriations) is 
for Current Readiness, other support, and unspecified programs.
    Current Readiness. In fiscal year 2008, the Army Reserve will 
invest $73.2 million to build five new Army Reserve Centers, $17 
million for a combined maintenance facility, and $8.5 million to 
construct a regional medical training facility--for a total facility 
investment of $98.7 million. Construction of the five Reserve centers 
will support over 1,700 Army Reserve soldiers and civilian personnel. 
In addition, the Army Reserve will invest $7.0 million to construct a 
training range and a training range support facility, which will be 
available for joint use by all Army components and military services.
    Other Unspecified Programs. The fiscal year 2008 Army Reserve 
budget request includes $10.9 million for planning and design for 
future year projects and $3.0 million for unspecified minor military 
construction to address unforeseen critical needs or emergent mission 
requirements that cannot wait for the normal programming cycle.

                ARMY FAMILY HOUSING CONSTRUCTION (AFHC)

    The Army's fiscal year 2008 family housing request is $419,400,000 
for authorization, authorization of appropriation, and appropriation, 
including $266 million for Grow the Army. It continues the successful 
Whole Neighborhood Revitalization initiative approved by Congress in 
fiscal year 1992 and our RCI program.
    The fiscal year 2008 new construction program provides a whole 
neighborhood replacement project at Ansbach, Germany, in support of 138 
families for $52.0 million using traditional military construction.
    The Construction Improvements Program is an integral part of our 
housing revitalization and privatization programs. In fiscal year 2008, 
we are requesting $266.0 million in support of Grow the Army, as well 
as $99.4 million for direct equity investment in support of the 
privatization of 3,998 homes at Fort Wainwright, Alaska, Fort Sill, 
Oklahoma, and Fort Jackson, South Carolina.
    In fiscal year 2008, we are also requesting $2.0 million for 
planning and design for future family housing construction projects 
critically needed for our soldiers.
    Privatization. RCI, the Army's housing privatization program, is 
providing quality housing that soldiers and their families can proudly 
call home. The Army is leveraging appropriated funds and existing 
housing by engaging in 50-year partnerships with nationally recognized 
private real estate development, property management, and home builder 
firms to construct, renovate, repair, maintain, and operate housing 
communities.
    The RCI program will include 45 locations, with a projected end 
state of over 86,000 homes--99 percent of the on-post family housing 
inventory in the U.S. To date, the Army has privatized 35 locations, 
with almost 75,000 homes. Initial construction and renovation at these 
35 installations is estimated at $9.8 billion over a 3 to 10 year 
development period, of which the Army has contributed about $0.8 
billion. Although most projects are in the early phases of their 
initial development, since 2001 our partners have constructed 8,613 new 
homes, and renovated 8,415 homes. The fiscal year 2008 budget request 
of $99.4 million will allow the Army to expand the portfolio of 
privatized family housing to three additional installations.

                 ARMY FAMILY HOUSING OPERATIONS (AFHO)

    The Army's fiscal year 2008 Family Housing Operations request is 
$742,920,000 (for appropriation and authorization of appropriations), 
which is approximately 64 percent of the total family housing budget. 
This account provides for annual operations, municipal-type services, 
furnishings, maintenance and repair, utilities, leased family housing, 
demolition of surplus or uneconomical housing, and funds supporting 
management of the Military Housing Privatization Initiative.
    Operations ($139 million). The operations account includes four 
subaccounts: management, services, furnishings, and a small 
miscellaneous account. All operations subaccounts are considered ``must 
pay accounts'' based on actual bills that must be paid to manage and 
operate family housing.
    Utilities ($145 million). The utilities account includes the costs 
of delivering heat, air conditioning, electricity, water, and 
wastewater support for family housing units. While the overall size of 
the utilities account is decreasing with the reduction in supported 
inventory, per-unit costs have increased due to general inflation and 
the increased costs of fuel.
    Maintenance and Repair ($216 million). The maintenance and repair 
account supports annual recurring projects to maintain and revitalize 
family housing real property assets. Since most family housing 
operational expenses are fixed, maintenance and repair is the account 
most affected by budget changes. Funding reductions result in slippage 
of maintenance projects that adversely impact soldier and family 
quality of life.
    Leasing ($206 million). The leasing program provides another way of 
adequately housing our military families. The fiscal year 2008 budget 
includes funding for 11,836 housing units, including 3,680 existing 
Section 2835 (``build-to-lease''--formerly known as 801 leases) project 
requirements, 1,907 temporary domestic leases in the United States, and 
6,249 foreign units.
    Privatization ($37 million). The privatization account provides 
operating funds for implementation and oversight of privatized military 
family housing in the RCI program. RCI costs include selection of 
private sector partners, environmental studies, real estate surveys, 
and consultants. These funds support the preparation and execution of 
partnership agreements and development plans, and oversight to monitor 
compliance and performance of the privatized housing portfolio.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    The Army is requesting $4,015,746,000 for BRAC 2005 which is 
critical to the success of the Army's new initiatives, and $73,716,000 
for legacy BRAC to sustain vital, ongoing programs. All BRAC activity 
takes place within the context of achieving the Army's goals of winning 
the global war on terrorism, transforming from a division-structured, 
forward-deployed force to one comprised of agile BCTs stationed on U.S. 
soil and growing the Army in a manner that maintains the Army's ability 
to win decisively any time, any where.
    BRAC 2005 is carefully integrated with the Defense and Army 
programs of GDPR, Army Modular Force, and Grow the Army. Collectively, 
these initiatives allow the Army to focus its resources on 
installations that provide the best military value, supporting improved 
responsiveness and readiness of units. The elimination of Cold War era 
infrastructure and the implementation of modern technology to 
consolidate activities frees up financial and human resources to allow 
the Army to better focus on its core war fighting mission. These 
initiatives are a massive undertaking, requiring the synchronization of 
base closures, realignments, military construction and renovation, unit 
activations and deactivations, and the flow of forces to and from 
current global commitments. If done efficiently, the end results will 
yield tremendous savings over time, while positioning forces, logistics 
activities, and power projection platforms to efficiently and 
effectively respond to the needs of the Nation.
    As an essential component of Army transformation, BRAC 2005 
decisions optimize infrastructure to support the Army's current and 
future force requirements. Under BRAC 2005, the Army will close 13 
Active component installations, 387 Reserve component installations and 
8 leased facilities. BRAC 2005 realigns 53 installations and/or 
functions and establishes Training Centers of Excellence, Joint Bases, 
a Human Resources Center of Excellence, and Joint Technical and 
Research facilities. To accommodate the units relocating from the 
closing Reserve component installations, BRAC 2005 creates 125 multi-
component Armed Forces Reserve centers and realigns the Army Reserve 
command and control structure. By implementing BRAC 2005 decisions, the 
active Army will maintain sufficient surge capabilities to expand to 48 
maneuver brigades and handle increased production, training, and 
operational demands now and in the future. BRAC 2005 better postures 
the Army for an increase in end strength by facilitating the Army's 
transformation to a modular force and revitalizing and modernizing the 
institutional Army through consolidation of schools and centers.
    In total, over 150,000 soldiers and civilian employees will 
relocate as BRAC is implemented over the next 5 years. The over 1,300 
discrete actions required for the Army to successfully implement BRAC 
2005 are far more extensive than all four previous BRAC rounds combined 
and are expected to create significant recurring annual savings. BRAC 
2005 will enable the Army to become a more capable expeditionary force 
as a member of the joint team while enhancing the well-being of our 
soldiers, civilians, and family members living, working, and training 
on our installations.
BRAC 2005 Implementation Strategy
    The Army has an aggressive, carefully synchronized, fully 
resourced, BRAC fiscal years 2006-2011 implementation plan, designed to 
meet the September 2011 deadline, while supporting our National 
security priorities. National Environmental Policy Act (NEPA) 
requirements necessary to support our implementation plan were 
initiated in fiscal year 2006 to enable the early award of essential 
construction projects. Our BRAC construction plan is fully coordinated 
and carefully synchronized to support our overall strategy for re-
stationing, realigning, and closing installations while continuing to 
fully support ongoing missions and transformation initiatives. This 
construction plan identifies requirements, defines scope, and considers 
existing installation capacity and infrastructure needs. It is an 
extremely complex plan that manages numerous construction projects, re-
stationing actions, BRAC moves, and deployment timelines to allow the 
Army to implement the BRAC statute while supporting critical missions 
worldwide.
    Seventy-five percent of all required construction projects are 
planned for award by the end of fiscal year 2009, and 100 percent by 
the end of fiscal year 2010. This will enable the major movement of 
units and personnel in fiscal years 2010 and 2011, with expected 
completion by the mandated BRAC 2005 deadline.
    In fiscal year 2006 the Army awarded 11 BRAC military construction 
projects to support restationing and realignments, including: three 
projects to support GDPR; two incremental projects for BCTs, and five 
Armed Forces Reserve Centers, totaling over $788 million. In fiscal 
year 2007, the Army plans to award and start construction on 75 
projects: 23 projects to support GDPR; 27 Reserve component projects in 
14 States, and 25 other Active component projects estimated to cost 
over $3.3 billion, including planning and design for fiscal year 2008 
and 2009 projects. This will lay the foundation for follow-on projects, 
and in earnest, start the implementation of our synchronized 
construction program.
    As signed into law, the Revised Continuing Appropriations 
Resolution, 2007 (Public Law 110-5) does not allow us to accomplish our 
fiscal year 2007 BRAC construction and threatens to derail our 
carefully integrated implementation plan. The Appropriation provides 
less than half of the total BRAC funds requested, creating a shortfall 
of approximately $2 billion for the Army. If the Army program is not 
fully funded, we will be significantly challenged to execute BRAC as 
intended. Construction of required facilities will be delayed, and the 
resulting impact will cascade through our restationing, transformation, 
and growth plans for years to come.
BRAC 2005 Fiscal Year 2008 Budget
    The Army's fiscal year 2008 budget request of $4,015,746,000 will 
continue to fund both BRAC and GDPR actions necessary to comply with 
BRAC 2005 Law. The Army plans to award and begin construction of 89 
military construction projects, plus planning and design for fiscal 
year 2009 and 2010 projects. This is estimated to cost $3,241,521,000 
and includes: 16 additional GDPR projects, 31 Army National Guard and 
Army Reserve projects, and an additional 42 Active component projects.
    A significant portion of the Army's BRAC request supports the 
transformation and restationing of the operational force. BRAC military 
construction projects support major realignments of forces returning to 
the United States from Europe, as well as several stateside 
relocations. The fiscal year 2008 budget request also funds projects 
supporting Reserve component transformation in 19 States. This is a 
healthy start to addressing BRAC 2005 recommendations impacting the 
Army Reserve and Army National Guard.
    The BRAC budget request will also fund furnishings for 86 BRAC 
projects awarded in fiscal years 2006 and 2007 as the buildings reach 
completion and occupancy. The request also funds movement of personnel, 
ammunition, and equipment associated with 25 BRAC Commission 
Recommendations.
    The Army will continue to procure investment type equipment in 
fiscal year 2008 in support of our BRAC military construction program 
as part of the ``other procurement'' budget line. This equipment 
exceeds the investment and expense unit cost threshold of $250,000 each 
and includes information technology infrastructure and equipment for 
the 86 previously awarded BRAC projects, which will be impacted if 
fiscal year 2007 funding is not fully restored.
    In fiscal year 2008, the Army will initiate environmental closure 
and cleanup actions at 14 BRAC properties. These activities will 
continue efforts previously ongoing under the Army Installation 
restoration program and will ultimately support future property 
transfer actions. The budget request for environmental programs is 
$86,756,000, which includes Munitions and Explosives of Concern and 
Hazardous and Toxic Waste restoration activities.
Prior BRAC
    Since Congress established the Defense Base Closure and Realignment 
Commission in 1990, the Department of Defense has successfully executed 
four rounds of base closures to reduce and align the military's 
infrastructure to the current security environment and force structure. 
As a result, the Army estimates approximately $11.7 billion in savings 
through 2007--nearly $1 billion in recurring, annual savings from prior 
BRAC rounds.
    The Army is requesting $73.7 million in fiscal year 2008 for prior 
BRAC rounds ($3.4 million to fund caretaking operations of remaining 
properties and $70.3 million for environmental restoration) to address 
environmental restoration efforts at 147 sites at 14 prior BRAC 
installations. To date, the Army has spent $2.7 billion on BRAC 
environmental restoration for installations impacted by the previous 
four BRAC rounds. We disposed of 235,361 acres (89 percent of the total 
acreage disposal requirement of 258,607 acres), with 23,246 acres 
remaining.

                       OPERATION AND MAINTENANCE

    The Army's fiscal year 2008 Operation and Maintenance budget 
includes $2.740 billion in funding for Sustainment, Restoration, and 
Modernization (S/RM) and $8.133 billion in funding for Base Operations 
Support (BOS). The S/RM and BOS accounts are inextricably linked with 
our military construction programs to successfully support our 
installations. The Army has centralized the management of its 
installations assets under the Installation Management Command to best 
utilize this funding.
    Sustainment, Restoration, and Modernization. S/RM provides funding 
for the active and Reserve components to prevent deterioration and 
obsolescence and restore the readiness of facilities on our 
installations.
    Sustainment is the primary account in installation base support 
funding responsible for maintaining the infrastructure to achieve a 
successful readiness posture for the Army's fighting force. It is the 
first step in our long-term facilities strategy. Installation 
facilities are the mobilization and deployment platforms of America's 
Army and must be properly maintained to be ready to support current 
missions and future deployments.
    The second step in our long-term facilities strategy is 
recapitalization by restoring and modernizing our existing facility 
assets. Restoration includes repair and restoration of facilities 
damaged by inadequate sustainment, excessive age, natural disaster, 
fire, accident, or other causes. Modernization includes alteration or 
modernization of facilities solely to implement new or higher 
standards, including regulatory changes to accommodate new functions, 
or to replace building components that typically last more than 50 
years, such as foundations and structural members.
    Base Operations Support. This account funds programs to operate the 
bases, installations, camps, posts, and stations for the Army 
worldwide. The program includes municipal services, government civilian 
employee salaries, family programs, environmental programs, force 
protection, audio/visual, base communication services, and installation 
support contracts. Army Community Service and Reserve component family 
programs include a network of integrated support services that directly 
impact soldier readiness, retention, and spouse adaptability to 
military life during peacetime and through all phases of mobilization, 
deployment, and demobilization.

                                SUMMARY

    Mr. Chairman, our fiscal year 2008 Military Construction and BRAC 
budget requests are balanced programs that support our soldiers and 
their families, the global war on terrorism, Army transformation, 
readiness, and DOD installation strategy goals. We are proud to present 
this budget for your consideration because of what this budget will 
provide for our Army:

        <bullet> 138 homes replaced or renovated
        <bullet> 3,998 additional homes privatized
        <bullet> Approximately 42,600 government-owned and leased homes 
        operated and sustained at the end of fiscal year 2008
        <bullet> Portfolio management of 78,426 privatized homes
        <bullet> 33 projects in support of Operations Iraqi Freedom and 
        Enduring Freedom
        <bullet> 9,461 soldiers get new barracks
        <bullet> $254 million in Training Ranges
        <bullet> $6.1 billion invested in Soldier/Family Readiness
        <bullet> $2,363 million to Grow the Army

    Base Realignment and Closure:

        <bullet> Statutory compliance by 2011 for BRAC
        <bullet> 89 Military Construction projects
        <bullet> Planning and Design for fiscal years 2009-2010 
        Projects
        <bullet> Remaining NEPA for BRAC 2005 actions
        <bullet> Continued Environmental Restoration of 23,246 acres

    Army National Guard:

        <bullet> Improved Readiness Centers and an Armed Forces Reserve 
        Center
        <bullet> Completion of eight range projects
        <bullet> Continued support of our Stryker BCT
        <bullet> Three Aviation Transformation projects
        <bullet> Three maintenance facilities

    Army Reserve:

        <bullet> Medical personnel get new training facility
        <bullet> New combined maintenance facility
        <bullet> New live-fire training range facility
        <bullet> 1,743 soldiers get new Reserve centers
        <bullet> Center of gravity for Army Reserve families

    Base Operations Support:

        <bullet> Goal is to meet essential needs for all BOS programs: 
        Base Operations, Family, Environmental Quality, Force 
        Protection, Base Communications, and Audio/Visual.

    Sustainment/Restoration and Modernization:

        <bullet> Funds Sustainment at 86 percent of the Office of the 
        Secretary of Defense requirement, with plans to achieve 90 
        percent of the requirement through efficiencies.

    Our long-term strategies for installations will be accomplished 
through sustained and balanced funding, and with your support, we will 
continue to improve soldier and family quality of life, while remaining 
focused on Army and Defense transformation goals.
    In closing, we would like to thank you again for the opportunity to 
appear before you today and for your continued support for America's 
Army.

    Senator Akaka. Secretary Penn?

 STATEMENT OF HON. B.J. PENN, ASSISTANT SECRETARY OF THE NAVY, 
                 INSTALLATIONS AND ENVIRONMENT

    Mr. Penn. Chairman Akaka and members of the subcommittee, 
thank you for the opportunity to discuss the Department of the 
Navy installations and environmental efforts. I would like to 
briefly highlight a few topics that are discussed in more 
detail in my written statement.
    I am pleased to report a very substantial increase in the 
investment for installations and environment programs in this 
budget. We are asking for a total of $11.5 billion in fiscal 
year 2008, which is an increase of $1.8 billion above last 
year's request. I appreciate the efforts by Congress to restore 
$3.1 billion for BRAC 2005 implementation in the fiscal year 
2007 supplement. The funds are critical to allow us to stay on 
track and attain the attendant operational efficiencies while 
maximizing further turbulence in the future of our personnel 
and communities affected by BRAC '05.
    We continue to finance our prior BRAC environmental cleanup 
and property disposal from the sale of prior BRAC property. We 
have budgeted to spend the last of the $1.1 billion in land 
sale revenue in fiscal year 2008, while our cost to complete 
environmental cleanup on all remaining prior BRAC property has 
increased by $725 million since last year. Most of the increase 
is due to recognition last year of substantial low-level 
radioactive contamination at the former Hunters Point Naval 
Shipyard in San Francisco. The low-level radioactive material 
is buried underground, undetectable on the surface, and poses 
no risk to humans, if left undisturbed. We are working this 
issue with the city, the regulators, and the congressional 
delegation.
    I commend the Marine Corps for its commitment to eliminate 
by 2012 its barracks shortfall for enlisted marines for their 
current approved 175,000 end strength. The budget includes $282 
million for 10 barracks projects at 7 Marine Corps locations. 
The budget also includes about $950 million across the baseline 
and supplemental budgets for a mix of facilities to grow the 
Marine Corps permanent end strength to 202,000 by 2011. This 
initiative, which is separate from the current operations in 
Iraq and Afghanistan, will allow the Marine Corps to reduce the 
strain on individual marines by establishing a more stable 
deployment-to-dwell ratio and enhanced irregular warfare 
capabilities.
    Both the Navy and Marine Corps continue the family housing 
privatization efforts. Our investment of less than $600 million 
has attracted over $6.6 billion in private sector capital to 
eliminate inadequate homes for our sailors and marines with 
families. The Navy is successfully applying privatization to 
improve housing for unaccompanied sailors. The Navy signed the 
first DOD barracks privatization contracts in December 2006. 
Located in San Diego, the project will provide 941 new two-
bedroom, two-bathroom apartments and privatize an existing 
building. Construction will be completed in 2009. The Navy is 
in exclusive negotiations with a developer for a second 
barracks privatization project in Norfolk.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Penn follows:]

                  Prepared Statement by Hon. B.J. Penn

    Mr. Chairman and members of the committee, I am pleased to appear 
before you today to provide an overview of the Department of Navy's 
(DoN) shore infrastructure.

                  THE NAVY'S INVESTMENT IN FACILITIES

    The DoN's shore infrastructure is where we train and equip the 
world's finest sailors and marines, while developing the most 
sophisticated weapons and technologies. The DoN manages a shore 
infrastructure with a plant replacement value of $187 billion on 4.5 
million acres. Our fiscal year 2008 shore infrastructure baseline 
budget totals $11.5 billion, representing about 8 percent of the DoN's 
fiscal year 2008 baseline request of $139 billion. There is an 
additional $410 million for facilities in the fiscal year 2007 global 
war on terror supplemental, and $169 million in the fiscal year 2008 
global war on terror request. Together, that represents a $1.8 billion 
increase compared to the fiscal year 2007 request of $10.3 billion.
    The Base Operating Support (BOS) request of $5.6 billion, excluding 
environmental, comprises the largest portion of the Navy's facilities 
budget request. This account funds the daily operations of a shore 
facility, e.g., utilities, fire and emergency services; air and port 
operations; community support services; and custodial costs.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our fiscal year 2008 request of $5.6 billion for BOS reflects a 
$558 million increase from the enacted fiscal year 2007 level. The Navy 
increase of $356 million and Marine Corps increase of $202 million will 
return capability levels to those executed in fiscal year 2005, 
restoring reductions taken during fiscal year 2007 that are 
unsustainable, particularly in the area of information technology and 
counterterrorism and security guards as we substitute civilian and 
contract personnel in place of military personnel.
    The fiscal year 2008 military construction (MILCON) (Active + 
Reserve) baseline request of $2.2 billion is $992 million more than the 
enacted fiscal year 2007 level of $1.2 billion. The fiscal year 2008 
request includes $59 million for Navy and Marine Corps Reserve 
construction efforts. This level of funding supports traditional 
recapitalization projects for the existing infrastructure. It also 
provides facilities for 15 new Navy weapon systems, new facilities for 
the Marine Corps' plan to Grow the Force from the current 175,000 
permanent end strength to 202,000 by 2011, and new barracks to ensure 
that all unaccompanied enlisted Marines are suitably housed by 2012.
    The fiscal year 2008 Family Housing baseline request of $670 
million is $140 million less than the fiscal year 2007 enacted level of 
$810 million. Within this sum, there is $299 million for replacement 
family housing on Guam and Marine Corps privatization. Housing 
operations and maintenance funds decline to $371 million as government-
owned worldwide inventory of 26,335 homes in fiscal year 2007 falls by 
15,481 homes to 10,854 homes in fiscal year 2008 due to privatization.
    Sustainment, Restoration, and Modernization (S/RM) includes MILCON 
and operation and maintenance funds. Our fiscal year 2008 request of 
$1.83 billion represents only the amount of S/RM funded with Operations 
and Maintenance, and is $133 million above the enacted fiscal year 2007 
level of $1.70 billion. Although fiscal year 2008 funding is 8 percent 
higher than fiscal year 2007, sustainment levels are lower because of 
inflation and an increase in modeled requirements.
    Our fiscal year 2008 request of $898 million for environmental 
programs at Active and Reserve bases is comprised of operating and 
investment appropriations. This amount is about the same as the fiscal 
year 2007 request.
    Our Base Realignment and Closure (BRAC) program consists of 
environmental cleanup and caretaker costs at prior BRAC locations, and 
implementation of BRAC 2005 recommendations.

        <bullet> Our fiscal year 2008 prior BRAC program of $179 
        million is $163 million below our fiscal year 2007 program of 
        $342 million. The entire prior BRAC effort continues to be 
        financed with revenue obtained from the sale of prior BRAC 
        properties. We have not sought appropriated funds for prior 
        BRAC since fiscal year 2005, however, the fiscal year 2008 
        program depletes the remainder of the land sale revenue 
        received in previous years from disposing prior BRAC property.
        <bullet> The fiscal year 2008 budget of $733 million to 
        implement the BRAC 2005 recommendations is $434 million above 
        the amount allocated by the Department of Defense (DOD) to the 
        DoN following the reduction enacted in the House Joint 
        Resolution 20.
Impact of House Joint Resolution 20
    The DOD has been proceeding with BRAC 05 implementation through 
most of fiscal year 2007 under a series of Continuing Resolutions 
(CRs). The enactment of the House Joint Resolution 20 on 15 February 
provided an annual DOD BRAC 05 appropriation, albeit at a substantial 
$3.1 billion reduction to the PB-07 $5.6 billion request. The DoN had 
received $66 million of the $690 million budget request under the CRs, 
with most of the funds provided in January. The duration of the CR, and 
the magnitude of the funding reduction, has severely complicated 
program execution.
    The BRAC 05 account is a DOD account. The Office of the Secretary 
of Defense has now allocated $297 million of the $2.5 billion 
appropriated by Congress in fiscal year 2007 to the DoN, leaving us 
with a $398 million shortfall in fiscal year 2007. There is, however, 
no doubt that a 55 percent reduction from the President's fiscal year 
2007 budget request will create substantial turmoil in all of the 
Services and defense agency implementation plans and schedules. Our 
BRAC 05 design and construction projects represent 81 percent of the 
fiscal year 2007 (49 construction projects at 20 locations) and 69 
percent of the fiscal year 2008 request (29 construction projects at 18 
locations), so any reduction of funds in fiscal year 2007 will require 
that we defer numerous construction projects, causing a bow wave of 
construction projects into fiscal year 2008. This will require a 
wholesale review of fiscal year 2008 execution plans and schedules as 
we accommodate construction projects deferred from fiscal year 2007. 
Delaying closures and realignments also requires us to replace funds 
which had been taken as savings in the budget. Finally, it adds further 
uncertainty in the lives of our military, civilian, and contract 
employees as they ponder their future, and jeopardizes our ability to 
meet the September 2011 deadline to complete all closures and 
realignments.
    The President submitted an amended fiscal year 2007 request on 8 
March 2007 with accompanying offsets for $3.1 billion in additional 
BRAC 05 funds. I urge your support for the amended fiscal year 2007 
budget submitted to Congress.
    Here are some of the highlights and additional details on these 
programs.

                         MILITARY CONSTRUCTION

Military Construction Projects
    The DoN's fiscal year 2008 MILCON program requests appropriations 
of $2.1 billion including $110 million for planning and design and $10 
million for Unspecified Minor Construction. This fiscal year 2008 
baseline request is $975 million above, and nearly doubles, the fiscal 
year 2007 enacted level of $1.129 billion. The fiscal year 2008 
authorization request is $1.8 billion. This level of construction funds 
presents what I believe will be a substantial, long-term commitment for 
naval facilities.
    The Active Navy program totals $1,126 million and includes:

        <bullet> $486 million for 15 construction projects supporting 
        the fielding of new weapons system platforms or research 
        facilities for future weapon systems. All construction projects 
        are scheduled to finish building and outfitting the facility 
        just-in-time to coincide with the arrival of the new platform 
        and its planned initial operating capability. The new platforms 
        include: LPD-17, T6-A, LCS, SSN-774, E2-D, JPALS, FA-18E/F, MH-
        60, MUOS, EA-18G, T-AKE, and D5 LE. One example of these new 
        platforms is a $101.8 million extension to Kilo wharf in Guam 
        to support the arrival of the new T-AKE class Combat Logistics 
        Force ships in fiscal year 2010 that provide underway 
        replenishment to Navy ships at sea, replacing the current T-AE 
        and T-AFS class ships;
        <bullet> $175 million to continue funding for six previously 
        approved incrementally funded construction projects. An example 
        is a $16.6 million recruit training center infrastructure 
        upgrade at Naval Training Center Great Lakes IL. This project 
        is the final phase of the infrastructure improvement effort at 
        Great Lakes. In accordance with administration policy, there 
        are no new incrementally funded construction projects in this 
        budget request;
        <bullet> $146 million for four other waterfront 
        recapitalization projects not associated with new weapons 
        systems. An example is a $91 million CVN maintenance pier 
        replacement at Naval Base Kitsap, WA;
        <bullet> $139 million for utilities infrastructure improvements 
        to meet current mission and operational requirements at Naval 
        Base Guam and Naval Support Activity Diego Garcia;
        <bullet> $24 million for training projects at Naval Air Station 
        Corpus Christi, TX and Naval Station Great Lakes, IL; and
        <bullet> $22 million in three infrastructure improvement 
        projects at Camp Lemonier in Djibouti in support of CENTCOM's 
        forward operating base.

    The active Marine Corps program totals $1,037 million, including:

        <bullet> $361 million for facilities to support the ``Grow the 
        Force'' initiative, which I will discuss this in greater detail 
        below;
        <bullet> $282 million for 10 bachelor quarters at 7 locations 
        including Marine Corps Base Camp Lejeune, NC, and Marine Corps 
        Air Station Yuma, CA;
        <bullet> $167 million for 11 operations and training 
        facilities, including an Infantry Squad Defense Range at Marine 
        Corps Base Camp Pendleton, CA, and 3 facilities for the Marine 
        Corps Special Operations Command units at Camp Pendleton, CA, 
        and Marine Corps Base Camp Lejeune, NC;
        <bullet> $52 million for two training facilities, including 
        student quarters for the basic school at Marine Corps Base 
        Quantico, VA;
        <bullet> $32 million for three other quality of life projects, 
        including a fitness center at Marine Corps Base Camp Pendleton, 
        CA;
        <bullet> $31 million for four maintenance projects including a 
        jet engine test cell at Marine Corps Air Station New River, NC; 
        and
        <bullet> $13 million for infrastructure improvements including 
        main gate improvements at the Blount Island Command, FL, and 
        Marine Corps Base Camp Pendleton, CA.

    The Navy and Marine Corps Reserve MILCON appropriation request is 
$59.2 million, $16 million more than the enacted fiscal year 2007 level 
of $43 million. There are three Reserve centers at various locations 
and a Mobile Inshore Undersea Warfare Unit operation facility at Naval 
Station Everett WA.
Marine Corps Grow the Force
    To meet the demands of the Long War and respond to inevitable 
worldwide crises that arise, the Marine Corps must be sufficiently 
manned in addition to being well-trained and properly equipped. A key 
objective is to establish a 1:2 deployment-to-dwell ratio for all 
Active component forces. This ratio relates how long our forces are 
deployed versus how long they are at home. The goal is for every 7 
months a marine is deployed, he will be back at his home station for 14 
months. Marine operating forces are routinely falling short of this 
target. To fix this imbalance, the President announced in January a 
need to increase the Marine Corps permanent end strength from 175,000 
to 202,000 by 2011, along with a larger increase for the Army. The 
Marine Corps growth will occur in stages, the first of which will build 
3 new infantry battalions and elements of their supporting structure of 
about 5,000 marines.
    The fiscal year 2008 baseline budget includes $4.3 billion for pay 
and allowances for the first increment of marines, MILCON and BOS for 
permanent barracks and operations centers, procurement of additional H-
1 aircraft and increased aviation support, along with recruiting, 
training, equipment, and ammunition to bring units to full operational 
capability. The funding for infrastructure and facilities to initially 
support this initiative are in three separate budget documents now 
before Congress:

        <bullet> The fiscal year 2007 supplemental includes $324 
        million for planning & design, and eight MILCON projects;
        <bullet> The fiscal year 2008 global war on terror includes 
        $169 million for planning and design, 10 MILCON projects, and 
        family housing privatization seed money for follow-on projects; 
        and
        <bullet> The fiscal year 2008 baseline budget includes $458 
        million for planning and design, 20 MILCON projects including 2 
        Wounded Warrior barracks, and additional family housing 
        privatization seed money for follow-on projects.

    Because marines will begin to arrive before construction at many 
locations is complete, the Marine Corps is planning to lease, rent, or 
purchase temporary support facilities. Based on the composition of the 
additional units, we are determining the optimal permanent bed down 
locations for these units for future construction requirements.

                         FACILITIES MANAGEMENT

Facilities Sustainment, Restoration, and Modernization (SRM)
    The DOD uses a sustainment model to calculate life cycle facility 
maintenance and repair costs. These models use industry-wide standard 
costs for various types of building and geographic areas and are 
updated annually. Sustainment funds in the Operation and Maintenance 
accounts are used to maintain facilities in their current condition. 
The funds also pay for preventative maintenance, emergency responses 
for minor repairs, and major repairs or replacement of facility 
components (e.g. roofs, heating, and cooling systems). Both the Navy 
and the Marine Corps have accepted more risk in facilities sustainment 
funding in fiscal year 2008 to fund higher priority requirements. With 
respect to the table, the Marine Corps moved additional funds to 
sustainment in fiscal year 2006 to restore reductions taken in fiscal 
year 2005. The Navy would require $240 million and the Marine Corps $64 
million to fund sustainment to the DOD goal of 100 percent of model 
requirements in fiscal year 2008.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Restoration and modernization provides major upgrades of our 
facilities using MILCON, Operation and Maintenance, Navy Working 
Capital Fund, and Military Personnel funds. The DOD uses a ``recap'' 
metric to gauge investment levels. The ``recap'' metric is calculated 
by dividing the plant replacement value by the annual investment of 
funds and is expressed in years. The DOD goal is to attain a 67-year 
rate by fiscal year 2008. This is a relatively coarse metric, as 
demonstrated by the dramatic improvement in execution as a result of 
funds from the fiscal year 2006 Hurricane Supplemental, which 
substantially improved only those bases affected by the storm. The Navy 
recap rate also benefits from MILCON included in BRAC 05 
implementation. We are working with the Office of the Secretary of 
Defense and the other components to develop a recap model similar to 
the Sustainment model, planned for release in the next budget cycle.
Naval Safety
    The DoN has embraced the Occupational Safety and Health 
Administration (OSHA) Voluntary Protection Program (VPP), which seeks 
to foster a cooperative relationship between management, labor, and 
OSHA as a means to improve workplace safety. The VPP focuses on four 
major tenets: increased leadership and employee involvement in safety; 
effective worksite hazard analysis; a focus on hazard prevention and 
control; and effective safety and health training for employees. The 
DoN has achieved ``Star'' status, OSHA's highest level of achievement, 
at four sites representing over half of the VPP star sites in DOD. The 
naval activities include three naval shipyards, our largest industrial 
facilities. Statistical evidence for VPP's success is impressive. The 
average VPP worksite has a Days Away, Restricted or Transferred (DART) 
injury case rate of 52 percent below the average for its industry, 
which is consistent with what we have seen.
Joint basing
    The Office of the Secretary of Defense released a draft Joint Base 
Initial Implementation guidance on 31 January 2007 for coordination by 
the components. The Navy and Marine Corps have been working closely 
with the components for over a year in developing a common framework 
and standards to establish joint bases. The DoN supports the transfer 
of funding and real estate from the supported component to the 
supporting component for installation management functions, which will 
be the responsibility of the supporting component to provide at the 
joint base.
Encroachment Partnering
    We are successfully applying the authority in the National Defense 
Authorization Act for Fiscal Year 2003 to enter into agreements with 
State and local governments and eligible nongovernment organizations to 
address potential incompatible development near our installations and 
ranges, and to preserve nearby habitat to relieve current or 
anticipated environmental restrictions that might otherwise restrict 
military training, testing, or operations on the installation. Both the 
Navy and Marine Corps are using this authority to reduce or eliminate 
encroachment concerns. Through fiscal year 2006 DoN has protected 
nearly 16,000 acres near its installations under this program at a cost 
of $12.5 million while our partners have contributed $20.5 million. The 
DoN has also entered into several longer-term agreements under which we 
and our partners will seek additional encroachment buffering 
opportunities. Examples include:

        <bullet> An agreement with Beaufort County, South Carolina 
        under which we will share costs to acquire interests in the 
        vicinity of Marine Corps Air Station Beaufort.
        <bullet> An agreement with Churchill County, Nevada under which 
        we will share costs to acquire interests in the vicinity of 
        Naval Air Station Fallon.
Energy
    The DoN is pursuing ways to meet the requirements of Executive 
Order 13423 and the Energy Policy Act of 2005. Central to this plan is 
our continued development of geothermal power plants. Navy has 
partnered with the renewable energy industry on a 270 MW geothermal 
plant at Naval Air Warfare Station China Lake, CA; awarded a geothermal 
power plant contract for Naval Air Station Fallon, NV; and is 
evaluating a project at Naval Facilities Engineering Center El Centro, 
CA. Other on-base renewable projects include photovoltaic, wind, wave 
and ocean thermal energy conversion projects. I issued a new DoN policy 
last fall requiring all new buildings to be built to a Leadership in 
Energy and Environmental Design (LEED) Silver level.

                                HOUSING

    Our fiscal year 2008 budget continues to improve living conditions 
for sailors, marines, and their families. We have programmed the 
necessary funds and expect to have contracts in place by the end of 
fiscal year 2007 to eliminate all inadequate family housing. Renovation 
and new construction will be completed such that sailors and marines 
are no longer occupying inadequate homes by fiscal year 2012. We 
continue to provide homes ashore for our junior shipboard unaccompanied 
sailors, to provide appropriate living spaces for our junior enlisted 
bachelor Marines, and to address longstanding family housing deficits. 
We have programmed the necessary funding to eliminate over 99 percent 
of the inadequate permanent party unaccompanied bachelor quarters (BQs) 
housing spaces still served by ``gang heads.'' As we near finishing 
privatizing existing military family housing, we are making tangible 
progress in applying that same privatization approach to meet our 
unaccompanied housing needs.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Family Housing
    As in past years, our family housing strategy consists of a 
prioritized triad:

        <bullet> Reliance on the Private Sector. In accordance with 
        longstanding DOD and DoN policy, we rely first on the local 
        community to provide housing for our sailors, marines, and 
        their families. Approximately three out of four Navy and Marine 
        Corps families receive a Basic Allowance for Housing (BAH) and 
        own or rent homes in the community.
        <bullet> Public/Private Ventures (PPVs). With the strong 
        support from this committee and others, we have successfully 
        used PPV authorities enacted in 1996 to partner with the 
        private sector to help meet our housing needs through the use 
        of private sector capital. These authorities allow us to 
        leverage our own resources and provide better housing faster to 
        our families. Maintaining the purchasing power of BAH is 
        critical to the success of both privatized and private sector 
        housing.
        <bullet> MILCON. MILCON will continue to be used where PPV 
        authorities don't apply (such as overseas), or where a business 
        case analysis shows that a PPV project is not financially 
        sound.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    As of 1 March 2007, we have awarded 24 privatization projects for 
over 50,000 homes. As a result of these projects, over 30,000 homes 
will be replaced or renovated, about 5,000 new homes will be built, and 
the remaining 15,000 were privatized in good condition and did not 
require any improvements. Through the use of these authorities we have 
secured over $6 billion in private sector investment from $588 million 
of our funds, which represents a ratio of almost twelve private sector 
dollars for each taxpayer dollar.
    During the remainder of fiscal year 2007 and in fiscal year 2008, 
we plan to award 9 Navy and Marine Corps family housing privatization 
projects totaling over 13,000 homes. By the end of fiscal year 2007, 
the Navy and Marine Corps will have privatized 95 percent and over 99 
percent, respectively, of their U.S. housing stock.
    Our fiscal year 2008 and out-year family housing privatization 
projects are targeted at reducing family housing deficits by 
constructing additional housing for our families where the private 
sector cannot accommodate their needs. These authorities will ensure 
the availability of housing to address increased requirements 
associated with the Marine Corps' ``Grow the Force'' initiative, stand-
up of the Marine Corps Special Operations Command, and address our 
remaining housing deficit.
    Our fiscal year 2008 baseline family housing budget request 
includes $298 million for family housing construction and improvements. 
This amount includes $188 million for the Government investment in 
family housing privatization projects planned for fiscal year 2008 
award. It also includes the replacement or revitalization of housing in 
Guam and Japan where privatization is not planned. Finally, the budget 
request includes $371 million for the operation, maintenance, and 
leasing of remaining Government-owned or controlled inventory. The 
latter represents a 66 percent decline since 1999 when the DoN began in 
earnest to privatize its inventory of government owned housing. In 
addition, our fiscal year 2008 family housing global war on terrorism 
request includes another $12 million for the Marine Corps in family 
housing improvements.
Unaccompanied Housing
    Our baseline budget request of $323 \1\ million for 11 
unaccompanied housing projects continues the emphasis on improving 
living conditions for our unaccompanied Sailors and Marines. Marine 
Corps has an additional BQ for $41 million in the fiscal year 2007 
global war on terror supplemental, and another BQ and dining hall in 
the fiscal year 2008 global war on terror. There are three challenges:
---------------------------------------------------------------------------
    \1\ Excludes two Marine Corps Wounded Warrior barracks.

          1. Provide Homes Ashore for our Shipboard Sailors. 
        Approximately 13,000 E1-E3 unaccompanied Sailors worldwide 
        lived aboard ship even while in homeport. The fiscal year 2008 
        budget supports Navy's goal of providing ashore living 
        accommodations for these sailors. It includes one ``homeport 
        ashore'' construction project for $47 million to complete Naval 
        Base Kitsap Bremerton, WA (198 modules). We are requesting a 
        second phase of funding for this project previously authorized 
        in fiscal year 2005. The primary demographic are sailors 
        assigned to the nuclear carrier U.S.S. John C. Stennis, which 
        is homeported in Bremerton. Efforts to build this barracks as a 
        pilot BQ PPV proved uneconomical due to the large number of 
        vacancies that would occur when Stennis deployed.
          In addition to the E1-E3 shipboard sailors, there are 
        approximately 6,000 unaccompanied E-4 sailors with less than 4 
        years service who are assigned to sea duty. Although they are 
        entitled to receive BAH, funding for housing allowances remains 
        un-programmed. We will accommodate those sailors within our 
        existing unaccompanied housing capacity to ensure they do not 
        return to live aboard ship upon promotion to E4.
          2. Ensure our Barracks Meet Today's Standards for Privacy. We 
        are building new and modernizing existing barracks to increase 
        privacy for our single sailors and marines. Reflecting the 
        Commandant of the Marine Corps' priority to ensure single 
        marines are adequately housed, the fiscal year 2008 budget 
        includes $282 million in MILCON funding (a 124 percent increase 
        over fiscal year 2007 funding levels) for the construction of 
        3,750 permanent party and trainee spaces at seven Marine Corps 
        installations. The Marine Corps has programmed the necessary 
        funding from fiscal year 2008 through -11 to ensure marines for 
        their current approved 175,000 end strength are adequately 
        housed by 2012. These barracks will be built to the 2 + 0 room 
        configuration, as have all Marine Corps barracks since 1998.
          We appreciate Congress authorizing the Services to adopt 
        private sector standards for the construction of military 
        unaccompanied housing. We believe that we can provide market-
        style housing with improved amenities (such as increased common 
        space for residents) at a cost equivalent to that associated 
        with building smaller modules to rigid military specifications. 
        In implementing this authority, we will ensure that Service-
        specific operational requirements are not compromised, such as 
        the core Marine Corps' tenets for unit cohesion and 
        teambuilding.
          3. Eliminate Gang Heads. The Marine Corps had programmed all 
        necessary funding, through fiscal year 2005, to eliminate 
        inadequate unaccompanied housing with gang heads \2\ for 
        permanent party personnel. They will, however, continue to use 
        these facilities on an interim base to address short-term 
        housing requirements resulting from temporary end strength 
        increases in recent supplemental appropriations. The Navy will 
        achieve over 99 percent of this goal by fiscal year 2007.
---------------------------------------------------------------------------
    \2\ Gang heads remain acceptable for recruits and trainees.
---------------------------------------------------------------------------
Unaccompanied Housing Privatization
    We awarded our first pilot unaccompanied housing privatization 
project to Pacific Beacon LLC in December 2006. When complete in 
apartments for E-4 and above enlisted personnel in San Diego, CA who 
are unsuitably housed in the private sector or who are living in 
Government quarters that could be used by shipboard sailors. An 
existing unaccompanied housing building, containing 258 modules, was 
also privatized as part of this agreement. Our partner will provide 
additional quality of life amenities to existing buildings, such as a 
swimming pool.
    We are in exclusive negotiations with a prospective private partner 
for a second pilot project at Hampton Roads, VA. This project is set 
for contract award this spring, after the required Congressional 
notices. This project will build more than 1,000 new two-bedroom/two-
bathroom apartments and privatize over 700 existing unaccompanied 
housing modules for unaccompanied shipboard E1-E3 personnel.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    We appreciate Congress extending the authorities and streamlining 
the notification process in last year's National Defense Authorization 
Act. We continue to pursue candidates for the third pilot, targeting 
the Mayport/Jacksonville, FL, area, and expect to have preliminary 
results this spring on a feasibility study. We will also look at other 
candidates including additional phases at San Diego and Hampton Roads.
    Recognizing that these are long-term endeavors, we take seriously 
our responsibility to monitor the agreements to ensure that the 
Government's interests are adequately protected. We have instituted a 
portfolio management approach that collects and analyzes financial, 
occupancy, construction, and resident satisfaction data to ensure that 
the projects remain sound and that the partners are performing as 
expected. Customer surveys show overall improvement in member 
satisfaction after housing is privatized.

                            BUILDUP ON GUAM

    U.S. national interests and treaty commitments require 
strengthening of U.S. military capabilities in the Western Pacific. 
U.S. forces must be positioned to maintain regional stability, ensure 
flexibility to respond to regional threats, project power throughout 
the region, defend our assets as well as those of our allies, and 
provide forces to respond to global contingencies.
    The relocation of III Marine Expeditionary Force personnel from 
Okinawa to Guam under U.S.-Japan Alliance Transformation and 
Realignment is part of a broader realignment that, when implemented, 
will strengthen our regional posture, deter potential aggressors, and 
provide capabilities that can be flexibly deployed in contingencies, 
which are essential for the Defense of Japan and for peace and security 
in the region. For the marines, this development will balance the 
Marine Air Ground Task Force (MAGTF) lay down across the region with 
improved flexibility. The  8,000 marines and their 9,000 dependents 
leaving Japan will reduce the footprint of U.S. forces in Okinawa. This 
will facilitate consolidation of U.S. bases on Okinawa to allow 
additional land returns in Japan, while reinvigorating Guam's economy 
through economic stimulus, infrastructure improvements, and external 
investments.
    The Government of Japan will fund most of the infrastructure 
construction costs over the planned 7-year time period to implement the 
realignment actions in mainland Japan, Okinawa, and Guam. On Guam, 
Japan will contribute $6.09 billion of cost sharing toward the 
estimated $10.27 billion development cost associated with the 
realignment of marines from Okinawa to Guam. Japan's contribution 
consists of $2.8 billion in cash for operational facilities, barracks, 
and quality of life facilities, and $3.29 billion in equity investments 
and loans to special purpose entities that will provide housing and 
utilities for the marines on Guam.
    The Deputy Secretary of Defense directed the Navy to establish a 
Joint Guam Program Office (JGPO) to coordinate and manage the 
relocation of the marines from Okinawa to Guam. There will be JGPO 
offices in Arlington, VA, and in Guam, along with a liaison billet in 
Hawaii with USPACOM, and another in Japan with USFJ. The JGPO will work 
closely with the Office of Economic Adjustment and the Government of 
Guam to ensure this initiative is mutually beneficial to DOD and to the 
people of Guam.
    JGPO will oversee National Environmental Policy Act (NEPA) studies 
that will provide the foundation for the Environmental Impact Statement 
(EIS) and parallel development of a Guam Master Plan. We have $10 
million in fiscal year 2007 and are requesting $28 million in multiple 
appropriations in the fiscal year 2008 baseline budget to continue 
these efforts. My office released the NEPA Notice of Intent in the 
Federal Register on 7 March 2007. The Draft EIS, Final EIS, and Record 
of Decision, including public comment periods could take up to 3 years 
to complete. The EIS will address the impact of relocating III MEF with 
the Air, Ground, and Combat Service Support elements from Okinawa to 
Guam. The housing, operational, quality of life, and services support 
infrastructure for the marines will be identified during the planning 
process, and assessed through the environmental analysis. It will also 
assess the impacts of improving the Apra Harbor waterfront to construct 
a pier capable of berthing a transient aircraft carrier as well the 
infrastructure requirements needed to station a U.S. Army ballistic 
missile defense task force on Guam. We will ask for the necessary 
MILCON funds beginning with the fiscal year 2010 budget submission.

                              ENVIRONMENT

Endangered Species Protection
    For nearly a century, San Clemente Island, CA, was ravaged by the 
destructive forces of invasive species, which severely degraded the 
island's entire ecosystem. Eleven endemic and/or native plants and 
animals neared extinction, and are now protected under the Endangered 
Species Act.
    Today, the status of most of these species has been significantly 
enhanced because of the Navy's environmental stewardship. The Navy 
eradicated all non-native feral grazing animals in the early 1990s and 
removed exotic plants which were overwhelming native species. The 
island has been healing through natural processes and Navy protective 
measures and restoration efforts. In response to a request from the 
Navy, the U.S. Fish and Wildlife Service in October 2006 recommended 
delisting the Island Night Lizard on San Clemente Island as a result of 
a 5-year review. The final decision is still pending.
    Camp Pendleton uses its Integrated Natural Resources Management 
Plan (INRMP) to manage the ecosystem on this 125,000-acre installation, 
recognizing that the military mission as a central and integral element 
of the ecosystem. During the last 2 years, the INRMP demonstrated its 
benefit by excluding the base from Critical Habitat (CH) designations 
by the U.S. Fish and Wildlife Service (USFWS) for seven species. In 
each case, the Secretary of the Interior found that Camp Pendleton's 
INRMP provided a benefit to the species, and agreed to exclude all 
Base-managed lands from designation as critical habitat, per Section 
4(a)(3) of the Endangered Species Act., and required no further 
restrictions on military training activities.
    In 2006, the USFWS released 5-year status reviews for two species 
inhabiting Camp Pendleton: the least Bell's vireo and the California 
least tern. The USFWS recommended both birds be upgraded from 
``endangered'' to ``threatened'' due in large measure to Camp 
Pendleton's management efforts, such as habitat enhancement, cowbird 
control, and focused predator management. A final decision is pending.
    Navy Marine Mammals/Sonar R&D investments
    The Navy recognizes the need to protect marine mammals from 
anthropogenic sound in the water. The Navy invests $10 million to $14 
million per year for research into hearing and diving physiology, 
behavioral response to human-generated sound, mitigation options, and 
simulation tools. Approximately 33 universities, institutes, and 
technical companies are supported by Navy research grants. All the 
research is aimed a developing a broad, scientific understanding of 
marine mammals. The Navy recently expanded its research on the effects 
of mid-frequency sonar to include effects on fish.
MMPA National Defense Exemption
    On 23 January 2007 the DOD issued a National Defense Exemption 
(NDE) under the Marine Mammal Protection Act (MMPA) for all military 
readiness activities that employ mid-frequency active sonar or Improved 
Extended Echo Ranging Sonobuoys during major training exercise, within 
established DOD maritime ranges, or establish operating areas. A 6-
month NDE had expired on 30 December 2006.
    The Navy is working closely with the National Oceanic and 
Atmospheric Administration (NOAA), which has jurisdiction on MMPA 
enforcement, to address procedural issues, identify and implement 
mitigation and monitoring measures to minimize potential effects to 
marine mammals, and establish mutually acceptable threshold criteria. 
The Navy has also established an outreach workgroup with the many non-
governmental organizations that have a vested interest in the 
protection of marine species. The Navy has begun the public NEPA 
process on its three most active ranges--Hawaii, Southern California, 
and east coast, and is committed to completing environmental 
documentation for all ranges by the end of 2009.
Shipboard Programs
    The Navy continues modernizing its vessels to comply with more 
stringent environmental regulations. The Navy completed its Afloat 
Pollution Prevention Equipment installations in September 2006 with 152 
installations on Navy surface ships. The equipment reduces the need for 
hazardous material, and the generation of hazardous waste. The Navy 
continues to convert its shipboard air conditioning and refrigeration 
plants from Ozone Depleting Substances (ODS) to non-ODS refrigerants. 
As of 1 March 2007, we had completed 516 of 690 conversions of 
shipboard air condition systems and 600 of 614 conversions of shipboard 
refrigeration systems. Navy expects to complete its transition to non-
ODSs by 2014.
    The Navy has also completed 114 of 334 upgrades to its plastic 
waste processors (PWPs), which allow ships at sea to compress plastics 
into a solid disk for disposal or recycling ashore. The new PWPs reduce 
maintenance, improve reliability and throughput, and include a self-
cleaning future, giving our sailors the best equipment to meet no-
plastics discharge requirements while at sea.
Environmental Compliance by Shore Installations
    The Navy continues to improve its shore installation compliance 
environmental standards. Solid waste diversion has climbed from 42 
percent in fiscal year 2004 to 60 percent in fiscal year 2006 for 
combined municipal waste and construction and demolition debris, 
compared with an EPA national average diversion rate of 32 percent. Our 
hazardous waste disposal amounts are down to an all time low of 54 
thousand tons of hazardous waste, compared to 207 thousands tons when 
DOD starting using this metric in 1992, this despite increased optempo 
to support the global war on terror. Domestically, 91 percent of Navy 
permits are in full compliance with Clean Water Act standards, and 97 
percent meet all Safe Drinking Water Act standards, both increases from 
recent years.
    The Marine Corps has made similar progress. For example, the number 
of new enforcement actions against the Marine Corps in fiscal year 2006 
has declined by 25 percent compared to the average number in fiscal 
year 2001 through fiscal year 2005. This decrease occurred at a time of 
high operational tempo and more regulatory inspections.
Alternative Fuel Vehicles
    The Navy has many initiatives to reduce its reliance on imported 
oil. Last year, Navy doubled biodiesel usage for non-tactical vehicles. 
Biodiesel fuels are now available at Navy Exchange fuel stations in 
Norfolk, VA; Crane, IA; and Charleston, SC. After successfully 
completing a pilot scale system, the Naval Facilities Engineering 
Services Center (NFESC) is building a full-scale biodiesel production 
facility at Naval Base Ventura County, Port Hueneme, CA. NFESC 
distributed 92 neighborhood electrics last year. These electric 
vehicles can be charged at any 110 volt outlet and are well-suited for 
use in ports, air stations, and large supply buildings.
Installation Restoration Program (IRP)
    The DoN has completed cleanup or has remedies in place at 78 
percent of our 3,700 contaminated sites. We plan to complete the 
program by 2014. The cost-to-complete the installation restoration 
program continues a downward trend with efficiencies of $600 million 
over the past 10 years. Use of new technologies, land use controls, 
remedy optimizations, contract efficiencies, and a dedicated 
professional staff have contributed to these efficiencies. Our fiscal 
year 2008 request of $301 million consists of $271 million for IRP, and 
$41 million for program management, and $43 million for munitions 
response.
Munitions Response Program (MRP)
    The DoN is proceeding with cleanup of Munitions and Explosives of 
Concern (MEC) and Munitions Constituents (MC) at all Navy and Marine 
Corps locations other than operational ranges. We plan to complete 
preliminary assessments this year at all 213 known sites on 56 active 
installations. Site inspections and sampling will be completed by 2010. 
We will not have credible cleanup cost estimates until these 
assessments are completed in 2010.
    Navy continues clearing munitions from Vieques, PR. About 65 acres 
of beaches have been surface cleared of munitions on the eastern side 
of the island, and we are removing surface MEC and MC on 1,100 acres of 
the former bombing range Live Impact Area and the artillery range. A 
total of 290 acres, including the ``Red'' and ``Blue'' beaches have 
been cleared. Our revised cost to complete for Vieques is $255 million, 
with completion expected in 2020.

                                BRAC 05

    In developing the BRAC 2005 recommendations, the DoN sought to 
eliminate excess capacity, improve operational readiness, capitalize on 
joint basing opportunities with the other components, maintain quality 
of service, and achieve cost savings. The BRAC 2005 Commission 
recommendations became legally binding on the DOD on 9 November 2005. 
In contrast to prior BRAC commissions, the BRAC 2005 recommendations 
have fewer closures and many more realignments, particularly 
realignments that involve more than one military Service or Defense 
Agency. The DoN has 6 ``fence line'' closures and 81 realignment 
recommendations involving 129 bases. Our remaining environmental cost 
to complete for fiscal year 2008 and beyond is $94 million.
Accomplishments
    Given that all closures and realignments in BRAC 05 must by law be 
completed by September 2011, we must move quickly to construct the 
necessary facilities to relocate units from their current location to 
their new location. We initiated BRAC 05 implementation in fiscal year 
2006 by awarding 12 BRAC construction projects at the ``receiver'' 
locations. The DoN obligated 96 percent of the total fiscal year 2006 
$252 million BRAC 05 funds we received.
    Nearly all impacted communities have established a Local 
Redevelopment Authority (LRA) to guide local planning and redevelopment 
efforts. The DOD Office of Economic Adjustment has been providing 
financial support through grants and technical assistance to support 
LRA efforts.
    To date, the Navy has terminated leases at 11 Reserve centers, 
thereby returning these properties to their owners; and completed 14 
surplus determinations, allowing us to proceed with disposal actions to 
non DOD recipients at these locations. We expect to complete the 
remaining two surplus determinations this spring. We also completed 23 
Environmental Condition of Property Reports, providing copies to local 
communities and Federal agencies to support their redevelopment 
efforts. These environmental reports provide a comprehensive summary of 
all known environmental contamination, as well as the studies, 
analyses, and cleanup that have been done, are now underway, or remain 
to be done.
    Navy has completed operational closure of 12 bases. We have 
received approval from the Office of the Secretary of Defense (OSD) for 
58 out of 64 business plans for which the DoN is the executive agent. 
These business plans, which average 40 pages in length, include 
extensive details on costs, savings, schedules, and support documents 
for each construction project. We continue efforts to gain OSD approval 
for the remaining business plans, which involve more complex moves and 
joint basing decisions.

                 PRIOR BRAC CLEANUP & PROPERTY DISPOSAL

    The BRAC rounds of 1988, 1991, 1993, and 1995 were a major tool in 
reducing our domestic base structure and generating savings. The DoN 
has achieved a steady state savings of approximately $2.7 billion per 
year since fiscal year 2002. All that remains is to complete the 
environmental cleanup and property disposal on portions of 17 of the 
original 91 bases.
Property Disposal
    Last year we conveyed 906 acres in 12 separate real estate 
transactions at 6 prior BRAC bases. We also completed Findings of 
Suitability for Transfer (FOST) for 940 acres. The FOST certifies that 
DOD real estate is environmentally suitable for transfer by deed under 
section 120(h) of the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA).\3\
---------------------------------------------------------------------------
    \3\ 42 U.S.C. Section 9620(h).
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Land Sale Revenue
    We have continued our success in using property sales to assist in 
funding environmental cleanup and property disposal as well as recover 
value for taxpayers from the disposal of Federal property. Through a 
combination of cost Economic Development Conveyances, Negotiated Sales, 
and Public Sales, the DoN has received over $1.1 billion in revenues 
from the sale of prior BRAC property. Nearly all of this revenue has 
been generated since fiscal year 2003. In fiscal year 2006, we 
completed the sale of 3,719 acres at the former Marine Corps Air State 
El Toro, CA for $649.5 million. We also sold 167 acres at the former 
Naval Hospital Oakland, CA for $100.5 million. Beginning in fiscal year 
2003, we have used these funds to accelerate environmental cleanup, and 
to finance the entire DoN prior BRAC effort including caretaker costs 
since fiscal year 2005.
    We have put this land sale revenue to good use! We have issued 
Findings of Suitability to Transfer for over 4,500 acres which enabled 
us to continue our disposal efforts. A few of the significant disposals 
include the last parcels at Naval Shipyard Charleston, SC; Naval Air 
Station Key West, FL; San Pedro Housing Area for Naval Shipyard Long 
Beach, CA; and Naval Hospital Oakland, CA, as well as the first parcel 
at Hunter's Point Naval Shipyard. In addition, Navy accelerated cleanup 
on the majority of MCAS El Toro, a National Priorities List (NPL) site. 
We have also completed the cleanup of over half of Naval Station 
Treasure Island and determined it acceptable for transfer. Significant 
cleanup activities were undertaken at both Hunter's Point Naval 
Shipyard, as well as Alameda Naval Air Station, all of which are NPL 
sites, greatly improving the protection to human health and the 
environment.
    Two significant property sales remain, both planned to begin in 
fiscal year 2009: approximately 176 acres at the former Naval Training 
Center Orlando, FL; and about 1,450 acres at the former Naval Station 
Roosevelt Roads, PR. We will spend the last portions of the $1.1 
billion in land sale revenue in fiscal year 2009. Revenue projections 
for Orlando and Roosevelt Roads are unknown, but are expected to be 
well below that obtained from the sale of California property at El 
Toro and Tustin. In the absence of additional land sale revenue, we are 
evaluating the need to resume appropriated funds in future budgets.
Prior BRAC Environmental Cleanup
    The DoN has spent about $3.5 billion on environmental cleanup, 
environmental compliance, and program management costs at prior BRAC 
locations through fiscal year 2006. With our planned programs of $342 
million in fiscal year 2007 and $179 million in fiscal year 2008, we 
expect the environmental cost to complete for fiscal year 2009 and 
beyond at $1.168 billion. This is an increase of $725 million since 
last year. Nearly all of this cost increase is due to the recent 
discovery of substantially more low level radioactive waste at the 
former Hunters Point Naval Shipyard in San Francisco, CA and some at 
the former Naval Air Station Alameda, CA.
Hunters Point Naval Shipyard
    Hunters Point Shipyard represents one of the most unique prior BRAC 
challenges. Maritime use of Hunters Point began in the 1850's. The Navy 
purchased the property in 1939, and began to expand the shipyard and 
build facilities. Between 1939 and 1974, Hunters Point was one of the 
Navy's largest industrial shipyards and was home to the Naval 
Radiological Defense Laboratory (NRDL). The Navy used Hunters Point to 
decontaminate ships that had been used during atomic weapons testing 
under Operation Crossroads. NRDL conducted radiological research in 
numerous buildings on the base.
    The Navy closed Hunters Point in 1974, and then leased most of the 
property in 1976 to a private ship repair company. The Environmental 
Protection Agency placed the shipyard on the National Priorities List 
in 1989. The DOD listed the shipyard for closure as part of BRAC 1991.
    The Navy has conducted expansive records and data search to 
identify all areas of potential contamination, as required under 
CERCLA. This included conducting a Historic Radiological Assessment and 
extensive sampling to identify potential contamination from past 
radiological activities. There are 78 installation restoration sites 
and 93 radiological sites, and Navy has spent about $400 million on 
cleanup efforts. While the base does not present a risk to human 
health, the additional data has revealed a much greater degree of 
contamination than previously known. The previous cost to complete was 
$110 million. The revised fiscal year 2008 cost to complete is $670 
million, which excludes submerged lands. We will have an independent 
outside consultant review the situation and seek options that balance 
cleanup costs and health risks to humans and the environment. Land use 
controls must be part of the remedy for Hunters Point.
    The City of San Francisco recently proposed building a new football 
stadium using a portion of Hunters Point. Such a proposal represents a 
very compatible reuse that could be effectively integrated into the 
cleanup program. While this appears to be an excellent opportunity for 
combining cleanup with transfer and redevelopment of Hunters Point, it 
will require significant financial resources in the near term that are 
not now budgeted.

                        HURRICANE SUPPLEMENTALS

    Following the experience learned from Hurricane Ivan in 2004, the 
Navy was prepared to respond quickly to the Hurricane Katrina and 
lesser storms in 2005 that affected eight major Navy bases. With 
supplemental funds provided by Congress, we have made the necessary 
repairs to get our facilities back to full mission capability. The 
funding allowed us to begin the cleanup as the long term 
reconstruction. We have awarded 37 percent of the $493 million in 
MILCON and family housing construction projects to date, with plans to 
award the balance by the end of this fiscal year.

              MEETING THE CONSTRUCTION EXECUTION CHALLENGE

    The ambitious programs I have outlined, encompassing military and 
family housing construction, continuing recovery efforts in the Gulf 
Coast, BRAC-related construction, and support for the global war on 
terror represent an execution effort of over $4 billion in fiscal year 
2008 compared to the fiscal year 2005 effort of $2.5 billion. The Grow 
the Force and barracks initiative by the Marine Corps, and the buildup 
on Guam initiative will add a sustained annual program of $2 to $3 
billion through the FYDP.
    The Naval Facilities Engineering Command (NAVFACENGCOM) has, with 
the exception of fiscal year 2006, obligated between 92 percent to 98 
percent of all authorized and appropriated DoN construction projects 
(including congressional adds) in the first year funds became 
available. That obligation rate dropped to 74 percent in fiscal year 
2006, primarily due to pricing issues caused by material and labor 
shortages in the aftermath of hurricanes in 2004 and 2005.
    NAVFACENGCOM has substantial additional contracting capacity, and 
will seek to aggregate related projects while preserving competition 
and small business interests. For example, NAVFACENGCOM sponsored an 
industry conference in January 2007 to explore opportunities for cost 
and scheduling efficiencies. This is an execution challenge that 
NAVFACENGCOM can do.

                               CONCLUSION

    The Navy cannot meet the threats of tomorrow by simply maintaining 
today's readiness and capabilities of our physical plant. We must 
continue to transform and recapitalize for the future without 
jeopardizing our current readiness and the strides we have made--and 
continue to make--in managing our shore infrastructure. With our 
partners in industry, the acquisition community, and with the 
continuing support of Congress, the DoN will build and maintain 
installations that are properly sized, balanced--and priced for 
tomorrow.
    Thank you for the opportunity to testify before this committee. I 
look forward to a productive dialogue with Congress on the DoN's shore 
infrastructure.

    Senator Akaka. Secretary Anderson?

 STATEMENT OF HON. WILLIAM C. ANDERSON, ASSISTANT SECRETARY OF 
    THE AIR FORCE, INSTALLATIONS, ENVIRONMENT AND LOGISTICS

    Mr. Anderson. Good afternoon, Mr. Chairman, and 
distinguished members of the subcommittee. On behalf of 
America's airmen, it is a pleasure to be here and thank this 
subcommittee for its continued support of America's Air Force.
    As our Nation and Department finds itself engaged in 
hostilities and war for the 16th consecutive year, we are also 
in a transition period, where the Air Force continues to evolve 
and remain indispensable as threats to our Nation emerge and 
change. The Air Force is getting smaller, but our commitments 
are not. Airmen perform critical installations, environmental, 
and logistics tasks that are intrinsic to every facet of the 
success of our missions.
    During these challenging times, the Air Force priorities 
remain constant: winning the global war on terror, developing 
and caring for our airmen, and recapitalizing and modernizing 
our air and space systems. Among our priorities is the Air 
Force's energy program, with efforts geared to reduce energy 
demand, increase supply, and create a culture where all airmen 
take energy as a consideration in everything that we do.
    One initiative focuses on aviation fuel. During fiscal year 
2006, our aviation operations accounted for 82 percent of all 
of Air Force's energy use. To wean us off of foreign energy 
sources, last year we began testing and certifying a coal-to-
liquid synthetic jet fuel for our aviation fleet beginning with 
the B-52. We will continue this program, with a goal to certify 
the entire fleet by 2010.
    Another Air Force initiative is targeted at work-related 
injuries, a problem that is costly to the Air Force and, more 
importantly, it is a problem that negatively impacts the 
quality of life for our airmen and their families. The 
Secretary and Chief of Staff have directed launching OSHA's 
voluntary protection program across the Air Force. Once fully 
implemented, every airman will be empowered to actively 
identify and take action to eliminate safety and health hazards 
in their workplace.
    Air Force facilities, housing, environmental, and BRAC 
programs are key to supporting Air Force priorities. At home 
our installations provide stable training environments as we 
equip and reconstitute our force. Both our stateside and 
overseas bases provide force projection platforms to support 
combatant commanders. Our bases are weapons systems to the Air 
Force and in order to support these base-centric concepts of 
operations the Air Force has developed an infrastructure 
investment strategy that focuses on enabling combatant 
commanders.
    The fiscal year 2008 presidential budget request for 
traditional MILCON is $1 billion and this budget carefully 
balances our needs for facility operation and maintenance 
accounts so that we can enable support of the Air Force 
mission. That budget request also includes $363 million for 
housing investment, which balances new construction, 
improvements, and planning and design work. Housing continues 
to be a good news story for airmen and our families, including 
privatization, as my colleagues have discussed.
    Our request also includes $933 million for direct-funded 
non-BRAC environmental programs--restoration, compliance, 
conservation, and other environmental efforts.
    To continue the BRAC implementation schedule, the fiscal 
year 2008 budget requests $1.2 billion in BRAC-related 
activities, of which $910 million is for construction. Full 
support of this funding request is critical to ensure we remain 
on track to meet the requirement of compliance by 2011.
    We are committed to making BRAC and joint basing a raging 
success. However, several joint basing policy elements run 
counter to the spirit of efficiency and cost savings in the 
joint basing construct. The Air Force believes total obligation 
authority for real property services would serve as a 
disincentive to cost savings, efficiency, and effective 
execution on customer expectations. These customers, our 
operational commanders, should define the requirements 
necessary to execute the mission and manage the funds to meet 
their needs. The Air Force believes that joint basing provides 
a unique opportunity to actually improve the quality of life 
for every soldier, sailor, airman, marine, and their families.
    This year we commemorate the 60th anniversary of our proud 
service, a service born of revolutionary ideas, forged in 
combat, and proven through decades of progress and achievement.
    We look forward to your questions. Thank you.
    [The prepared statement of Mr. Anderson follows:]

             Prepared Statement by Hon. William C. Anderson

    Mr. Chairman, Senator Ensign, and distinguished members of the 
subcommittee, as our Nation, and Department, finds itself in a 
transition period, the Air Force continues to evolve and remain 
indispensable as threats emerge and change. The Air Force is the 
preeminent force for operations beyond the bounds of earth, and is 
vital and relevant in the conduct of ground operations as well. The Air 
Force has been continually engaged in War for the past 16 years. The 
Quadrennial Defense Review guides the Air Force and enables us to 
deliver sovereign options for the defense of the United States of 
America and its global interests. The Air Force is getting smaller, but 
our commitments have not. Airmen performing critical installations, 
environment and logistics tasks are intrinsic to every facet in the 
success of our missions. My Civil Engineers are critical to every facet 
in the success of our missions. We currently have over 2,500 engineers 
in the theater of operations directly supporting Operations Enduring 
Freedom and Iraqi Freedom. In order to fulfill our mission, we are 
making process changes at every level of the Air Force with results in 
resource savings and more efficient operations. We have more work to 
do, but by institutionalizing Air Force Smart Operations 21 concepts 
into our daily operations we are leaning our internal processes to 
reduce workload and reduce or eliminate unnecessary work. These efforts 
allow us to meet the enormous challenges of today, the foreseeable 
future, and ultimately, sustain and modernize the world's best air, 
space, and cyberspace force. In these tumultuous times our priorities 
remain consistent: fighting and winning the war on terror, developing 
and caring for our airmen and their families, and recapitalizing and 
modernizing aging aircraft and spacecraft.
    Air Force facilities, housing, environmental, and BRAC programs are 
key components of our support infrastructure. At home, our 
installations provide stable training environments as we equip and 
reconstitute our force. Both our stateside and overseas bases provide 
force projection platforms to support combatant commanders (COCOMS). 
Our bases use weapons systems and in order to support our base-centric 
concept of operations, the Air Force has developed an infrastructure 
investment strategy that focuses on enabling COCOM's to fight and win 
the war on terror, providing quality of life facilities, implementing 
BRAC, protecting and restoring our natural environment, sustaining our 
infrastructure and striving to recapitalize our aging infrastructure, 
while proactively supporting the operational environment. We are the 
DOD's leader in expeditionary combat support and continue that role 
with pride. Our total force military construction (MILCON), family 
housing, environmental and sustainment, restoration, and modernization 
programs are paramount to successful operations and maintaining the 
quality of life that our men and women in uniform and their families 
deserve.
    The fiscal year 2008 President's budget request for Air Force 
construction is over $2.3 billion, comprised of traditional MILCON 
($1.0 billion), BRAC 2005 ($910 million) and housing investments ($363 
million). The Total Force MILCON portion ($1 billion) of Air Force 
fiscal year 2008 President's budget (PB) construction request reflects 
our highest construction priorities. This request includes $912 million 
for Active MILCON, $86 million for the Air National Guard, and just 
over $27 million for the Air Force Reserve. While the 2008 traditional 
MILCON budget request is approximately $300 million lower than last 
year's, it reflects our highest priorities and most urgent needs. 
Unfortunately, we face demands on our resources that require some very 
tough choices. Our current challenging budgetary environment includes: 
increased operations, maintenance, and personnel costs; the cost of the 
long war; reduced Air Force total obligation authority (TOA); and 
absorbing inflation factors that reduce overall buying power. These 
factors have forced us to self-finance the centerpiece of future 
dominance--a massive and critical recapitalization and modernization 
effort of our aging air and space force. In order to accomplish this we 
are accepting manageable risk in facilities and infrastructure funding 
in order to bolster our recapitalization and modernization efforts. 
This budget carefully balances our facility operations and maintenance 
accounts for sustainment, restoration, modernization with MILCON 
programs to make the most effective use of available funding in support 
of the Air Force mission. The Air Force Total Force sustainment funding 
in fiscal year 2008 is $2 billion, 92 percent of the amount called for 
by the Facility Sustainment Model (FSM). The fiscal year 2008 Total 
Force restoration and modernization (R&M) funding is $346 million.
    The Air Force fiscal year 2008 PB request of $363 million for the 
Military Family Housing investment program balances new construction, 
improvements, and planning and design work. While we continue to strive 
to eliminate inadequate housing, we cannot allow more housing to fall 
into disrepair. In addition to the $363 million requested for housing 
investment, we request nearly $688 million for operations and 
maintenance, for a total housing investment of more than $1 billion.
    To continue our proactive and responsive environmental compliance, 
conservation, pollution prevention and restoration programs, the fiscal 
year 2008 PB request includes $933 million for direct-funded non-BRAC 
environmental programs. In addition to the $429 million we requested 
for traditional environmental restoration activities, the fiscal year 
2008 PB request includes $321 million for environmental compliance 
activities and projects, $84 million for pollution prevention 
initiatives, $51 million for funding environmental conservation 
activities, $29 million for munitions response activities, and $19 
million in investments in promising environmental technologies.
    To continue our aggressive BRAC implementation schedule, the fiscal 
year 2008 PB request includes $1.2 billion for BRAC related activities 
of which $910 million is construction. The Air Force is lead for 64 
BRAC business plans and has equity in an additional 16 business plans. 
Full support of this funding request is critical to ensure we remain on 
track to meet the requirement for compliance by 2011.
    Sound investment in our installations postures the Air Force to 
support our priorities of winning the global war on terror, support our 
airmen and their families, and recapitalize and modernize our force. We 
believe the fiscal year 2008 President's budget proposal will provide 
the construction bedrock for continued success of our mission.

             FIGHTING AND WINNING THE GLOBAL WAR ON TERROR

    The Air Force's first priority is to fight and win the global war 
on terror. We plan to invest $192 million on global war on terror-
related projects that support and enhance the AF's ability to deliver 
intelligence, maintenance, and operational capabilities to our COCOMs. 
At MacDill Air Force Base (AFB), FL, the Air Force is executing two 
projects at Central Command (CENTCOM) by completing the Joint 
Intelligence facility and altering the CENTCOM headquarters facility. 
CENTCOM's area of responsibility is the geographic and ideological 
heart of the global war on terror. A war without borders, it spans 27 
countries in the Central Asian region of the world. The Joint 
Intelligence Center provides the CENTCOM Commander with the situational 
awareness and long range analyses needed to defeat adversaries within 
the area of responsibility, promote regional stability, support allies, 
and protect U.S. national interests, all aimed toward victory in the 
global war on terror. Two projects at Royal Air Force (RAF) Menwith 
Hill Station, U.K. and one at Offutt AFB, NE, enhance intelligence 
gathering and analysis capabilities for the United States and our 
allies. The Basic Expeditionary Airman Skills Training at Lackland AFB, 
TX, provides facilities for expanded field training that will equip our 
airmen as they enter the Air Force with the warfighting skills and 
mindset vital in today's operational environment.

             DEVELOP AND CARE FOR AIRMEN AND THEIR FAMILIES

    The Air Force sees a direct link between readiness and quality of 
life. The Air Force is committed to creating and maintaining a 
consistent, high quality, and safe environment in locations where 
airmen work, reside, and recreate. Our Total Force airmen are the most 
valuable assets we have in fighting the global war on terror and 
ensuring our air, space and cyberspace dominance. We have to continue 
to recruit, train, equip, and retain the airmen of tomorrow. As our Air 
Force becomes more capable, more efficient and more lethal, so will our 
airmen. The quality of life we provide for our airmen and their 
families is a distinct determining factor in how long they remain in 
our service. The sacrifices our airmen and their families make are 
enormous. We are deeply committed to providing every airman and their 
family with the best possible quality of life as they serve our Nation. 
In this year's budget we strive to promote a wide spectrum of projects 
that take care of our airmen and their families; from quality family 
housing for our families, quality dormitories for unaccompanied airmen, 
functional fitness centers, and safe child development centers, to 
exceptional training and operational facilities.
Workplace
    Work-related injuries cost the Air Force over $130 million annually 
and have a significant impact on operational capability. Most 
importantly, workplace injuries negatively impact the quality of life 
for our airmen and their families. One program being used to achieve a 
reduction in workplace injuries is OSHA's Voluntary Protection Program 
(VPP). The SECAF and CSAF have directed ``launching the VPP throughout 
the Air Force . . . for service-wide implementation.'' Through VPP, 
every airman and his wingman are empowered to actively identify and 
take action to eliminate safety and health hazards in the workplace. 
Our goal is to offer an accident-free work environment for each and 
every airman.
At Home
    When airmen deploy, time spent worrying whether their families are 
safe and secure is time not spent focusing on the mission. Quality of 
life initiatives are critical to our overall combat readiness and to 
recruiting and retaining our country's best and brightest. Our quality 
of life initiatives reflect our commitment to our airmen.
Family Housing
    The Air Force Family Housing Master Plan details our Housing 
MILCON, operations and maintenance, and privatization efforts. It is 
designed to ensure safe, affordable, and adequate housing for our 
members. To implement the plan, our fiscal year 2008 budget request for 
family housing is over $1 billion. Consistent with Department of 
Defense Strategic Planning Guidance, the Air Force is on track to fund 
projects through 2009 that will eliminate inadequate overseas housing.
    For fiscal year 2008, the requested $363 million for our housing 
investment program will replace and improve approximately 2,100 housing 
units at eight overseas bases. An additional $688 million will pay for 
operations, maintenance, utilities and leases to support the family 
housing program.
    We have used the privatization authorities granted by Congress to 
accelerate our family housing improvement program. By the beginning of 
fiscal year 2008, we will have privatized over 44,000 housing units, or 
72 percent of our U.S. housing inventory, far exceeding the Office of 
the Secretary of Defense (OSD) goal of 60 percent. The Air Force is 
strategically leveraging its $596 million investment to bring in $7.37 
billion in equivalent MILCON investment from the private sector; that 
is nearly $15 of private investment for each public tax dollar. The Air 
Force is aggressively researching privatization at remaining U.S. 
MILCON installations where feasible.
Unaccompanied Housing (Dormitories)
    The fiscal year 2008 total Air Force requirement for dormitory 
rooms is 60,200. We have made great progress using the three-phased 
investment strategy outlined in our Dormitory Master Plan. Phase I, now 
construction complete, eliminated central latrine dormitories. With the 
fiscal year 2007 MILCON we have funding necessary to complete phase II 
of our Dormitory Master Plan, our dorm room shortage (deficit), by 
building new dormitories. In Phase III, now underway, we will replace 
existing dormitories at the end of their useful life with a standard 
Air Force designed private room configuration under the `Dorms-4-
Airmen' concept. Our `Dorms-4-Airmen' concept capitalizes on our 
wingman strategy and keeps our dorm residents socially and emotionally 
fit.
    Our fiscal year 2008 Program reflects this strategy. The $47 
million request for dormitory investment will replace 368 rooms for 
unaccompanied personnel at both stateside and overseas bases. We are 
equally committed to providing adequate housing and improving the 
quality of life for our unaccompanied junior enlisted personnel as we 
are to our families.
Fitness and Child Development Centers
    The Air Force maintains its strong commitment to the `Fit-to-Fight' 
program. Our goal is for airmen to make fitness and exercise a regular 
part of their lives and prepare them to meet the rigors of a deployed 
environment, not simply to pass an annual fitness test. Our goal is to 
replace at least one fitness center per year until we have the 
resources to do more. This year we will construct a new fitness center 
at Tyndall AFB, FL.
    We also remain committed to the children of our airmen and are 
dedicated to provide them with adequate and nurturing day care 
facilities. In 2008 the most urgent need is at Patrick AFB, FL. Our $12 
million effort at Patrick AFB will provide supervised care for 266 
infants and preschool children, replacing a child development center 
that was established in a warehouse built in 1958.
Operations and Training
    Our MILCON program supports our expanded view of quality of life 
for airmen by providing facilities from which to train in and operate. 
A new Security Forces Operations Facility at Scott AFB, IL, will 
provide the men and women of the active duty and National Guard in one 
of our most stressed career fields a functional, consolidated facility. 
The Fire Training Facility at Ramstein AB is jointly funded by NATO and 
provides military critical live-fire and structural fire/crash rescue 
training. Finally, a recapitalization project at the Air Force Academy 
continues the phased upgrade of Fairchild Hall academic building. The 
final renovation and upgrade of Fairchild Hall will be complete with a 
$15 million effort programmed in our fiscal year 2009 MILCON program.
Environmental Management Programs
    Our environmental management programs continue to ensure our most 
basic quality of life needs are being met for our airmen and 
surrounding communities: clean air, clean drinking water, and healthy 
working and living conditions for our workforce and base residents. We 
are also implementing refinements to our environmental management 
approach to incorporate best practices where we find opportunities:

        <bullet> A comprehensive Air Force Green Procurement Program 
        policy was implemented last year to require our purchasing 
        systems to consider environmentally-preferable products as a 
        first choice;
        <bullet> All 174 Air Force installations have implemented and 
        continue to utilize their Environmental Management Systems to 
        identify environmental aspects of base operations, assess their 
        impacts, and allow commanders to make informed decisions and 
        investments to reduce environmental risks and compliance costs;
        <bullet> I also challenged our installation commanders to 
        significantly reduce new environmental enforcement actions last 
        year, and I'm proud to tell you we cut our new enforcement 
        actions by 40 percent last year from the previous year--a major 
        success story;
        <bullet> Our restoration program continues to increase the use 
        of performance-based contract mechanisms as one tool to reduce 
        the cost and time to achieve remedy-in-place or response-
        complete (RIP/RC). As an example, one of our major commands, 
        Air Combat Command, has shaved 10 years and almost $40 million 
        off the restoration projections with a four-base regional 
        performance-based contract.

                   RECAPITALIZATION AND MODERNIZATION

    Our third priority is to modernize and recapitalize the Air Force. 
Air forces succeed when they anticipate and are allowed to shape the 
future strategic environment, and ultimately develop the capabilities 
required for the next fight. Air forces succeed when they are able 
organize, train, and equip themselves properly for both the current and 
future fights and purposefully build in the flexibility to operate 
across the spectrum of conflict and deliver effects at all levels of 
war -tactical, operational and strategic. Air forces succeed when they 
remain focused on their primary mission of providing asymmetric range 
and payload as an independent force that is part of an interdependent 
joint team. Our 2008 MILCON program is a direct reflection of our 
strong commitment to the success of our Air Force and is heavily 
weighted toward modernization and recapitalization support. The fiscal 
year 2008 Total Force MILCON program consists of 43 projects that are 
essential to modernization and recapitalization, totaling $544 million.
    The F-22A Raptor is the Air Force's primary air superiority fighter 
and key enabler, providing operational access, homeland defense, cruise 
missile defense and force protection for joint forces. Combat-capable 
Raptors are in full rate production on the world's only 5th generation 
production line. Elmendorf AFB, AK, will be the second operational 
Raptor base. We are constructing five Active-Duty and Reserve projects 
to beddown the world's premier fighter at a cost of $75 million. The F-
35A Lightning II Joint Strike Fighter (JSF) is our 5th generation 
multi-role strike fighter aircraft optimized for air-to-ground attack. 
The F-35A will recapitalize combat capabilities currently provided by 
the F-16 and A-10 and will complement the capabilities of the F-22A. 
Projects at Eglin AFB, FL, begin the beddown for joint F-35 training 
squadrons and combines Air Force and Navy funding totaling $74 million. 
Our legacy aircraft remain a vital part of our National defense. We are 
constructing much needed facilities for the Reserve F-16 Wing at Hill 
AFB, UT, and the active duty F-15 Wing at RAF Lakenheath, UK.
    We are also modernizing the weapons these 5th generation aircraft 
and legacy stalwarts will carry. The Small Diameter Bomb (SDB) enhances 
our payload and strike capability while increasing the standoff 
distance for our pilots. We are constructing munitions storage igloos 
at RAF Lakenheath, United Kingdom and Ramstein AB, Germany to provide 
this capability to the warfighter where storage capacity does not 
exist. Our Tactical Air Controllers are embedded with ground forces, 
directing Air Power, like the SDB, in support of ground operations. 
This year's MILCON program provides active duty and Guard Air Support 
Operations Squadrons the facilities they need on Army installations 
like Fort Carson, CO; Fort Riley, KS; Camp Beauregard, LA; and Fort 
Indiantown Gap, PA. These facilities support U.S. Army brigade 
transformation and provide the Air Force Tactical Air Controllers the 
training space required to support the critical Close Air Support 
mission.
    We are modernizing and recapitalizing our facilities in support of 
large-frame aircraft as well. The C-17 continues its outstanding 
support for humanitarian operations and the Joint warfighter. MILCON 
projects at Altus AFB, OK; Hickam AFB, HI; and Travis AFB, CA, nearly 
completes the beddown of our intertheater mobility workhorse. The C-5 
provides the strategic span in our air bridge and we are investing in 
six projects worth $50 million at Memphis, TN, and Martinsburg, WW. 
Hangar projects at Davis-Monthan AFB, AZ, and Cannon AFB, NM, increase 
maintenance capabilities for Combat Search and Rescue EC-130s and AC-
130s, respectively.
    Intelligence, Surveillance, and Reconnaissance (ISR), 
communications, and space systems play an ever-increasing role in what 
we do. The Distributed Common Ground System (DCGS) provides real-time, 
net-centric, decision-quality information to commanders. Projects that 
enable the DCGS operations will be constructed at Hickam AFB, HI; 
Hulman RAP Terre Haute, IN; and Otis ANGB, MA. MILSTAR is a joint 
service communications system that provides secure, jam-resistant, 
worldwide communications to meet essential wartime requirements for 
high priority military users. Investments at McGhee Tyson IAP, TN, 
support this vital communications beddown. The lethal combination of 
air and space assets the United States possesses gives us capabilities 
that are unmatched. The Air and Space Integration facility at Schiever, 
AFB, CO, enables us to continue this dominance and widen the gap on our 
adversaries. Finally, the Communications Frame facility at Bolling AFB 
will modernize this critical node for communications in the National 
Capital Region.
    Depot Maintenance Reengineering and Transformation remains 
essential to revitalizing depots using LEAN principles to increase 
aircraft availability by reducing depot cycle time, defects, and costs. 
This program has played a significant role in transforming our 
industrial base to support warfighter requirements more effectively. 
The 2008 program continues with four projects at Hill AFB, UT; Robins 
AFB, GA; and Tinker AFB, OK, totaling $66 million.
    The 2008 MILCON program has six other modernization infrastructure 
projects worth $178 million. These projects span the globe; from a 
Mobility Processing Center in Germany and storm damage repair in the 
Gulf of Mexico, to an infrastructure project on Guam that provides 
increased force protection for the entrance to Anderson AFB. These 
projects recapitalize our aging infrastructure and enable us to support 
our vision for a modernized force.

                      BASE REALIGNMENT AND CLOSURE

    As we continue supporting our three main priorities, implementing 
the Base Realignment and Closure (BRAC) recommendations is an important 
vehicle for the Air Force to ensure we are more lethal, agile, and 
capable of maintaining total dominance in air, space, and cyberspace 
domains. While the Commission's final decisions fell short of the Air 
Force's overall goals for BRAC, particularly in eliminating excess 
physical capacity, they did help the Air Force take a major step 
towards reshaping its Total Force structure. The Joint Cross Service 
Group recommendations which make up the vast majority of the fiscal 
year 2008 PB request are pivotal to transforming the way the Air Force 
and our sister services train and fight together.
    The Air Force developed and is implementing an aggressive schedule 
for its BRAC 2005 recommendations, and we are working in close 
partnership with our Joint partners and with the Air National Guard, 
the Air Force Reserve, and our major commands to further develop and 
refine this schedule.
    The Air Force is lead military service for 64 BRAC Business Plans, 
and has equity in an additional 16. Our fiscal year 2008 BRAC program 
is comprised of $910 million in MILCON, $223 million in 0&M, and the 
balance in the personnel and environmental accounts. Of the $910 
million in MILCON projects, $749 million is driven by Joint Cross 
Service Group recommendations. Joint interdependence adds complexity to 
the execution of this BRAC funding. Business Plans developed to assist 
in execution of BRAC actions have been coordinated and approved by OSD 
and also coordinated with other Service agencies. Coordinating, 
completing, and implementing these plans will ensure the Air Force is 
successful in effectively and efficiently implementing the BRAC 2005 
recommendations. We are confident the Air Force is heading in the right 
direction. We believe if we stay on course we can meet all expectations 
and objectives of the BRAC 2005 round, while minimizing disruptions to 
the mission, our warfighters, their families, and the communities that 
support our Air Force.
    Given the many external influences, and as good stewards of 
taxpayer dollars. we cannot look at BRAC implementation as an isolated 
activity. To be successful, we must orchestrate BRAC implementation 
activities in concert with new Air Force mission beddowns, legacy 
weapons systems and force drawdowns, emerging missions, Total Force 
Integration (TFI), and cross Service initiatives. An example of our 
attainment of this objective from BRAC 2005 recommendations is at Kulis 
Air National Guard Base, AK. The 2005 BRAC Commission recommended that, 
contingent on the availability of adequate MILCON funds to provide the 
necessary replacement facilities at Elmendorf AFB, Kulis ANGB be 
closed. After an in depth analysis of detailed concepts of operations 
and available infrastructure, the Air Force, the Air National Guard, 
Pacific Air Forces, and my staff, collectively concluded on Jan 30, 
2007, that operations at Kulis ANG Base could and would be relocated to 
Elmendorf.
    When this move is complete, the 176th Wing, Kulis ANGB and the 3rd 
wing, Elmendorf AFB will form one, in a growing number of, Air National 
Guard and active duty associate units in the Air Force. This 
association will facilitate a unique opportunity for the Air Force to 
merge all our Total Force elements--Air National Guard, Air Force 
Reserve and active-duty operations--across multiple mission areas, 
including airlift, Combat Search and Rescue, Airborne Warning and 
Control Systems and 5th generation fighters, all in one location and in 
a theater key to our global activities.
Joint Basing
    The concept of Joint Basing poses new BRAC implementation 
challenges and is also an example of transformational joint activity. 
Under this concept, adjoining Service installations or installations in 
close proximity would share common in installation, support and 
management activities. Of the 12 recommended joint bases, 10 of them 
involve Air Force installations, with the Air Force designated as the 
lead service for 6. A Senior Joint Base Working Group, led by the 
Deputy Under Secretary of Defense (Installations & Environment), 
developed guidance to implement the Joint Basing concept by October 1, 
2007. The Air Force continues to work with OSD to refine the 
implementation guidance.
    The Air Force believes that for the welfare of the warfighter and 
their families that Joint Basing must be a raging success. To that end, 
the Air Force stands ready to step into the lead role at each 
installation where the Air Force has equity.
Environmental Cleanup and Property Transfer
    As stewards of public assets the Air Force must manage them to 
achieve maximum value for the taxpayer while at the same time 
overseeing those assets with the utmost regard for environmental 
issues.
    Environmental clean up and transfer of BRAC real property is often 
technically challenging and has involved extended timeframes to 
complete. Nevertheless, the Air Force has deeded 82 percent of 87,000 
acres of BRAC property from previous BRAC rounds. Our real property 
disposal efforts have led to the creation of more than 54,000 reuse 
jobs in the affected communities. To complete the clean up and transfer 
of the remaining property, the Air Force is attempting to leverage 
private sector experience in redeveloping former industrial property 
similar to Air Force facilities. Our way ahead for legacy BRAC property 
includes an emphasis on performance-based contracting including 
guaranteed fixed price terms, regionalized contracts, and innovative 
tools such as early transfer, negotiated sales, and privatization. Our 
objectives remain clear: (1) provide reuse opportunities that best meet 
the needs of the Air Force and local communities, (2) move the process 
along smartly in each situation to get property back into commerce as 
soon as practical, and (3) provide transparency in the process.
    The Air Force takes its responsibility to protect human health and 
the environment seriously. Since 1991 we have spent $2.6 billion on 
environmental clean up at our BRAC installations--an investment that 
protects human health and the environment for our airmen, our 
communities, and future generations.
Way Ahead
    As you are well aware the House and Senate recently approved a 
Continuing Resolution Authority which approved $2.5 billion in BRAC 
funding for the Department of Defense, which is $3.1 billion less than 
requested for fiscal year 2007. If left unchanged, the reduction will 
result in the Air Force receiving far. less than expected in fiscal 
year 2007 funding. If not corrected, the Air Force, and our sister 
Services will have to re-evaluate our plans and will likely experience 
delays and disruptions in construction and the movements of our people 
and assets. Delays could impact mission readiness and the ability to 
meet mandated completion deadlines.
    Prompt action and restoration of full funding will permit the Air 
Force to stay on course in executing our obligation for timely 
completion of the BRAC recommendations approved by Congress.
    We solicit your support in advocating that action.

                          ENHANCED USE LEASING

    At remaining non-BRAC facilities, the Air Force is reshaping our 
infrastructure to meet the demands of the 21st century. The Air Force 
seeks fair market value and utilizes new tools such as Enhanced Use 
Leasing to optimize our resources and obtain value from our excess 
capacity--value we can return to the warfighter. Enhanced Use Leasing 
allows undeveloped and unused military facilities to be used by private 
industry, by leasing them to private entities. For example, an Enhanced 
Use Lease of a vacant 8.33-acre parcel on Kirtland AFB, NM, allows the 
New Mexico Institute of Mining and Technology to construct a 20,000 
square feet commercial office building lab research facility and 
secondary educational facility, which provides rent to the Air Force 
and will improve scientific and educational opportunities for Kirtland 
AFB, the Air Force Research Laboratory, New Mexico Tech and the public 
in general. The Air Force has six current and pending Enhanced Use 
Lease projects and twenty potential Enhanced Use Leases across the 
country.

       MAINTAINING OUR FACILITIES AND OPERATIONAL INFRASTRUCTURE

    The Air Force remains focused on sustaining, restoring, and 
modernizing our operational infrastructure. We have been benchmarking 
the ``best of the best'' asset managers that our country has to offer. 
We are finding and implementing ways to manage better, utilize 
resources more wisely, leverage private sector investment potential, 
and use smart information technology. Our aim is to manage assets by 
optimizing resources to deliver operational infrastructure for the 
warfighter at our installations and ranges. In 2008, we have focused 
sustainment funding on keeping our ``good facilities good'' and 
targeted limited Restoration and Modernization (R&M) funding to fix 
critical facility and infrastructure deficiencies to maintain 
readiness.
    Our sustainment program is aimed at maximizing the life of our 
facilities and infrastructure in order to preserve our existing 
investment. Without proper sustainment, our facilities and 
infrastructure wear out more rapidly. In addition, commanders in the 
field use operations and maintenance (O&M) accounts to address facility 
requirements that impact their mission capabilities.
    When facilities require restoration or modernization, we use a 
balanced program of O&M and MILCON funding to make them ``mission 
ready.'' Unfortunately, restoration and modernization requirements in 
past years exceeded available O&M funding, causing us to defer much-
needed work. It is important for us to steadily increase the investment 
in restoration and modernization in order to halt the growth of this 
backlog, while fully funding sustainment to maximize the life of our 
facilities and infrastructure.
    The Air Force Total Force sustainment funding in fiscal year 2008 
is $1.99 billion, 92 percent of the amount called for by the FSM. The 
fiscal year 2008 Total Force R&M funding is $346 million, a slight 
improvement over our fiscal year 2007 PB request. This is an area where 
the Air Force is taking manageable risk given our other budgetary 
priorities.

               DEMOLITION OF EXCESS, OBSOLETE FACILITIES

    In addition to modernizing and restoring worn out facilities, we 
also demolish excess and obsolete facilities. This ensures funds are 
focused on facilities we need, not on sustaining those we do not. For 
the past 9 years, the Air Force has aggressively demolished or disposed 
of facilities that were unneeded or no longer economically viable to 
maintain. From fiscal year 1998 through fiscal year 2006, we demolished 
21.9 million square feet of non-housing facilities and infrastructure 
at a cost of $260 million in O&M funding. This is equivalent to 
demolishing more than three average size Air Force installations and 
has allowed us to target our O&M funding on facilities we need for the 
long-term mission. For fiscal year 2008 and beyond, the Air Force will 
continue to aggressively identify opportunities to eliminate excess and 
obsolete facilities.

           PLANNING AND DESIGN/UNSPECIFIED MINOR CONSTRUCTION

    This year's Air Force MILCON request includes $75 million for 
planning and design, of which $12 million is for military family 
housing. The request includes $52 million for active duty, $8 million 
for the Air National Guard, and $4 million for the Air Force Reserve. 
These funds will allow us to complete the design work for fiscal year 
2009 construction programs and to start the designs for fiscal year 
2010 projects, allowing us to award contracts in the year of 
authorization and appropriation.
    This year's request also includes $26 million for the Total Force 
unspecified minor construction program which is our primary means for 
funding small, unforeseen projects that cannot wait for the normal 
MILCON process. Because these projects emerge over the course of the 
year, it is not possible to program the total funding requirement.

                         UTILITY PRIVATIZATION

    Similar to our efforts in privatizing housing, the Air Force is 
privatizing utilities where it makes economic sense and does not 
adversely affect readiness, security, or mission accomplishment. 
Because our installations are key to our operational capabilities, our 
network of bases provides necessary infrastructure for deploying, 
employing, and sustaining air and space operations and re-deploying and 
reconstituting the force afterwards. Reliable utility systems are 
critical infrastructure components and essential to air operations and 
quality of life at every Air Force base. Additionally, these systems 
must be consistent with modern technology to optimize energy 
conservation. We believe privatization offers the best solution for 
simultaneously meeting both these requirements.
    To date, under OSD's utilities privatization program, the Air Force 
has conveyed 11 systems under 10 U.S.C. 2688 and 6 additional systems 
using standard FAR clauses, for a total of 17 privatized systems with a 
plant replacement value in excess of $300 million. We are currently 
evaluating an additional 338 systems for privatization. We anticipate 
that we will more than double the number of our privatized utility 
systems in fiscal year 2008. By the time the program concludes, we 
anticipate more than 120 of about 500 systems could be privatized. 
During the course of this process, we expect many competitive 
solicitations will end up as sole source procurements from local 
utility companies.

                                 ENERGY

    The Air Force is serious about being a global leader in facility 
energy conservation and renewable energy. In the last year the Air 
Force chartered a Senior Focus Group and set its strategic vision of 
making energy a consideration in all we do. Our strategy is built 
around a balance of supply side energy assurance and demand side energy 
efficiency. Our new energy strategy for the 21st century is focused on 
meeting the President's new energy mandates outlined in Executive Order 
13423. Our strategy covers not only our facilities infrastructure, but 
also fuel optimization in our aviation operations and ground 
transportation fleet.
    The Air Force facilities infrastructure strategy is to eliminate 
waste in energy use as the major conservation priority. Conducting 
effective energy audits to identify energy waste streams is the first 
step. Optimizing the efficiency of heating and cooling systems, and 
eliminating overlighting are just two of the initiatives in our energy 
toolbox.
    Our traditional project goals of delivering high quality facility 
projects on schedule and within budget is expanding the term 
``quality'' so that our goal becomes the creation of functional, 
maintainable, and high performance facilities. Under Executive Order 
13423 the Air Force will employ the Federal Leadership in High 
Performance and Sustainable Building Guiding Principles to reduce total 
cost of ownership, improve energy efficiency and water conservation, to 
provide safe, healthy, and productivity enhancing environments. We 
currently employ Leadership in Energy and Environmental Design (LEED) 
criteria created by the U.S. Green Building Council as design 
guidelines. The LEED Green Building Rating System is the Nationally 
accepted benchmark for the design, construction, and operation of high 
performance green buildings. We are incorporating day-lighting and 
improved building envelop designs to reduce heating, ventilation, and 
air conditioning loads and power use. By fiscal year 2009, 100 percent 
of Air Force eligible MILCON projects will be ``capable of 
certification'' in LEED registration. High quality energy-efficient 
facilities is our goal.
    The Air Force is responding to the effectively doubling of the 
energy conservation mandate of Executive Oorder 13423 by strengthening 
management of our energy programs from base level Energy Management 
Steering Groups, and technically competent energy managers through 
major command and headquarters United States Air Force governance 
groups. Additionally, we are building an investment program based on 
high value initiatives that save energy and help the Air Force mitigate 
the impact of rising utility costs. We are hiring energy professionals 
to assist our major commands and installations target the right 
initiatives. We are also partnering with the Office of the Secretary of 
Defense, the Department of Energy, the Environmental Protection Agency 
(EPA), and others to implement best practices across our enterprise.
    In the area of renewable energy, this year we awarded a contract 
that will result in an 18 megawatt (MW) peak power photovoltaic (PV) 
solar array at Nellis AFB, NV--projected to be the largest PV array in 
the world once on line in late 2008. The Air Force is building on a 
long history of facility energy conservation success. Our new energy 
initiatives will enhance our campaign to meet or exceed the goals of 
the new executive order.
    Our efforts were recognized in fiscal year 2006 when we received 
the EPA Climate Protection Award as the number one purchaser of 
renewable energy in the Nation. The Air Force continues to be the 
largest user of renewable energy as defined by the Energy Policy Act of 
2005 with the purchase of 990,319 MW of green power representing 9.6 
percent of our total electrical consumption last year. Also, for the 
third year in a row, the Air Force heads the EPA's list of Top 10 
Federal Government green power purchasers in the Green Power 
Partnership.

                     CIVIL ENGINEER TRANSFORMATION

    The Air Force Civil Engineers have a long history of supporting all 
the critical Air Force programs mentioned earlier. The engineers are 
also benchmarking with the private sector and aggressively transforming 
their business processes to be more effective and efficient. The Air 
Force civil engineers developed several initiatives to minimize the 
impact of Air Force-wide personnel reductions on their ability to 
provide combat capability and home-station installation support. Rather 
than settle for a fair share distribution across specialties and major 
commands, these transformational initiatives targeted specific process 
improvements which resulted in realignments for military and civilian 
authorizations to balance workload and increase combat capability. The 
civil engineers are transforming civil engineer functions at all 
organizational levels to centralize the core engineering capabilities 
and streamline their processes. This includes centralizing the 
execution of new and current mission MILCON, housing, and environmental 
restoration construction projects at the Air Force Center for 
Environmental Excellence in San Antonio, TX. The civil engineers also 
applied operational risk management concepts to the way we accomplish 
the fire emergency services support mission. By accepting capability-
based risks, civil engineers can provide the same level of fire and 
crash rescue service for the airfield and installation, while reducing 
the numbers of firefighters required on duty during times when events 
are less likely to occur. The transformational initiatives mentioned 
above will allow us to execute our civil engineer mission more 
effectively and increase our combat capability for Explosive Ordnance 
Disposal and Air Force heavy construction units, known as Red Horse 
Squadrons. As a whole, these initiatives ensure civil engineer support 
to the warfighter remains steadfast and our garrison installation 
support remains at an acceptable level.

                               CONCLUSION

    September 18, 2007, marks the 60th anniversary of the creation of 
our independent United States Air Force. This year we commemorate this 
anniversary of our proud Service--a Service born of revolutionary 
ideas, forged in combat, and proven through decades of progress and 
achievement. The readiness and capability of our fighting force to 
fight and win our Nation's wars, now and in the future, depends heavily 
upon the state of our operational infrastructure. As the Air Force 
continues to modernize and recapitalize, we will continue to wisely 
invest our precious MILCON, BRAC, and environmental funding to fight 
and win the war on terror, develop and care for our airmen and their 
families, while recapitalizing and modernizing our air and space 
systems.
    Thank you Mr. Chairman.

    Senator Akaka. Thank you very much for your testimony.
    Secretary Eastin, last week the Army briefed the committee 
staff on your proposal on how to use your ``Grow the Force'' 
funds in fiscal year 2008. This involved investments at most 
major Active-Duty Army installations with maneuver units. A 
notable exception was Hawaii. When the staff asked the reason 
for this, they were told that the Army was going to be cautious 
about making any further investment in Hawaii until the Stryker 
lawsuit was resolved.
    We understand that the flaw the court found in the Stryker 
Environmental Impact Statement (EIS) was not unique to Hawaii, 
though this is where the challenge came from. Therefore, it 
seems unfair to me that Hawaii would now be treated differently 
from other States based on a case involving Federal and not 
State law. My question is, is Hawaii going to get equal 
consideration with other States in terms of basing new brigades 
or other units, or is it going to be penalized due to this 
lawsuit?
    Mr. Eastin. We have no intention of penalizing Hawaii or, 
for that matter, any other installations where we have 
substantial operations. As was pointed out in the Stryker 
litigation, there was a failure to perform a programmatic EIS 
on where else these Strykers could have been based--Fort 
Carson, Fort Lewis, or some other installations.
    So we went back and are in the process of redoing that. We 
expect that the EIS will be out probably late September. We 
cannot at this time commit to you where any of the ``Grow the 
Force'' assets in terms of brigade combat teams (BCTs) will be 
located because we are in the process of doing another 
programmatic EIS for stationing those additional six brigades.
    So it would be totally premature to tell you that we are 
going to put a brigade in Hawaii or not put one there. We do 
not know whether we are going to put one at Fort Bliss or Fort 
Bragg or Fort Benning or any of the other installations either. 
It is just premature and we have to await the EIS and its 
record of decision, which we also expect will probably be 
released in the October-November timeframe.
    Senator Akaka. Mr. Grone, based on actions of the courts in 
the Hawaii Stryker brigade case and the North Carolina outlying 
field case, is the Department getting a better understanding 
that making sure EISs are done right the first time ultimately 
saves time and trouble down the road?
    Mr. Grone. Mr. Chairman, I do not want to comment on the 
specifics of any particular litigation. But suffice it to say I 
think it is imperative that we ensure that we execute the 
administrative procedures required under the National 
Environmental Policy Act (NEPA), clearly and crisply. There is 
always an avenue potentially for disagreement. There is always 
an avenue potentially for litigation. But my view on this is 
that we should be very, very clear and very crisp in terms of 
how we implement studies and how we administer that process, 
because occasionally, it does create circumstances to which you 
have alluded, which in some cases are avoidable.
    Senator Akaka. Mr. Grone, what is the DOD's legal 
interpretation of the impact of section 1906 of H.R. 1591, as 
passed by the House of Representatives on March 23, on the 
Department's ability to construct new medical facilities at 
Fort Belvoir, VA, and Bethesda Naval Medical Center, MD, 
pursuant to the 2005 BRAC recommendations?
    Mr. Grone. Mr. Chairman, the Office of General Counsel has 
not issued a legal interpretation, but suffice it to say that 
DOD and the administration oppose any attempt to prohibit or 
otherwise redirect actions of the BRAC Commission which have 
been duly enacted and which we have an obligation to implement.
    The realignment of Walter Reed and the effort we have under 
way at Fort Belvoir, both of which you referred to, are 
critically important to the delivery of medical care in this 
region, and it is also critically important to the 
implementation of the round overall. So certainly we oppose any 
attempt to undo any of that.
    Senator Akaka. Secretary Anderson and Secretary Eastin, the 
Army wants to expand its force structure and the Air Force has 
underutilized infrastructure at Cannon Air Force Base (AFB) in 
New Mexico. The Air Force plans to put some Air Force Special 
Operations Forces there. My question is, in cases like this, 
are the Services going to look for joint basing opportunities 
that may exist or are we only going to see joint basing take 
place when it is forced upon you, as in the last BRAC?
    Mr. Anderson. Senator, as you pointed out, let me give just 
a little bit of background for the committee on the status of 
Cannon AFB. As you all are probably well aware, Cannon AFB was 
in the 2005 BRAC recommendations to be closed unless the 
Secretary of Defense determined an alternative mission for 
Cannon AFB. About June timeframe of last year, working with the 
Office of the Secretary of Defense (OSD), the Air Force 
determined that the Air Force Special Operations Command 
(SOCOM) had an alternate mission which very nicely fit into the 
footprint of Cannon AFB. That decision was approved by the 
Secretary of Defense.
    During that time period and subsequent to that, SOCOM has 
been determining whether there are alternatives or additional 
uses for Cannon AFB which are consistent with the Air Force 
SOCOM activities that are moving there, and the command will 
stand up in October of this year.
    I do not want to necessarily comment for SOCOM. I do not 
think it is appropriate for me to speak in their place. But I 
do know that there are active discussions going on as to 
additional activities that could work within the footprint and 
the mission that has been assigned for Cannon AFB, and we are 
certainly open to that. It does not require any legislative 
action at all. We are open to that. If it meets the needs of 
the military and it fits within the footprint, we are more than 
happy to talk about those opportunities.
    Senator Akaka. Secretary Eastin, any comment?
    Mr. Eastin. A little bit out of my lane, since my role is 
mainly having to do with installations. But I agree with 
Secretary Anderson. If it makes some sense to put some of our 
Special Forces out at Cannon AFB we do not have a problem doing 
that, at least in theory. The devil is always in the details on 
these things. But if we have available training land somewhere 
within the military, I think we ought to take our best 
advantage of that.
    Senator Akaka. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    We have a supplemental pending before Congress. We have 
passed that in the Senate and waiting for the House and the 
Senate to get together and have action on that. Have each one 
of you studied what the impacts would be on delaying the 
implementation of the supplemental and how that would impact 
readiness, installations, MILCON, the various other aspects of 
our military operation?
    Mr. Grone. Yes, sir. Certainly the Secretary of Defense and 
the Deputy Secretary of Defense and others, including most 
recently the Service Chiefs by letter, have spoken to the 
question of delay of the supplemental itself. It certainly 
would represent a fairly significant and very difficult harm to 
the mission. We certainly urge Congress to expedite 
consideration of the supplemental so that we can get funds to 
operating forces as quickly as we can.
    Senator Ensign. When is the date that you are going to 
start seeing effects, the drop-dead date that we absolutely 
will start doing harm to our military?
    Mr. Grone. Sir, my colleague, the Under Secretary of 
Defense, Comptroller, keeps very careful tabs on that and, 
frankly, I would not want to misspeak or misrepresent a date. 
So I would like to get that back to you for the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Grone. As I say, certainly from my perspective, the 
supplemental also carries implications for the implementation 
of the pending round of BRAC. Because this round is so heavily 
weighted toward MILCON, because the time lines for 
implementation are challenging, every bit of delay that we have 
eats into the 70 months of implementation time that we have. 
Although it is quite clear that members understand the 
importance of funding itself, and we are very grateful for 
that, but the issue of delay has effect on having forces ready 
as we get ready to move missions, as you in your opening 
statement indicated, Senator, was such a strong concern of 
yours.
    We desire to have all of our installations have adequate 
facilities at the point at which the new mission arrives, when 
personnel arrive, the mission arrives.
    Senator Ensign. How does the delay affect cost? Does it 
increase costs, does it save money if you delay it, or does it 
have no effect?
    Mr. Grone. I think inevitably if you get into a 
circumstance where if the extraordinary were to happen and the 
$3 billion was not forthcoming, that requirement would roll 
into fiscal year 2008 and beyond. Given that the program is so 
heavily weighted toward MILCON, it is inevitable that we would 
see increased costs.
    Senator Ensign. I am just talking about a delay. Let's just 
say the $3 billion is in there and we have a delay. We have 
certainly, at least anecdotally, been told that does increase 
the cost. If you cannot sign the contracts on time, with 
construction costs going up, I know certainly in my home town 
each month that you delay the cost of concrete, the cost of 
steel, the cost of all materials, continues to go up almost on 
a monthly basis.
    Mr. Grone. Yes, sir. We are very much concerned about that.
    Senator Ensign. Would each one of the secretaries like to 
comment on the supplemental?
    Mr. Eastin. Senator, we have a little north of $2 billion 
hanging up in the supplemental in the BRAC area alone. What 
this is going to cause us to do is basically we can with the 
money we have, award only 36 out of 75 MILCON contracts. The 
rest will have to be deferred until the supplemental money 
comes to us, assuming it does.
    As I think everybody knows, we are working against a 
September 15, 2011, deadline to get BRAC put together. All of 
these projects are interdependent. If you design something this 
year, you expect to begin constructing it next year, and you 
expect to begin constructing it at the cost that you would 
expect it to have put in when you had it designed.
    Sticking this out another 8, 10, 12 months even, not only 
puts your deadline in jeopardy, but it increases your costs and 
fouls up other schedules that we have interrelated in the BRAC 
operation.
    Senator Ensign. I know all of you so far have been 
concerned about just the BRAC aspect of it. But last year when 
the supplemental was delayed we received feedback--this was one 
of the things we hopefully learned from the mistake that was 
made last year by delaying the supplemental--that readiness was 
actually hurt, that training was hurt, that folks had to be 
laid off that were involved in training, that readiness of our 
troops was actually affected.
    Mr. Eastin. Let me add another aspect to it, at least as 
far as the Army is concerned. We went painfully, and more so 
embarrassingly, through this type of operation last year. 
Rightly or wrongly, installations and base operating support 
(BOS), and sustainment, restoration, and modernization (SRM) 
happen to be a handy place that can be borrowed from while you 
are trying to operate the rest of the Army and run a war. So if 
we get pressed down to the wire and do not have enough money to 
pay our troops and conduct our operations in Afghanistan and 
Iraq, they look elsewhere within the Army to get the money. 
Here we are in the installation community with grass that could 
be cut later, roofs that could be repaired later, dining 
facility lines that we could stretch out another half an hour, 
gates that could be closed because we are only going to run 
them until 11 o'clock at night instead of having an extra shift 
at there.
    What that leads to is layoffs. It leads to not paying the 
light bill at Fort Sam Houston, as we did last year because we 
had a better priority and we were pretty sure the city was not 
going to turn us off. Luckily, we were right. I am not sure 
they are going to be so patient this year when we come back.
    But it hits us in the installation community in a way that 
perhaps people do not realize, because we are the low man on 
the totem pole in terms of priorities when the chips are down 
and we have to support our troops.
    Senator Ensign. Any of the other secretaries want to 
comment?
    Mr. Penn. I agree, the delay will impact our schedule. It 
will definitely do that. The Navy has already started working 
the requests for proposals to 1391, so as soon as some money 
hits we will be able to spend it. A delay will create a domino 
effect across many interrelated moves. As you said, it will 
affect costs.
    But I am more worried about the impact it will have on our 
military and civilian communities. That is something we cannot 
measure.
    Senator Ensign. Secretary Anderson?
    Mr. Anderson. I have to agree with everything that I have 
heard coming down the table here. Quality of life is always an 
issue. Pushing stuff off as the year progresses, as we have 
done analysis, not only are you facing inflation, which is very 
real in many communities, Senator, as you rightfully pointed 
out, but as we have done our analysis prices actually creep up 
just as you move through the year, inflation-adjusted. As you 
come to the end and you rush, that drives price up.
    As far as the Air Force is concerned, I do not think we 
have a hard broke date for our non-BRAC activities. Our people 
are working very hard, as Secretary Penn had suggested, in 
posturing everything ready to go the moment the money comes. 
There are some work-arounds going on, as is obvious.
    On the BRAC side we do know, though, because we have 
detailed project plans for every single one of the BRAC actions 
and they are domino effect one over another. We have of course 
the September 2011 deadline. We estimate that if we do not get 
the second tranche of money by, say, July, we will begin to be 
hard broke on some of these projects, that they will either 
begin to significantly affect mission or we will have to tell 
you that we cannot make the 2011 deadline because of the pieces 
that have to come into play to make that happen.
    Senator Ensign. Thank you.
    Thank you, Mr. Chairman.
    Senator Akaka. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    That is the main reason I came to this meeting. I can 
remember so well last year when General Cody came around and he 
was really, really desperate. We were not talking about little 
things we could put off. They always talk about what used to be 
called the Real Property Maintenance (RPM) accounts. RPM 
accounts are now called SRM, where you do not put the roofs on 
and those kids, every time there is a storm, they are out there 
protecting their equipment.
    Those things can happen. But what happens when you get to 
the point where we are looking at reenlistment bonuses, we are 
looking at widow's benefits? That is where I would like to get 
as specific as possible.
    Secretary Grone, I was hoping we would get a more specific 
answer right now, because I want to stop that trauma before it 
gets here. If we do not exaggerate, if we do not talk about 
that now, we are not going to be able to get anything done. 
People in the United States Senate and the United States House 
of Representatives have to know the dire consequences of 
inaction, and I do not think they are getting it.
    I really want you to come forth, because if we are faced 
with the same thing we were last year then you guys have not 
really done a good enough job of letting us know the crisis is 
coming. I know it is not so much you, but it is more the Army, 
I think, Secretary Eastin, than anyplace else.
    So anyway, I have already beat that one up. The other 
thing, too, I would have to say, Mr. Chairman: These 
communities that are around military installations, they make 
commitments having to do with the BRAC policies. When they come 
out with this they say: All right, we will take care of 
housing, we will do this, some of the things, some of the 
health care for the troops and their kids. Quite frankly, that 
is predicated on the timely release of these funds to get the 
things done in conjunction with BRAC. So I am very much 
concerned about that.
    Last week I was at Vicenza, Italy, where they have the 
Southern European Task Force and they are working on the 
European Airborne BCT there. They are doing a great job with 
the resources they have, limited resources. But I am a little 
bit concerned about what is going to happen there as we look at 
the restructuring of our European forces.
    Now, some time ago I went to Bulgaria, Romania, the 
Ukraine, and places in Eastern Europe where they have resources 
available for us where they would actually billet our people. 
They do not have the environmental encroachment that Senator 
Ensign talked about. I think that is very serious. In Western 
Europe right now, we know there are times when they cannot use 
live ranges more than so many days a week and so many hours a 
day. We do not have that problem in some of the other places.
    So I guess I just ask you to comment on what you envision 
the final shape of our forces in Europe and what sufficient 
training grounds will be available to them as they transform 
into the BCTs? That is addressed to Secretary Eastin or 
Secretary Grone.
    Mr. Grone. Senator Inhofe, I very much appreciate the 
question. As we move forward with the implementation of the 
GDPR, we remain of the view that issues like the transition, 
the transformation of the 173rd at Dal Molin, Vicenza, remain 
very critical to our overall strategy. The notion of the use of 
other locations that you have suggested for training and other 
purposes are all critically important to us and we believe that 
they can continue to be executed in exactly the way we have 
laid it out for you previously.
    Senator Inhofe. I watched Vicenza. That is where they have 
the 173rd. Remember when they would not let us go through 
Turkey to go to Northern Iraq. Those guys were up and gone. We 
came back, we enhanced their deployment area. In fact, if it 
had been raining at that time they would have had a hard time 
in their staging area getting that thing done. So I think that 
is important.
    The concept of joint basing emerged out of the BRAC 2005 as 
a tremendous cost-saving measure. However, the Services seem to 
be progressing rather slowly on that. Secretary Anderson, I 
understand the Air Force has some concerns about that. Do you 
have any comments to make about that?
    Mr. Anderson. Yes, sir, Senator. First of all, let me state 
that the baseline concept and purpose behind joint basing, that 
is to save money, to be more efficient, we could not be more 
behind that one at all. We think that is exactly the right way 
to go. Consolidating contracts, consolidating work effort, what 
have you, is going to save the American taxpayer money.
    The question is not the ``what,'' because I think we are 
all in total agreement on the what. The question is ``how.'' 
Our concern is on two levels. The first is we want to make sure 
that as we move into this joint basing construct that quality 
of life is paramount in this process. The Air Force is very 
proud of its installations. It is very proud of the way it does 
quality of life for its airmen, and it is based in large part 
on the retention profile of the Air Force.
    We want to make sure that as we move forward in joint 
basing that the DOD, the military, uses this as an opportunity 
to improve quality of life across the board, not to go to some 
mediocre level of quality, but to improve it for everyone, 
every soldier, sailor, airman, marine, and, most importantly, 
their families.
    The ``how'' from our perspective is, we look at this as an 
opportunity to use market pressures, where you have a provider 
of service who provides a service for a fee, the customer who 
wants the service defines what the service ought to be, goes 
out and gets the budget to pay for that service, and then pays 
for it when it is appropriately delivered.
    So the tension between the customer and the supplier, just 
like everybody deals with every day when you get your lawn 
mowed or you get your air conditioning fixed, we believe is the 
right way to go after joint basing, therefore leaving the real 
property and the budget, the dollars, with the customer and 
have a service provider provide that service at a mutually 
agreeable price, where that tension continues all the time.
    Senator Inhofe. I think you've covered that. I wanted to 
ask you one more question. We talked about the synthetic fuels, 
the coal-to-liquid. I was participating in the decision to try 
that out in the B-52. Are they using that in more than two 
engines at this time?
    Mr. Anderson. Yes, sir. First of all, I really do want to 
thank you for your leadership last year. If it would not have 
been for your pushing this, we would not have had the 100,000 
gallons of synfuel that we needed to complete the test.
    Senator Inhofe. I think it is really critical. We never 
dreamed 10 years ago that we would have the needs that we would 
for fuel. Yet the other committee that I am on, Environment and 
Public Works Committee, they are opposed to the coal-to-liquid 
concept.
    I would just like to have you, for the record, not now, 
give me some of the strongest points that you can give me in 
favor of the particular program. Would you do that?
    Mr. Anderson. Yes, sir, I will do that.
    [The information referred to follows:]

    The benefits of the Air Force synthetic fuel program are numerous 
both from environmental as well as security and economics. The Air 
Force is currently testing and certifying the fleet to use a blend of 
synthetic fuel and JP-8. If successful, the entire Air Force fleet will 
be certified by 2010. It also is the goal of the Air Force to acquire 
50 percent of its domestic fuel requirements from domestic alternative 
fuel sources by 2016. The goal is focused on acquiring a synthetic fuel 
blend produced by domestic plants that have carbon capture and 
sequestration (CCS).
    The Air Force recognizes that the production of synthetic fuel from 
coal using the Fischer Tropsche (FT) process can produce 1.8 times as 
much CO2 as a conventional oil refinery. This fact makes it imperative 
that the production of synthetic fuel be done in an environmentally-
friendly manner. In this respect, the Air Force will expect any 
domestic producer of synthetic fuel to use CCS technology and 
procedures.
    It should be noted that one major difference concerning the FT 
process versus an oil refinery is that the CO2 is concentrated and more 
easily captured. An oil refinery is unable to capture the CO2 it 
produces. The concentrated stream of CO2 captured in the FT plant is 
compressed and can be sold, or sequestered in old or tired oil fields 
for enhanced oil recovery which has been shown to increase oil 
production by 300-800 percent, or it can be injected into saline 
aquifers or limestone for permanent storage. This technology is being 
studied by the Department of Energy and Environmental Protection Agency 
and it has been shown the United States has over 3,900 gigatons of CO2 
storage capacity (11,000 GtCO2 worldwide).
    In addition to capturing and sequestering the CO2, the Air Force 
and Department of Energy are looking at adding biomass to the coal 
feedstock to further reduce the CO2 emissions. Biomass is considered 
CO2 neutral because it captures CO2 during its life. Current testing is 
focused on introducing 20-30 percent biomass to the feedstock (coal).
    The FT process has the ability to extract the mercury, ammonia 
nitrate, sulfur, and other chemical properties in coal that can be used 
for other products, i.e. fertilizer and munitions. This serves to 
produce a synthetic fuel that is free of SOx and has very little 
particulate matter. If the FT process is tuned to make clean diesel, 
the fuel has shown decreased levels of NOx.
    The testing performed on the TF-33 engines on the B-52 has shown 
that CO2 is reduced 1.6-2.0 percent from the exhaust (after being 
burned). While not substantial it is a reduction that is beyond that of 
oil-based fuels.
    The implementation of new ultra-low sulfur diesel fuel standards in 
the United States has the potential of making FT coal to liquids a 
substantial source of ``clean diesel'' in the near future.
    Thank you for the opportunity to provide this expanded, written 
response to your question. I have attached a copy of the Air Force's 
schedule for testing and certifying the entire fleet. I thought you 
would find it of interest based on your strong support of this program.
    If you should have any additional questions concerning the Air 
Force's work with synthetic fuels, please feel free to contact me at 
anytime.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Secretary Grone, it is really a challenge you are facing. 
We have the redeployment from Europe. Our goal is to bring 
about 70,000 back from Europe. You have the South Korean move, 
10,000, 12,000, 15,000 from South Korea. We are moving from 
Okinawa to Guam, I know. Then the end strength increases that 
have been projected for the military, and the whole BRAC 
transformation at the same time.
    I guess my question to you is, are we possibly on course to 
do that? Do we really have the money in the budget and the 
supplemental to get there? If not, how much more do we need? 
Because I think these are all good decisions. I support the 
BRAC. I really support the European reduction. There is no 
reason for us not to do that. Senator Chambliss, Senator Enzi, 
and I visited Ramstein, Brussels, Vicenza, Rota, Sigonella, and 
Naples a couple of years ago. Those, I believe, will be 
surviving bases.
    But all of this was to discuss the realignment in Europe. 
Are we on track? Can we do it with what you have been given?
    Mr. Grone. Senator Sessions, certainly from the perspective 
of finances we continue to be on track. The budget request 
contains a number of initiatives, to include facilities for the 
173rd at Vicenza. It includes funding to continue the return of 
forces from Germany to the United States through the BRAC 
process.
    Each of these major initiatives that you have mentioned has 
a funding stream almost solely dedicated to themselves. One of 
the things that we will do for you is to demonstrate how those 
funding streams are related to the initiative, so you can see 
where they are in the budget and how they are financed, because 
it is an enormously complicated, complex process, as you 
described, where we have issues associated and financing 
associated with ``Grow the Force,'' BRAC, the regular MILCON 
program, global defense posture. All of those initiatives are 
out there. All of them are present to one degree or another in 
the various funding proposals that are currently pending before 
Congress.
    I do believe that we are generally on track with what we 
desire as a Department to accomplish. Timely receipt of those 
funds, of course, is a major factor in that equation, as well 
as receiving the funds that we've requested for those purposes 
is a major part of that equation.
    So certainly we look forward to working with you. But yes, 
I do believe that we are well-positioned from a budget and 
program perspective to accomplish a good deal of what we have 
laid out for you.
    Senator Sessions. Mr. Chairman, I am not sure. I believe it 
was Secretary Rumsfeld or senior DOD leaders that talked about 
the advantages of consolidation of bases. One of them is, 
someone expressed a goal that the average soldier could expect 
in his deployments to stay at a given base for as long as 7 
years. The bigger the base is, the more chance you have to be 
promoted and not have to be moved, and that sort of thing.
    Maybe, Secretary Eastin, you would comment on the quality 
of life for soldiers. Is there any hope or plan that we might 
be able to create stronger bases, larger bases, so that it 
would reduce perhaps the number of moves a family might expect 
in a person's career?
    Mr. Eastin. I cannot say that it is going to reduce them 
substantially. But what we have right now is a continual in-
and-out of troops going through, going to the front, with the 
pressures on their families that they have.
    Senator Sessions. But those families get to stay at the 
facility and you would expect the soldier to return to that 
facility.
    Mr. Eastin. Yes, I would.
    Senator Sessions. If you come up for promotion or some 
other cause, and you are moved from one base to another, would 
it reduce the number of moves for that reason?
    Mr. Eastin. I would once again not want to step out of my 
lane and affect what other senior Army leaders might want to do 
about moving people around. The tendency, of course, is to 
maintain as much flexibility as you have. If you need a major 
someplace and you do not need one where he happens to be, the 
Army has a criticality of needing to move him or her to the 
other place.
    Of course, the larger the operation, the larger the 
installation you have, the more opportunities there are going 
to be on that particular place. But it might be just 
coincidental that where that major would be needed would be on, 
say, Fort Bragg when they had been living at Fort Bragg.
    What we are trying to do is to keep them in the Army, and 
you keep them in the Army by providing them a quality of life 
that is roughly equivalent to what they might get in the 
private sector, especially the quality of life for their 
families. While they are deployed, they want to know that their 
families are safe, and well-provided for, back in the States. 
So that is our goal here in the Army installation community.
    Senator Sessions. I could not agree with you more. We are 
asking incredible things of our men and women in uniform and 
they are being deployed far more regularly in harm's way than 
we would like that to be. They have performed exceedingly well, 
and reenlistment has remained high. I do not know in the last 
couple of months, but last year it was remarkably high in light 
of the demands we are placing on them.
    So I am concerned that we not go too far and that we have 
to think about the quality of lives, the men and women who 
serve. That means better housing. It means I think where 
possible longer stays at posts. Wives often have jobs. Kids are 
in school.
    I do not know if any of the others would like to share 
thoughts with that. But I assume those are factors that are 
involved in any of your decisions about BRAC or redeployment.
    Mr. Penn. That is correct.
    Senator Sessions. When we look at the challenges that we 
face, I believe that we need to complete the move from Europe. 
In fact, I have doubts whether we should keep as many troops in 
Europe as we presently are planning to keep. I believe we 
should move forward with the South Korean redeployment, pulling 
those numbers down from well in the 30,000s now. For over 50 
years we have been there. South Korea is a healthy, strong, 
vibrant, free country that all of us can be so proud of, and I 
think they are willing to accept more responsibility.
    I absolutely do not believe, Mr. Chairman, that anybody 
should see the reductions that we are planning to undertake in 
South Korea as any sort of lack of commitment to South Korea 
and its independence, its willingness to help them resist any 
attack from the North that could come. I think, in fact, we 
will be better positioned and better able to do that.
    So we have a lot of movement going on. You have been really 
challenged. General Schoomaker in his last testimony talked 
about these delays in getting the supplemental done, the 
raiding of accounts and budgets that come as a result of it, 
coming from your accounts often times. He said it was like 
wading through a bog waste-deep, trying to do your job, fight a 
war, deploy and redeploy all these people, and then never know 
whether you have the money to do so.
    We need to do better. It does cost us in any number of 
ways, I think, when we are unpredictable in Congress in meeting 
the commitments that we have given you and that we have 
approved and we have said we want you to do. So I believe we 
can do better.
    Mr. Chairman, thank you so much.
    Senator Akaka. Thank you very much, Senator Sessions.
    I want to thank the witnesses today. As was mentioned by 
Senator Sessions, we have huge challenges ahead of us. We look 
forward to the 21st century and all of these movements are 
parts of that. I just wanted you to know that our feeling here 
is that we want to work together with you in trying to do the 
best we can for our troops, and especially for our country. We 
are doing this together and I look forward to continuing to do 
that.
    So again, thank you so much for your responses. This 
hearing is adjourned.
    [Prepared questions submitted to Hon. Philip Grone prior to 
the hearing with answers supplied follow:]

                        Questions and Responses

             POLICY ON MILITARY CONSTRUCTION ON LEASED LAND

    Question. What is the Department of Defense's (DOD) policy on the 
use of military construction (MILCON) funds to construct facilities on 
land that is leased from a non-Federal entity?
    Answer. 10 U.S.C. 2852 and 10 U.S.C. 18239 (for Reserve components) 
provide for the waiver of certain restrictions, one of which is 
ownership in fee simple of the underlying land to accommodate a MILCON 
project. A MILCON or family housing project may proceed if the 
Secretary concerned determines that the interest to be acquired (lease, 
easement, et cetera) is sufficient to support the project.
    The Department prefers to own the land upon which MILCON funds are 
used to construct facilities. If the land is not held by the 
government, the Department should have sufficient real property 
interests in order to protect the Federal Government's interests and 
investment.
    Question. If no policy exists, what guidance is provided to the 
military departments and defense agencies regarding the use of MILCON 
on leased land?
    Answer. Guidance to the components is provided in DODI 4165.71, 
Real Property Acquisition.
    Question. Does the DOD currently lease land on which MILCON funds 
have been used to construct facilities?
    Answer. Yes, the Air Force (Active, Reserve, and Air National 
Guard) has several long-term leases at airports where MILCON funds have 
been used. Section 801 housing is also on leased land. DODI 4165.71, 
Real Property Acquisition, states that if the Government's requirement 
cannot be reasonably met by fee simple acquisition than a lesser 
interest may be acquired. The lease must be for a government purpose.
    Question. If so, what are the general terms of the leases and 
specifically the status of the ownership of improvements upon the land 
upon termination of the ground lease?
    Answer. DODI 4165.71 states that if DOD plans to construct 
facilities, then the lease must address the disposition of the 
facilities at the end of the lease.
     assessing the 2005 defense base realignment and closure round
    Question. How would you assess the success of the 2005 Defense Base 
Realignment and Closure (BRAC) round?
    Answer. I would assess the success of the 2005 round in terms of 
meeting a series of key strategic objectives. Among the objectives the 
Department established were:

        <bullet> Supporting force transformation through global 
        repositioning, modularity, and Total Force management (IGPBS 
        and Modularity).
        <bullet> Rebasing forces and missions to address strategic 
        threats and force protection considerations.
        <bullet> Consolidating business-oriented support functions.
        <bullet> Promoting joint and multi-Service missions and basing.
        <bullet> Achieving savings.

    The BRAC 2005 process strengthened national security by reshaping 
the domestic installations at which U.S. military forces perform their 
assigned missions and aligns the Department's base structure with the 
force structure that is expected to be needed over the next 20 years. 
Additionally, the recommendations accommodate the Department's global 
reposturing of its forces; facilitate the ongoing transformation of 
U.S. forces to meet the challenges and opportunities of the 21st 
century; and restructure important support functions to capitalize on 
advances in technology and business practices.
    Question. Are all BRAC 2005 business plans fully funded through 
2011 in the President's budget request for fiscal year 2008? If not, 
what is the current funding shortfall by Service?
    Answer. Yes--the business plans are fully funded through 2011.
     status of forces agreement for overseas military construction
    Question. What is the current DOD policy on MILCON in foreign 
countries that have not entered into a Status of Forces Agreement 
(SOFA) with the United States? In absence of a SOFA, what other types 
of agreements are required?
    Answer. SOFAs concern themselves primarily with privileges and 
immunities for DOD personnel (i.e.. entry/exit, jurisdiction, 
taxation). They do not normally address access to facilities and 
construction, et cetera.
    For a project to qualify as MILCON, it must be on a military 
installation. In the case of an activity in a foreign country, that 
means property ``under the operational control of the secretary of a 
military department or the Secretary of Defense, without regard to the 
duration of operational control.'' Whatever the nature of the agreement 
with a foreign country, the Department ensures it has ``operational 
control'' before undertaking MILCON.

                         GLOBAL DEFENSE POSTURE

    Question. What is the status of the implementation of the 
Integrated Global Presence and Basing Strategy, now known as the Global 
Defense Posture (GDP) Realignment?
    Answer. During the past year, DOD has made important strides in 
transforming its GDP and associated infrastructure needs. The objective 
is to realign and reshape the structure of installations abroad to 
better support individual services and joint warfighting needs while 
making the best use of limited defense resources. Funding for the GDP 
program for fiscal years 2008-2011 is $3.7 billion; of which $1.7 
billion is funded through the BRAC 2005 account. The Department 
continues to review its requirements on a global scale and lo implement 
the plan.

USE OF SERVICE CONTRACTS FOR FACILITY LEASING AND MILITARY CONSTRUCTION 
                               ACTIVITIES

    Question. What is the current DOD policy on the use of service 
contracts to enter into contracts for the lease of facility space or to 
construct or improve facilities?
    Answer. Our policy is simple and straight forward. We do not 
condone the use of services contracts to procure office space or to 
construct or improve facilities.

                  STANDARDS FOR DOD MEDICAL FACILITIES

    Question. Does the Department have a standard or guidance regarding 
the minimally acceptable condition of DOD medical facilities? If so, 
how are these standards enforced?
    Answer. DOD meets the same facility condition requirements as the 
private sector and are inspected/accredited by the same agency, the 
Joint Commission on Accreditation of Health Care Organization. In 
addition, DOD requires medical facilities to comply with DOD-wide 
criteria assessment and reporting requirements through the military 
departments. Each facility is inspected on an annual basis at the 
installation level to ensure adherence to these condition standards.

   REQUIREMENT FOR STRATEGY FOR URBAN OPERATIONS TRAINING FACILITIES

    Question. Section 2808 of the National Defense Authorization Act 
for Fiscal Year 2007 (Public Law 109-364) prohibits the DOD from 
carrying out projects to construct facilities to provide training in 
urban operations, such as Combined Arms Collective Training Facilities, 
until the Secretary of Defense approves a strategy for such operations 
that would establish the requirements for such facilities. The Under 
Secretary of Defense (Personnel and Readiness) is also required to 
certify that such projects comply with this strategy, once it has been 
approved.
    Is the DOD in compliance with this provision? When did or will the 
Secretary approve a strategy for facility requirements to support 
training in urban operations?
    Answer. The Department is complying with the provision. The Office 
of the Under Secretary of Defense for Personnel and Readiness 
(USD(P&R)) is implementing the strategy through issuance of DOD 
Instruction 1322.27, dated April 13, 2007. Certifications arc expected 
to be signed by the USD(P&R) by early May.

                          ENHANCED USE LEASES

    Question. Has the DOD issued guidance to the military departments 
and defense agencies about the use of transparent, competitive 
procedures to assess, review, and carry out transactions for enhanced-
use leases?
    Answer. DOD is in the process of considering the issuance of 
Enhanced Use Lease (EUL) policy guidance that would standardize the 
process Department-wide and provide general guidelines for assessing, 
reviewing, selecting, and executing EULs.
    All EULs are accomplished in accordance with OMB Circular A-11 
which provides the OMB scoring rules for lease-purchases and leases of 
capital assets.

                         CHILD CARE FACILITIES

    Question. Does the DOD have a position on extending the temporary 
authority provided by section 2810 of the National Defense 
Authorization Act for Fiscal Year 2006 for increased MILCON thresholds 
to construct child development centers, which is set to expire on 
September 30, 2007?
    Answer. In recent testimony before the House Armed Services 
Subcommittee on Military Personnel, the Deputy Under Secretary of 
Defense for Military Community and Family Policy requested that the 
authority to construct child care development centers with operations 
and maintenance funding be extended.
 policy on use of funds for land purchases in accident potential zones
    Question. What is the Department's policy on the use of government 
funds to purchase land in accident potential zones (APZs) adjacent to 
runways?
    Answer. DOD Instruction 4165.57 covers use of government funds to 
purchase land in airfield APZs. That policy states (4.2.2.2.2) that 
Services should ``program for the acquisition of interests first in 
APZs and second in high noise areas only when all possibilities of 
achieving compatible use zoning, or similar protection, have been 
exhausted and the operational integrity of the air installation is 
manifestly threatened.''

         LEGAL IMPACT OF PROHIBITION OF CLOSURE OF WALTER REED

    Question. What is the Department's legal interpretation of the 
impact of section 1906 of H.R. 1591, as passed by the House of 
Representatives on March 23, on the Department's ability to construct 
new medical facilities at Fort Belvoir, VA, and Bethesda Naval Medical 
Center, MD, pursuant to the 2005 base closure recommendations?
    Answer. Undertaking a legal interpretation prior to receiving 
enacted legislation is premature. The Department strongly opposes any 
provision that would alter the approved recommendations of the 2005 
BRAC Commission. The BRAC process, as authorized by Congress, requires 
that both the President and Congress approve or disapprove the 
Commission's recommendations in their entirely to allow the process to 
remain apolitical. Legislating a specific change to a BRAC Commission 
recommendation would adversely affect the integrity of the BRAC 2005 
process.
                                 ______
                                 
    [Prepared questions submitted to Hon. Keith E. Eastin prior 
to the hearing with answers supplied follow:]

                        Questions and Responses

            IMPROPER USE OF OPERATIONS AND MAINTENANCE FUNDS

    Question. Can you provide the status of the Army investigations, 
including investigations of potential Anti-Deficiency Act violations, 
into the use of operations and maintenance funds for military 
construction and procurement activities through the Logistics Civil 
Augmentation Program (LOGCAP) in Iraq?
    Answer. The Army opened five investigations of potential 
Antideficiency Act violations related to the potential improper use of 
operations and maintenance funds for the procurement of items through 
LOGCAP. Cumulative dollar value of the five investigations is 
approximately $38 million. Army tasked the Department of Defense (DOD) 
Inspector General to conduct one of the five investigations due to 
potential involvement of senior level personnel.
    Completed investigations are provided to Congress and include the 
nature of the violation, accountable personnel, and disciplinary action 
taken.
    Question. What is the status of the Army Audit Agency (AAA) report 
on the expenditure of operations and maintenance funds in support of 
the development and construction of the National Museum of the United 
States Army at Fort Belvoir, VA?
    Answer. The AAA completed their report on 31 January 2007. The AAA 
analysis covered contract actions from fiscal year 2003 through fiscal 
year 2005, as well as fiscal year 2006 contract solicitation 
requirements.
    The executive summary of the audit found the Center for Military 
History (CMH) and its National Museum Division failed to follow all of 
the required procedures for: setting contract requirements, using the 
proper type and fiscal year of funds to execute contracts, providing 
the necessary guidance for contractor personnel, and accounting for 
property furnished to contractors. Several recommendations were issued, 
which the Army and CMH agreed with, and the recommendations are being 
implemented. The key recommendations implemented were to enhance 
training for personnel overseeing contract performance, as well as 
cancelling a draft contract solicitation.
    The Army is currently conducting two separate investigations of 
potential Antideficiency Act violations involving the potential 
improper use of operations and maintenance funds in support of the 
National Museum of the United States Army.

               MILITARY CONSTRUCTION AT DAL MOLIN, ITALY

    Question. Has the Government of Italy authorized the United States 
to commence military construction at Dal Molin, Italy? If not, when is 
this approval expected?
    Answer. No, not yet; formal approval is expected within the next 
few days, as Italian Defense Minister Parisi told U.S. Ambassador 
Spogli on 3 April 2007. According to Minister Parisi, U.S. embassy 
officials in Rome should receive formal approval sometime the week of 
9-13 April 2007.
    Question. When will a contract for the military construction 
authorized in fiscal year 2007 be awarded?
    Answer. The fiscal year 2007 projects are slated for award in 
September 2007.

                    WALTER REED ARMY MEDICAL CENTER

    Question. What is your position on proposals to delay, reverse, or 
accelerate the 2005 Defense Base Realignment and Closure (BRAC) 
decision related to the Walter Reed Army Medical Center?
    Answer. Soldiers are the centerpiece of our Army, and the quality 
of their care is non-negotiable. Closing Walter Reed, as required by 
BRAC law by September 15, 2011, will improve the health care of our 
servicemembers and their families.
    The Army is opposed to reversing the current BRAC recommendations 
for WRAMC. The implementation of the recommendation is necessary to 
replace and expand the Army Community Hospital at Fort Belvoir and 
construct and expand facilities at Bethesda, to be named Walter Reed 
National Military Medical Center. When the projects are completed, we 
will be better equipped to provide world class health care for 
soldiers, veterans, and their families well into the future.
    Proposals to accelerate the BRAC projects at Bethesda and Belvoir 
are currently being evaluated.

    Question. In your opinion, will the BRAC Business Plan for the 
closure of Walter Reed, which is managed by the Department of the Army, 
result in adequate capabilities and facilities being built at the 
designated receiving locations?
    Answer. BRAC Business Plan 169, Walter Reed, is developed with 
input from physicians, medical support personnel, architects, and 
engineers. The plans are formally coordinated with the Navy, Air Force, 
Medical Joint Cross Service Group, and TRICARE Management Activity/
Health Affairs. All concurred that the scope and cost of the projects 
in the business plan provide adequate capabilities and facilities 
required at the designated receiving locations.

   REQUIREMENT FOR STRATEGY FOR URBAN OPERATIONS TRAINING FACILITIES

    Question. Section 2808 of the National Defense Authorization Act 
for Fiscal Year 2007 (Public Law 109-364) prohibits the DOD from 
carrying out projects to construct facilities to provide training in 
urban operations, such as Combined Arms Collective Training Facilities, 
until the Secretary of Defense approves a strategy for such operations 
that would establish the requirements for such facilities. The Under 
Secretary of Defense (Personnel and Readiness) (USD(P&R)) is also 
required to certify that such projects comply with this strategy, once 
it has been approved. Is the Department of the Army in compliance with 
this provision?
    Answer. At this time the DOD Instruction 1322.jj which establishes 
an overarching Urban Training Facilities Strategy has not been approved 
by the Secretary of Defense. According to USD(P&R) it is in the final 
stages of the approval process and should be approved within the next 
week. The Army has submitted the fiscal year 2007 and fiscal year 2008 
Urban Operations Training facilities project lists and has received 
notification from USD(P&R) that they meet the requirements of the 
strategy. Once the strategy has been approved the DOD can certify the 
projects and will notify Congress.

          SUSTAINMENT, RESTORATION, AND MODERNIZATION ACCOUNTS

    Question. Do you believe the amount requested for sustainment, 
restoration, and modernization in the President's budget request for 
fiscal year 2008 is adequate?
    Answer. Yes. The Army is requesting 86 percent of the DOD Facility 
Sustainment Model and intends to achieve 90 percent level of effort 
through efficiencies.
    Question. What is the Department of the Army doing to identify and, 
if necessary, correct facility conditions similar to those found at 
Building 18 at Walter Reed Army Medical Center that may exist at other 
medical hold facilities across the Army?
    Answer. Installation Management Command (IMCOM) MHO facilities meet 
life/health/safety standards.
    Garrisons reviewed their requirements to support the MHO program. 
Thirty-nine projects totaling $24 million were tentatively identified.
    These projects focus on improving quality of life and increasing 
our capability and capacity to support current and future MHO 
populations.
    We will further canvass installations for any additional projects 
and conduct an analysis of all projects to ensure they comply with all 
applicable statutes and makes the best use of taxpayer dollars.

 POLICY ON USE OF FUNDS FOR LAND PURCHASES IN ACCIDENT POTENTIAL ZONES

    Question. What is the Department's policy on the use of government 
funds to purchase land in accident potential zones adjacent to runways?
    Answer. The Department of the Army follows DOD policy set forth in 
DOD Instruction 4165.57 on use of government funds to purchase land in 
airfield accident potential zones (APZs). That policy states, ``. . . 
program for the acquisition of interests first in Accident Potential 
Zones and second in high noise areas only when all possibilities of 
achieving compatible use zoning, or similar protection, have been 
exhausted and the operational integrity of the air installation is 
manifestly threatened.''
    In compliance with that policy, when local governments do not enact 
effective land use controls to prevent incompatible development or 
where it believes existing zoning will not be an effective long-term 
strategy due to local development pressures, the Army attempts to 
acquire appropriate interests in lands in APZs. When acquisition of an 
interest in real property interests is required to protect operational 
integrity, the Army seeks to prevent development or use of property in 
APZs that would be incompatible with the mission of the installation by 
entering into agreements with eligible entities using authorities in 
section 2684a of title 10, U.S.C. Budgeting for acquisition of property 
interests as part of the military construction program is only 
considered when these measures are not practicable or effective.
                                 ______
                                 
    [Prepared questions submitted to Hon. B.J. Penn prior to 
the hearing with answers supplied follow:]

                        Questions and Responses

             OUTLYING LANDING FIELD, WASHINGTON COUNTY, NC

    Question. What is the status of the Navy's plan related to the 
outlying landing field (OLF) in Washington County, NC?
    Answer. The proposed OLF will add an essential training capability 
to support the East Coast basing of the F/A-18 E/F Super Hornet at NAS 
Oceana, VA, and MCAS Cherry Point, NC. On February 23, 2007, Department 
of the Navy published the draft Supplemental Environmental Impact 
Statement (SEIS) for public review and comment. The public comment 
period on the draft SEIS, originally scheduled to close on April 24, 
2007, has been extended until May 9, 2007, to assure that all 
interested parties have the opportunity to provide comments on this 
important matter. Public hearings have been held in Perquimans, Bertie, 
Washington, Hyde, Craven, and Beaufort Counties. An additional public 
hearing is scheduled in Charlotte on April 17. The Navy will fully 
consider all comments received during the comment period, and will 
respond to such comments in the final SEIS, scheduled for completion in 
fall 2007. Not less than 30 days following publication of the final 
SEIS, the Assistant Secretary of the Navy (Installations and 
Environment) may sign a Record of Decision (ROD).
    Unless constrained by further legal actions, after the ROD the Navy 
will commence activities to implement the decision, which would include 
acquisition of required property interests (fee title and/or easements) 
and project design and construction. We expect that property 
acquisition activities would commence in fiscal year 2008, and that the 
OLF will be fully operational by 2012.
    Question. What is the status of the SEIS?
    Answer. On February 23, 2007, Department of the Navy published the 
draft SEIS for public review and comment. The draft SEIS provides 
additional analysis of potential environmental impacts of construction 
and operation of an OLF at five alternative OLF sites while addressing 
the SEIS deficiencies identified by Federal district and appellate 
courts. The draft SEIS is the culmination of 20 weeks of fieldwork and 
12 technical reports produced through consultation with the U.S. Fish 
and Wildlife Service (Cooperating Agency), wildlife experts, and 
acoustic engineers. The Navy obtained the services of three noted 
waterfowl experts (PhDs) to provide technical expertise and independent 
peer review of the study.
    As noted above, the public comment period on the draft SEIS, 
originally scheduled to close on April 24, 2007, has been extended 
until May 9, 2007, to assure that all interested parties have the 
opportunity to provide comments on this important matter. The Navy is 
holding seven public meetings during the public comment period to 
receive comments on the draft SEIS from interested parties. Each public 
meeting is preceded by an open information session to enable interested 
parties to review information presented in the draft SEIS. The Navy 
will fully consider all comments received during the comment period, 
and will respond to such comments in the final SEIS.
    We are aware from media reports of Senator Dole's letter to the 
Secretary of the Navy regarding OLF, but have not received a copy. We 
will respond to her concerns upon receipt of the letter.
    Question. What further actions by the Department of the Navy are 
required to satisfy the legal requirements of the Federal court?
    Answer. The Department of the Navy must complete and publish a SEIS 
that addresses the deficiencies in the 2003 final EIS identified by the 
Federal district and appellate courts, and publish a ROD.
   requirement for strategy for urban operations training facilities
    Question. Section 2808 of the National Defense Authorization Act 
for Fiscal Year 2007 (Public Law 109-364) prohibits the Department of 
Defense from carrying out projects to construct facilities to provide 
training in urban operations, such as Combined Arms Collective Training 
Facilities, until the Secretary of Defense approves a strategy for such 
operations that would establish the requirements for such facilities. 
The Under Secretary of Defense (Personnel and Readiness) is also 
required to certify that such projects comply with this strategy, once 
it has been approved. Is the Department of the Navy in compliance with 
this provision?
    Answer. The Department of the Navy is in compliance with this 
provision and the proposed DODI ``Urban Training Facilities'' 1322.XX 
instruction. Final approval of the instruction is currently in 
staffing. P-1063 Military Operations in Urban Terrain Enhancements at 
Camp Lejeune has been reviewed and certified by the Deputy Under 
Secretary of Defense (Personnel and Readiness) Urban Training 
Facilities Review Group as being an appropriate and valid project. 
P971C at Twentynine Palms is an additional phase of a previous 
congressionally-approved project and as such does not need to be 
further validated. This project will be funded with fiscal year 2008 
Grow the Force military construction (MILCON) funds.

          SUSTAINMENT, RESTORATION, AND MODERNIZATION ACCOUNTS

    Question. Do you believe the amount requested for Navy and Marine 
Corps Sustainment, Restoration, and Modernization (SRM) in the 
President's budget request for fiscal year 2008 is adequate?
    Answer. SRM funding requirements are based on a mature DOD model 
with inputs from the Services and which uses industry standards for 
comparable types of facilities. As a general rule, I believe the 
Department of the Navy should sustain its existing facilities, or 
dispose/demolish excess inventory before building new facilities. Both 
the Navy and Marine Corps opted to take additional risk compared to 
previous budgeted levels by reducing SRM in fiscal year 2008 and 
applying the asset to other priorities:

----------------------------------------------------------------------------------------------------------------
                                               Budgeted percent of model requirement     Funding to achieve 100
                                            ------------------------------------------      percent of model
                                                     2007                 2008                requirement
----------------------------------------------------------------------------------------------------------------
Navy.......................................                  95                   83                $240 million
Marine Corps...............................                  93                   89                 $63 million
----------------------------------------------------------------------------------------------------------------

    With limited SRM Funds, facility managers at the installation level 
will have to prioritize requirements and execute only critical 
sustainment project with limited or no renovation and modernization 
projects in fiscal year 2008, particularly for the Navy.
    While the DOD goal of 100 percent sustainment may be a bit 
ambitious given the risk routinely taken in other DOD programs, I would 
prefer that Navy and Marine Corps budgeted and executed facilities 
sustainment in the range of 93 to 95 percent of the model requirements. 
I have accepted the risk proposed by the Navy and Marine Corps as an 
exception, and hope to raise facility sustainment levels in future 
budgets to where I believe they belong. The Navy has committed to an 
enhanced effort to reduce the existing inventory through demolition and 
footprint reductions.

 POLICY ON USE OF FUNDS FOR LAND PURCHASES IN ACCIDENT POTENTIAL ZONES

    Question. What is the Department's policy on the use of government 
funds to purchase land in accident potential zones adjacent to runways?
    Answer. The Department of the Navy follows DOD policy set forth in 
DOD Instruction 4165.57 on use of government funds to purchase land in 
airfield accident potential zones (APZs). That policy states, ``. . . 
program for the acquisition of interests first in Accident Potential 
Zones and second in high noise areas only when all possibilities of 
achieving compatible use zoning, or similar protection, have been 
exhausted and the operational integrity of the air installation is 
manifestly threatened.''
    Consistent with that policy, Department of the Navy seeks to 
acquire interests in lands in APZs when local governments do not take 
pro-active and effective measures to prevent incompatible development 
through land use controls. When acquisition of property interests is 
indicated to protect operational integrity, Department of the Navy 
seeks first to prevent development or use of property in APZs that 
would be incompatible with the mission of the installation by entering 
into agreements with eligible entities using authorities in section 
2684a of title 10, U.S.C. Budgeting for acquisition of property 
interests as part of the MILCON program is only considered when these 
measures are not practicable or effective.
                                 ______
                                 
    [Prepared questions submitted to Hon. William C. Anderson 
prior to the hearing with answers supplied follow:]

                        Questions and Responses

                STATUS OF ENVIRONMENTAL IMPACT STATEMENT

    Question. What is the current status of the environmental impact 
statement (EIS) related to the realignment of special operations 
missions to Cannon Air Force Base (AFB), NM? If not yet completed, what 
is the schedule?
    Answer. The EIS is on schedule to meet beddown requirements.

    EIS Timeline: July 2006-September 2007.
    Public scoping meetings held: Noise, public leases and range fires 
from air operations were main issues.
    Public release of Draft EIS: 30 Mar 07 (starts 45-day comment 
period).
    Public hearings: April 2007--scheduled the week of April 16.
    Projected date to sign Record of Decision: September 2007.

                     FACILITY RECAPITALIZATION RATE

    Question. What is the facility recapitalization rate for the Air 
Force, with and without consideration of the amounts for the 2005 base 
closure round, as reflected in the President's budget request for 
fiscal year 2008?
    Answer. BRAC reduces the overall Air Force recap rate by 56 years 
in fiscal year 2008. The Active Duty recap rate includes those large 
infrastructure projects that contribute to total force training and 
mission. The following table shows the Air Force recap rates as 
reported in the Office of the Secretary of Defense facility database:

------------------------------------------------------------------------
                      Air Force                        Fiscal Year 2008
------------------------------------------------------------------------
Without BRAC........................................                153
With BRAC...........................................                 97
------------------------------------------------------------------------

                        ACCIDENT POTENTIAL ZONES

    Question. What is the Department's policy on the use of government 
funds to purchase land in accident potential zones adjacent to runways?
    Answer. The Air Force policy is to not use government funds to 
acquire real estate interest in the accident potential zones. The Air 
Force endeavors to only acquire the minimal interest necessary to 
protect the Air Force mission.

              SUSTAINMENT, RESTORATION, AND MODERNIZATION

    Question. Do you believe the amount requested for Air Force 
sustainment, restoration, and modernization (SRM) in the President's 
budget request for fiscal year 2008 is adequate?
    Answer. Fiscal year 2008 President's budget request adequately 
funds Air Force Total Force SRM to include addressing our most critical 
facility and infrastructure mission requirements. The funds will 
preserve the value of existing investment in facilities and 
infrastructure by maximizing service life and preventing premature 
deterioration, in essence keeping good buildings good. Air Force 
recognizes adequate FSRM is a mission readiness issue, and investment 
in infrastructure translates to readiness of Air Force power projection 
platforms.
    Question. What is the current status of the Air Force initiative to 
purchase land in the clear zones and aircraft accident potential zones 
at Luke AFB, AZ?
    Answer. Congress specifically provided $13 million in fiscal year 
2003 and $14.3 million in fiscal year 2004 for acquisition of land in 
the clear zones (CZs) and accident protection zones (APZs) at Luke Air 
Force Base. To date, $12.6 million of the fiscal year 2003 
appropriation and $7.0 million of the fiscal year 2004 appropriation 
have been obligated. We arc proceeding in the following order: 
addressing CZs first and then addressing APZs. The Air Force is moving 
forward consistent with its policy to acquire the minimal interest 
necessary to protect the Air Force mission.

            LEGISLATIVE PROPOSAL ON THE AIR FORCE MEMORIAL.

    Question. What are the estimated annual costs to the taxpayer 
should the Department of Defense legislative proposal regarding the 
management, maintenance, and repair of the Air Force Memorial be 
enacted?
    Answer. The estimated annual costs for maintenance of the memorial 
are $376,000. Maintenance includes grounds and landscaping; custodial 
services; pest control; snow removal/ice treatment; trash removal; 
spiral cleaning; and O&M services. The Pentagon Force Protection Agency 
baseline program has been supplemented to cover the incremental 
$135,000 annual cost for protection of the memorial.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                            AFRICAN COMMAND

    1. Senator Levin. Mr. Grone, what are the potential overseas basing 
implications related to the establishment of the African Command?
    Mr. Grone. [Deleted.]

    2. Senator Levin. Mr. Grone, are permanent bases envisioned as part 
of the new command?
    Mr. Grone. [Deleted.]

    3. Senator Levin. Mr. Grone, what criteria will be used to 
determine the size, location, and management of these locations, 
including the site of a permanent headquarters somewhere on the 
continent?
    Mr. Grone. [Deleted.]

    4. Senator Levin. Mr. Grone, what, if any, additional cooperative 
security locations does the Department of Defense (DOD) hope to 
establish in Africa? What is the estimated cost of establishing and 
operating these locations?
    Mr. Grone. [Deleted.]


                                DJIBOUTI

    5. Senator Levin. Mr. Grone, what, if any, plans does DOD have to 
expand the size of military presence and/or facilities (temporary or 
permanent) at Camp Lemonier in Djibouti?
    Mr. Grone. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

            TRAINING RANGE EXPANSION AT TWENTYNINE PALMS, CA

    6. Senator Akaka. Secretary Penn, the proposal to increase the size 
of the Marine Corps is likely to require additional training space. I 
understand the Marine Corps believes there is the potential to expand 
its premier training facility at Twentynine Palms, CA. Is the Navy 
going to move quickly to reach the agreements necessary to expand your 
training range and then fund those agreements?
    Mr. Penn. The Marine Corps has identified a requirement to conduct 
large-scale Marine Air Ground Task Force (MAGTF) training exercises to 
allow for the training of three to four battalions simultaneously in 
live-fire MAGTF operations. The DOD currently lacks a comprehensive 
training opportunity that exercises all elements of the MAGTF beyond 
two battalions simultaneously in an environment that replicates current 
operational conditions--something that is critical for our forces in 
today's deployed environment and which will meet future warfighting 
capabilities and technology. The Marine Corps prepared a Required 
Capabilities Document (RCD) that defined the optimum land area 
requirements for this training. The RCD, along with other documented 
studies, supported the requirement for extensive contiguous land areas 
capable of supporting live-fire and maneuver training. The Marine Corps 
has proposed that the Marine Corps Air Ground Combat Center, Twentynine 
Palms, CA, be considered to accommodate this requirement by the 
acquisition of an additional 198,000 acres of land at Twentynine Palms. 
The land considered for acquisition is approximately 95 percent 
government-owned, undeveloped, and managed by Bureau of Land Management 
with the remaining 5 percent owned privately. Acquisition is planned to 
occur in fiscal year 2012 and fiscal year 2013 through a combination of 
public land withdrawal and fee simple acquisition pending the 
successful completion of environmental analysis and documentation. 
Funding for the acquisition is included in the fiscal year 2008 Future 
Years' Defense Plan (FYDP), beginning in fiscal year 2012.

    7. Senator Akaka. Secretary Penn, I am not aware of such 
initiatives in the 2008 budget request, yet if you are serious about 
growing the force, isn't this an essential part of that effort?
    Mr. Penn. Having adequate, state-of-the-art training facilities is 
absolutely critical to our requirement to train marines for current and 
future MAGTF operations. The expansion of the Marine Corps' premier 
training facility at Twentynine Palms is a key element in being able to 
meet this requirement, particularly in our efforts to grow the force. 
Fiscal year 2007 appropriations included funding to begin the National 
Environmental Policy Act (NEPA) process, real estate assessment, and 
encroachment control plan development for the expansion effort at 
Twentynine Palms. Approximately $50.3 million has been programmed for 
this initiative in the fiscal year 2008 FYDP.

                MARINE CORPS ``GROW THE FORCE'' PROJECTS

    8. Senator Akaka. Secretary Penn, the President's budget requested 
$361 million as a lump sum place-holder for Marine Corps ``Grow the 
Force'' military construction projects, plus an additional $57 million 
for unspecified family housing construction funds. The Department has 
yet to provide the necessary information to Congress on the locations 
or specific projects for which these funds are being sought. Please 
provide this information as soon as possible.
    Mr. Penn. The Marine Corps is currently completing a cost review of 
the individual military construction projects associated with the $361 
million lump sum place-holder. The detailed project documentation will 
be provided once this cost review is complete this month.
    The Marine Corps included project documentation for the individual 
family housing projects with the detailed budget submission provided to 
Congress in February 2007.

    9. Senator Akaka. Secretary Penn, is an environmental impact 
statement (EIS) required before these funds can be executed? Please 
provide a proposed timeline for any such EIS.
    Mr. Penn. The Marine Corps will comply with the requirements of the 
NEPA in executing Grow the Force actions for both temporary and 
permanent beddown of marines.
    An EIS will be required for proposed Grow the Force actions at MCB 
Camp Lejeune, MCAS New River, and MCAS Cherry Point, NC. At this time 
other Marine Corps installations are planning environmental assessments 
and the use of categorical exclusions where appropriate.

                    ARMY ``GROW THE FORCE'' PROJECTS

    10. Senator Akaka. Secretary Eastin, the President's budget 
requested over $2 billion in lump-sum amounts for military construction 
and family housing as a place-holder for the Army's ``Grow the Force'' 
proposal. Please provide the specific locations and projects for which 
these funds are being sought, including the intended function of the 
new companies or other units that would be based in these new 
facilities. Please provide this information as soon as possible.
    Mr. Eastin. Detailed project information for the $2.3 billion 
requested for Army growth in fiscal year 2008 was provided to Congress 
at the end of March 2007. This $2.3 billion in military construction 
funding includes $1.76 billion in critical Combat Support and Combat 
Service Support requirements, $266 million for family housing 
privatization, and $77 million in Army National Guard training 
requirements.

    11. Senator Akaka. Secretary Eastin, is an EIS required before 
these funds can be executed? Please provide a proposed timeline for any 
such EIS.
    Mr. Eastin. No, execution of these finds is not dependent on an 
EIS. The Army takes compliance with the NEPA very seriously. Many of 
the fiscal year 2008 projects are already covered in environmental 
assessments or EISs, or are categorically excluded. Those that require 
some analysis or documentation will be completed in the near future. 
All growth projects requested for fiscal year 2008 are expected to be 
awarded within the fiscal year.

    12. Senator Akaka. Secretary Eastin, I understand the funds 
requested in fiscal year 2008 to ``Grow the Force'' are not related to 
the six new combat brigades the Army proposes to add. What then is the 
rationale for adding these units and these projects?
    Mr. Eastin. Growing the Force is more than building six new brigade 
combat teams (BCTs). The fiscal year 2008 funds will support projects 
for the growth of fiscal years 2007-2009 Combat Support and Combat 
Service Support (CS/CSS) units such as Military Police, Engineer, 
Explosive Ordnance Disposal, Transportation, Chemical, and Personnel 
Service Units. This initiative will grow and rebalance capabilities in 
order to mitigate high demand/low density shortfalls and increase CS/
CSS capacity.

    13. Senator Akaka. Secretary Eastin, please identify the location 
estimated cost of any temporary facilities the Army plans to use in 
conjunction with these projects or with the overall plan to ``Grow the 
Force.''
    Mr. Eastin. The Army will use existing facilities across all 
installations to the maximum extent possible, temporarily use 
facilities vacated by deploying units and, when absolutely necessary, 
use relocatables. We will provide details on the costs and locations 
for required facilities, to include relocatables if necessary, by the 
end of the year.

            TRAINING RANGE EXPANSION AT FORT POLK, LOUISIANA

    14. Senator Akaka. Secretary Eastin, the proposal to increase the 
size of the Army by adding six light infantry brigades is likely to 
require additional training space. I understand the potential exists to 
significantly expand the Army's Joint Readiness Training Center for 
light infantry units at Fort Polk, LA, if Forest Service land can be 
acquired. What is the Army doing to reach the agreements necessary to 
expand this training range and then fund those agreements?
    Mr. Eastin. In December 2006 the Army's maneuver land shortfall was 
2 million acres. It is projected to be 4.9 million acres after base 
realignment and closure (BRAC), Army Modular Force (AMF), and Global 
Defense Posture Realignment (GDPR). While the Army's requirement for 
training land grows, the capacity of, and accessibility to Army lands 
is decreasing. There are significant challenges that must be actively 
addressed to sustain Army training readiness. The Army is competing 
with its neighbors for access to land, airspace, and frequency 
spectrum. Urbanization and urban sprawl are encroaching on military 
lands and creating ``islands of biodiversity'' on Army installations. 
Urbanization concentrates endangered species and their habitat on areas 
traditionally used for military training. Increases in the 
concentration of endangered species at Army installations cause 
increased environmental restrictions. Environmental restrictions tend 
to translate into reduced accessibility to training land.
    In 2003, Headquarters, Department of the Army G-3, approved the 
Range and Training Land Strategy (RTLS). The purpose of the RTLS is to 
address the increasing land deficit facing the Army. The RTLS serves as 
the mechanism to prioritize Army training land investment, and helps to 
optimize the use of all Army range and training land assets. The RTLS 
provides a long-range plan for the Army to provide the best range 
infrastructure and training land to units. The deliberate phases of the 
RTLS provide the framework for the Army to select the most appropriate 
course of action to address training land shortfalls. The options that 
the Army can pursue include focused management to maximize existing 
land holdings, buffering through partnerships, utilization of other 
Federal lands where possible, and land acquisition. Fort Polk is an 
installation where the Army would want to assess the potential for 
expansion. Current agreements with the United States Forest Service 
provide much of the training land used by units at Fort Polk. A 
detailed assessment could result in a request for acquisition should it 
be deemed feasible. We base any specific project on the doctrinal need, 
availability of large contiguous parcels, cost of land, and a number of 
environmental issues.

    15. Senator Akaka. Secretary Eastin, I am not aware of such 
initiatives in the 2008 budget request, yet if you are serious about 
growing the force, isn't more training land for light infantry forces 
an essential part of that effort?
    Mr. Eastin. Analysis being conducted to support upcoming Grow the 
Army stationing decisions include evaluation of installation facilities 
and training resources, particularly maneuver land and range 
sustainability. The Army currently has available space at multiple 
installations to build facilities for additional Army Growth combat and 
combat support brigades. From a training perspective, the stationing 
analysis for the six BCTs will include consideration of training land 
and ranges as a significant factor. However, while the Army's 
requirement for training land grows, the capacity of, and accessibility 
to, Army lands is decreasing. There are significant challenges that 
must be actively addressed to sustain Army training readiness. 
Urbanization and urban sprawl, endangered species, and environmental 
restrictions are encroaching on military lands at Army installations.

      AUTHORIZED MILITARY CONSTRUCTION PROJECTS ADDED BY CONGRESS

    16. Senator Akaka. Mr. Grone, it is my understanding that under the 
fiscal year 2007 spending plan for military construction, family 
housing, and BRAC submitted to Congress by Deputy Secretary England on 
March 15, 2007, pursuant to section 113 of the Revised Continuing 
Resolution, 2007 (Public Law 110-5), no military projects that were 
authorized in the John Warner National Defense Authorization Act for 
Fiscal Year 2007 (Public Law 109-364) that were added by Congress and 
not contained in the original fiscal year 2007 budget request submitted 
by the President in February 2007 were funded or will be carried out 
with fiscal year 2007 military construction or family housing 
appropriations. Is that correct?
    Mr. Grone. Yes, that is correct.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                      BASE REALIGNMENT AND CLOSURE

    17. Senator Pryor. Secretary Eastin, BRAC and GDPR can yield 
significant gains in military effectiveness and efficiency in future 
conflicts and crisis and will enable the U.S. military to fulfill its 
many global roles. What is the Army doing to ensure this transformation 
runs smoothly and does not adversely affect readiness and training?
    Mr. Eastin. The Army is working hard to execute BRAC and GDPR 
actions, along with other MILCON projects, to adjust our global 
footprint. The resulting changes in our strategic posture will enable 
the Army to better execute the National Defense Strategy, support 
operational deployments, and sustain operational rotations.
    The Army synchronizes and integrates its BRAC and GDPR actions with 
all of its other title 10 activities, such as training and readiness, 
manning, and equipping, through the Army Campaign Plan (ACP). The ACP 
directs planning and execution of Army operations and transformation 
within the context of ongoing strategic commitments. Additionally, the 
ACP Management process, codified within the ACP, provides an active, 
Army Senior Leader forum to coordinate, integrate, and synchronize 
BRAC, GDPR, and other title 10 functions with operational requirements, 
ensuring there are no adverse affects on readiness and training.
    With respect to BRAC and GDPR specifically, the Vice Chief of 
Staff, Army (VCSA) chairs a Senior Stationing Review Group (SSRG) 
monthly to ensure the Army synchronizes ongoing BRAC, GDPR, and MILCON 
actions with operational requirements. This forum proactively manages 
the execution plans for BRAC and GDPR based on changing conditions, 
such as delays in funding and changes in unit deployment schedules to 
meet increased operational requirements. Additionally, the Army reviews 
the results of these SSRGs monthly in the broader ACP forum to ensure 
synchronization of BRAC and GDPR actions across the Army. The VCSA also 
chairs this forum and senior representatives from every major Army 
Command attend via worldwide video teleconference. In combination, 
these forums ensure the Army's execution of BRAC and GDPR actions is 
smooth, timely, and efficient and does not adversely affect our ability 
to provide trained and ready forces to combatant commanders.

    18. Senator Pryor. Secretary Eastin, how is funding for the global 
war on terror affecting BRAC, housing, military offices, and training 
facilities?
    Mr. Eastin. Full and timely funding is essential to meet the Army's 
increasing global commitments, facilitate growth, and ensure soldier 
and family quality of life. Any delay in receiving supplemental funding 
negatively impacts the Army's carefully synchronized stationing plan 
and puts BRAC, Army growth, and global war on terrorism operations at 
risk. If $2 billion BRAC funding is not restored, the Army must re-
prioritize projects, which puts at risk the Army's requirement to 
complete all BRAC actions by September 2011.
    The fiscal year 2007 supplemental request includes $844 million in 
Active Army MILCON for projects supporting global war on terrorism 
operations in accordance with combatant commander requirements. These 
projects provide theater force protection, airfield facilities, 
operational facilities, support facilities, billeting, fuel handling 
and storage, utility systems, and roads.
    In addition, $445 million requested in the supplemental funds 
replacement for a critical intelligence facility recently destroyed by 
fire at Fort Meade, MD, site preparation for a BCT at Fort Riley, KS, 
and facilities to Grow the Army.
    There are no Army family housing requirements associated with the 
fiscal year 2007 supplemental funding; thus, delayed receipt of the 
supplemental has no impact on the Army family housing appropriation.

    19. Senator Pryor. Secretary Eastin, the Army's modular force 
initiative transforms units into a more powerful, adaptable force built 
on self-sufficiency and the ability to rapidly deploy. In order to 
provide quality training for new modular units like a BCT, the Army 
must significantly expand its range facilities. What is the plan for 
acquiring more land for training purposes?
    Mr. Eastin. Analysis being conducted to support upcoming Grow the 
Army stationing decisions include evaluation of installation facilities 
and training resources, particularly maneuver land and range 
sustainability. The Army currently has available space at multiple 
installations to build facilities for additional Army Growth combat and 
combat support brigades. From a training perspective, the stationing 
analysis for the six BCTs will include consideration of training land 
and ranges as a significant factor. However, while the Army's 
requirement for training land grows, the capacity of, and accessibility 
to, Army lands is decreasing. There are significant challenges that 
must be actively addressed to sustain Army training readiness. 
Urbanization and urban sprawl, endangered species, and environmental 
restrictions are encroaching on military lands at Army installations.

    20. Senator Pryor. Secretary Eastin, as you've said, BRAC 2005 
implementation strategy is an extremely complex plan that manages 
numerous construction projects and re-stationing actions. How does the 
Army determine which critical MILCON projects have priority?
    Mr. Eastin. The Army established a banded hierarchy with priority 
for BRAC MILCON projects to the operational Army, followed by training 
base consolidation, industrial base realignments and lastly, 
headquarters moves. We then synchronized the construction program to 
accommodate deployment schedules and sequential moves necessary to free 
up space at gaining installations required to meet BRAC law.
                                 ______
                                 
               Questions Submitted by Senator John Ensign

         USE OF SERVICE CONTRACTS TO ENTER INTO PROPERTY LEASES

    21. Senator Ensign. Mr. Grone, the DOD Inspector General (IG) 
released a report in January of this year which highlighted their 
concerns about the award of a service contract by the Department of the 
Interior on behalf of the DOD's counter intelligence field activity to 
provide leased office space and the installation of communication and 
other equipment. The DOD IG contended that ``the 10-year, $100 million 
lease was disguised as a service contract and exceeded all thresholds 
that require congressional notification and approval.'' As a result of 
the DOD IG review, the DOD Comptroller is currently conducting an 
investigation to determine whether any violations of the Anti-
Deficiency Act (ADA) may have occurred. Do you know the status of the 
internal DOD investigation into ADA violations?
    Mr. Grone. Under the Department's established potential ADA 
investigation process, the Department completed the preliminary review 
and has determined that a formal investigation is now required.

    22. Senator Ensign. Mr. Grone, if not, please provide a current 
status, the estimated completion date, and at the conclusion of the 
investigation, the results and any punitive or corrective measures.
    Mr. Grone. The formal investigation will commence shortly and the 
estimated completion date is no later than January 2008.

    23. Senator Ensign. Mr. Grone, what is the current DOD policy on 
the use of service contracts to enter into property leases?
    Mr. Grone. Our policy is simple and straight forward. We do not 
condone the use of services contracts to procure office space or to 
construct or improve facilities.

    24. Senator Ensign. Secretary Eastin, the DOD IG also identified 
the use of a service contract to lease and install an administrative 
facility at Fort Belvoir, VA. The Department of the Army has since 
determined that this contract for the building may have been awarded in 
violation of the ADA. Please provide a current status of the 
investigation, the estimated completion date, and at the conclusion of 
the investigation, the results and any punitive or corrective measures.
    Mr. Eastin. This case, Army 06-02, is currently under 
investigation. Once completed (anticipated end of August), we will 
provide the results and any punitive or corrective measures to the 
proper oversight authorities.

            BRAC ACTIONS AT WALTER REED ARMY MEDICAL CENTER

    25. Senator Ensign. Mr. Grone, in 2005, the DOD recommended, and 
the BRAC Commission concurred, on the closure of Walter Reed Army 
Medical Center and the transfer of its functions primarily to Bethesda 
and Fort Belvoir by September 2011. In light of the recent disclosure 
of poor facility conditions and outpatient processes at Walter Reed, 
certain Members of Congress have introduced legislation to delay or 
reverse that BRAC decision. Is the closure of Walter Reed still the 
right thing to do?
    Mr. Grone. Yes, the closure of Walter Reed is still the right thing 
to do. The Department's decision to realign Walter Reed was based on a 
rigorous assessment of the capacity, military value, and beneficiary 
population of the National Capital Region's four inpatient hospitals at 
Walter Reed, Bethesda, Andrews Air Force Base (AFB), and Fort Belvoir. 
The analysis indicated that excess capacity (including surge) exists in 
the region, Walter Reed and Andrews had the lowest military value of 
the four facilities, the beneficiary population lives primarily south 
of the Potomac River and Fort Belvoir and Walter Reed suffer from 
significant space, functional, and building system deficiencies. These 
assessments (and the projected savings) supported the Department's 
recommendation to realign Walter Reed by creating state-of-the-art 
facilities at Bethesda and Fort Belvoir.

    26. Senator Ensign. Mr. Grone, what would be the impact of a 
reversal or delay to a 2005 BRAC decision on the Department's ability 
to carry out the decisions of the 2005 BRAC round?
    Mr. Grone. Reversing this or any other recommendation would 
adversely impact the overall BRAC process. The BRAC process, as 
authorized by Congress, requires that both the President and Congress 
approve or disapprove the Commission's recommendations in their 
entirety to allow the process to remain apolitical. Legislating a 
specific change to a BRAC Commission recommendation would adversely 
affect the integrity of the BRAC 2005 process. Additionally, 
legislatively overturning a BRAC action establishes a precedent that 
could open the door to other recommendations being overturned.

    27. Senator Ensign. Secretary Eastin, the Department of the Army is 
responsible for ensuring that adequate facilities are constructed at 
receiving locations to transfer functions from Walter Reed and to 
maintain at a minimum the same capabilities as the existing campus. In 
recent testimony before this committee, Army leadership has voiced 
concerns that the current plan may not accomplish this goal due to 
funding restrictions. Is the construction plan to support the closure 
of Walter Reed fully funded to ensure all functions and capabilities 
transferred to new locations will exceed current capabilities? If not, 
what parts of the plan are not fully funded and why?
    Mr. Eastin. The BRAC decision did not intend to exceed current 
capabilities of Walter Reed Army Medical Center. The Army plan to 
execute the BRAC decision was fully coordinated with the Navy, Air 
Force, Medical Joint Cross Service Group, and the Office of the 
Secretary of Defense (OSD) TRICARE Management Activity and Health 
Affairs. All concurred that the scope and cost of the projects provide 
adequate capabilities and facilities required at the designated 
receiving locations. The DOD-approved plan, as is, fully funds the BRAC 
decision.

    28. Senator Ensign. Secretary Eastin, in your answers to our 
advance policy questions for this hearing, you did not provide a 
response on whether you support a congressional initiative to 
accelerate construction related to the closure of Walter Reed. Why?
    Mr. Eastin. At this time, we are analyzing our ability to 
accelerate construction related to Walter Reed National Military 
Medical Center (WRNMMC) and Fort Belvoir and will provide our position 
as soon as we complete that analysis.
    (Note: Subsequent to the hearing, on May 1, 2007, the Acting 
Secretary of the Army signed a memo that affirms the Army's support for 
the facility enhancements and construction acceleration proposals for 
WRNMMC and Fort Belvoir for a total cost of $443 million above BRAC-
approved project costs to accelerate construction related to the 
closure of Walter Reed Army Medical Center. Accelerating the National 
Capital Region military health system projects will allow construction 
completion in late fiscal year 2010, vice the currently projected May 
2011. Earlier completion of construction will afford more time to 
complete initial outfitting of the buildings and allow more time to 
transition staff and patients from Walter Reed Army Medical Center to 
the new WRNMMC and Fort Belvoir community hospital.)

                PROPER USE OF FUNDS FOR FACILITY REPAIRS

    29. Senator Ensign. Secretary Eastin, on the issues of Walter Reed, 
in my review over the past 2 months into the facility conditions at 
Walter Reed Army Medical Center, I have come to the conclusion that the 
appalling conditions in Building 18 were the result of a failure in 
leadership to respond to and correct identified deficiencies. We heard 
witnesses testify that the Army and Defense Health Affairs did receive 
adequate resources from Congress, despite the pending BRAC decision to 
close Walter Reed by 2011, to maintain this facility at an acceptable 
level. In fact, over $630,000 was spent on renovations for this 
facility between 2000 and 2005. What struck me is that in order for 
this money to have been spent in Building 18, a military engineer 
needed to have walked through the facility, talked to building 
residents, and identified problems. So, this wasn't an issue of lack of 
oversight, it was an issue of misplaced priorities. My concern is that 
this prioritization still exists today in the deteriorated barracks at 
Fort Bragg, Fort Stewart, and Fort Sill, just to name a few. What is 
the Army doing to ensure we don't waste $630,000 on the next Building 
18 by, to use a little known veterinary term, putting lipstick on a 
pig?
    Mr. Eastin. The Army is continuously challenged to balance facility 
sustainment, restoration, and modernization projects to meet mission 
and life/safety/health requirements. This sometimes means some projects 
must be phased over a period of years using available funding rather 
than being completed as a single project in a single year. Phasing 
certain projects is the most practical way to meet overall facilities 
requirements within constrained resources and competing priorities. I 
view the problems with Building 18 as an anomaly in an otherwise well-
run prioritization system for facilities sustainment, restoration, and 
modernization.

    30. Senator Ensign. Mr. Grone, Secretary Eastin, Secretary Penn, 
and Secretary Anderson, Congress provides operations and maintenance 
funds to the military services for facility sustainment with the 
understanding that these funds will be applied wisely by military 
leaders to address the most urgent requirements: on dormitories to fix 
failing roofs instead of new drapes and carpets for senior officer 
quarters; on deteriorated runways to protect our pilots and aircraft 
instead of upgrading golf courses; and on piers, ranges, and motor 
pools that are in such poor condition that training and readiness are 
significantly impacted. What is each Service doing to ensure we direct 
the taxpayers' funds to ensure there are no more building 18s out there 
in the DOD inventory?
    Mr. Grone. Each military Service has developed specific tools, 
systems, and processes suitable to its mission to identify, prioritize, 
and fund its facilities' requirements. Significant effort is invested 
in this process, and often involves a combination of centralized 
control of large-scale projects and local control of smaller-scale 
requirements. Typically, installation commanders make the final 
decisions on the best use of sustainment funds to support their mission 
readiness, and Service Chiefs hold them accountable for these decisions 
as for their stewardship of their people and any other resources in 
accomplishing their missions.
    Mr. Eastin. For the last 2 years, the Army has protected and 
focused sustainment funding on those facilities most critical to our 
high-priority missions and those in the worst condition. The 
Installation Management Command (IMCOM) has developed and implemented a 
Project Prioritization System to assist in focusing discretionary 
funding on the most urgent facilities requirements. Barracks are among 
our highest-priority facilities and have received over $400 million of 
sustainment, restoration, and modernization work over the last 2 years. 
To ensure this money is spent wisely, IMCOM developed a focused 
facility inspection system that gives a higher priority to living space 
and bathrooms in barracks. The Installation Status Report-
Infrastructure (ISR-I) is a very valuable tool in assessing the 
condition of facilities. The ISR-I condition reports are used 
extensively in focusing funding on our worst-condition facilities.
    Mr. Penn. The Marine Corps executes its Facilities Sustainment, 
Restoration, and Modernization funding through two tracks to ensure 
that day-to-day repairs are accomplished and the highest priority major 
repairs are completed. The first track lies with the base commander who 
receives funding to cover day-to-day maintenance requirements. The 
commander has full control of these funds to apply them to cyclic 
maintenance and emergent small repairs. The second track lies with 
Headquarters Marine Corps who field validates and selects all major 
repair projects. Readiness ratings and quality of life concerns, along 
with base priority, arc major factors in project selection. We believe 
this process protects and repairs the facilities most needed for 
mission readiness and quality of life. But even given our emphasis on 
spending money properly, there are still problems. The Marine Corps has 
approximately a billion dollars worth of repairs and improvements 
needed to improve facilities to an acceptable readiness condition. This 
is a result of historic underfunding that occurred before the 
sustainment metrics and other facilities metrics were developed that 
have resulted in increased funding for facilities. Because of this, as 
you travel around bases, you will, from time to time, see buildings in 
a poor state of repair.
    The Navy ensures that facilities sustainment funding is directed to 
maintenance and repair of class I and II real property by closely 
monitoring the execution of maintenance and repair programs at the 
installation, region, and Navy level. Commander, Navy Installations 
Command distributes funds to regions based on detailed requirements 
generated by the OSD approved Facilities Sustainment Model, which 
provides facility sustainment requirement details down to the facility 
level. Accounting records are systematically reviewed to ensure that 
funds are expended in the proper accounts.
    Mr. Anderson. The Air Force is committed to making the best use of 
every taxpayer dollar so that each one goes towards only those programs 
providing the highest mission capability rate and quality of life for 
our airmen.
    We have a keen interest in caring for our facilities because of the 
unique emphasis the Air Force places on its installations, which are 
our warfighting platforms. Our bases provide stable training 
environments and force projection platforms for the Nation's combatant 
commanders.
    Within the Air Force, the single person responsible for this 
warfighting platform, as well as the readiness of the unit, is the wing 
commander. He or she is responsible for ensuring limited facility 
dollars go towards only our most critical requirements--the appropriate 
roofs, runways, and dorms that best support the unit mission and the 
airmen.
    To help these commanders care for the facilities, we've increased 
funding in both our restoration and modernization and facility 
sustainment accounts in fiscal year 2008.
    In regards to our medical facilities, it has been a long-standing 
practice of my engineers to put ``eyes on'' as many facilities as 
possible when they visit bases. This practice includes our medical 
facilities. My team has personally inspected five facilities this year 
looking beyond the front lobby and doctors' offices to the patient care 
areas, staff locker rooms, loading docks, mechanical rooms, et cetera. 
Additionally, the Air Force recently completed a full review of all our 
medical facilities in the wake of the Walter Reed Army Medical Center 
situation.

                FUNDS FOR THE SUSTAINMENT OF FACILITIES

    31. Senator Ensign. Secretary Eastin, Secretary Penn, and Secretary 
Anderson, on the issue of facility sustainment, you note, Secretary 
Eastin, in your answers to advance policy questions that in fiscal year 
2008 the Army has proposed a budget that funds 86 percent of 
requirement, as opposed to the 100 percent goal established by the DOD. 
Secretary Penn, in your witness statement, you note that the Navy only 
actually funded 79 percent of your facility sustainment requirement in 
2006 after having proposed a budget to Congress for 95 percent of the 
total requirement. Secretary Anderson, in your testimony, you state 
that the Air Force is ``accepting manageable risk'' by reducing 
facilities and infrastructure funding in order to bolster other 
accounts. My concern is that this chronic underfunding of facility 
sustainment accounts has resulted in deteriorated facility conditions 
in barracks and working facilities around the DOD that don't become an 
issue until the public sees them or they result in a tragic accident. 
In your view, are we spending enough money on facilities to ensure our 
servicemembers have safe and adequate facilities to live and work? If 
not, how do we fix it?
    Mr. Eastin. Quality of life is a top Army priority to ensure 
soldiers and families have safe and adequate facilities to live, work, 
and train. The Army has made substantial progress in the last 4 years 
increasing Base Operations Support 41 percent and Facility Sustainment/
Restoration and Modernization 15 percent since 2004. Although we are 
still not doing as much as we would like in this time of war and 
constrained resources, we continue to make consistent and steady 
progress towards improving the installation services necessary to 
sustain the All-Volunteer Force.
    Mr. Penn. Given competing priorities, the Department of the Navy 
views the reduced investment in sustainment as an acceptable risk. The 
overall strategy to reduce this risk is an effort to aggressively 
validate facilities sustainment requirements, and reducing footprint in 
order to reduce sustainment costs.
    Mr. Anderson. I assure you Air Force facility programs have my 
personal attention as I'm watching them close to ensure they support 
the highest mission capability rates and quality of life for our 
airmen. That's what I meant when I said we're accepting ``manageable'' 
risk.
    We built this budget by carefully balancing our facility 
sustainment, restoration, and modernization and MILCON accounts to make 
the most effective use of available funding to support Air Force 
missions. We did this by making a conscious decision to take some risk 
in the MILCON program for the next couple of years. This is not a 
permanent reduction to the program; we just chose to delay some 
facility investment for a few years to help us re-capitalize the 
aircraft fleet. In the meantime, to ensure our facilities did not 
deteriorate to an unacceptable level, we increased funding to our 
restoration and modernization account and funded our facility 
sustainment program to 92 percent of the requirement. This will allow 
us to ``keep our good facilities good'' as we re-capitalize the fleet.

    32. Senator Ensign. Secretary Eastin, are we tracking the 
increasing backlog of facility maintenance and repair requirements in 
order to inform investment decisions?
    Mr. Eastin. The Army tracks the backlog of facility maintenance and 
repair requirements via the Installation Status Report, a system 
designed to improve installation management and decisionmaking by 
providing information on the condition and readiness of facilities, 
infrastructure, and services. Investment decisions are also influenced 
by the Army's operational requirements to restation and reconfigure 
units as a result of BRAC, GDPR, and AMF transformation.
    Strong congressional support for the Army's MILCON and base support 
programs has helped tremendously to offset and decrease the facility 
maintenance backlog.

    33. Senator Ensign. Secretary Eastin, how is each Service assessing 
the risk to readiness and training associated with underfunded facility 
accounts?
    Mr. Eastin. The Army uses the Installation Status Report, portions 
of which are incorporated in the Defense Readiness Reporting System, to 
assess risk to readiness and training in several ways.
    First, ratings for mission support, quality, and quantity provide 
commanders a picture of the health of facilities and infrastructure at 
each installation, both for individual facility types and for a broader 
view of all facilities. The associated quality and quantity improvement 
costs provide a means to quantify funding required to improve facility 
quality to standards and reduce existing facility deficits.
    Second, a more focused facilities assessment on readiness and 
training impacts is rendered by the Commander's Readiness Ratings for 
nine separate facility classes. They are based on the commander's 
experience, judgment, and knowledge of current and future mission 
requirements and take into consideration ratings for mission support, 
quality, and quantity, as well as any other factors the commander 
considers appropriate.
    A C1 readiness rating means facilities fully support primary unit 
missions without limitations to readiness. A C2 rating means facilities 
support the majority of primary unit missions with only minor 
limitations to readiness. A C3 rating means facilities present 
challenges to primary unit missions with impaired mission performance, 
requiring units to establish alternative means to support readiness. A 
C4 rating means facilities present significant challenges to the 
primary unit missions, requiring units to expend considerable 
additional effort to compensate for shortcomings. These considerations 
collectively provide a clear vision of factors which enable commanders 
and the Department of the Army to assess the impact of underfunding on 
readiness and training.

                      REQUEST FOR NEW CONSTRUCTION

    34. Senator Ensign. Secretary Eastin, in your written statement you 
advocate for congressional support for the authorization in 2008 for 
$237 million to construct a new headquarters complex for Southern 
Command (SOUTHCOM) in Miami, FL. The Army is proposing to build this 
complex on land leased from the State of Florida. The lease for part of 
the land will expire in 2015, with four 10-year options upon mutual 
agreement by both parties. The lease requires that the new construction 
must be used for a SOUTHCOM headquarters, or the lease is terminated. 
Finally, upon termination of the lease for any reason, ownership and 
control of the headquarters complex will revert to the State of 
Florida, and the State has the option to require the DOD to tear down 
the headquarters at DOD expense and to restore the land to a pre-
existing condition. The lease also requires SOUTHCOM to grant the State 
of Florida access and inspections rights to any part of the 
headquarters complex, including areas for classified and coalition 
forces operations. Does the Department of the Army or DOD have any 
policy or guidelines for the construction of facilities on land that is 
subject to these types of conditions? If so, please provide.
    Mr. Eastin. Yes, the Army and DOD have general policy for 
construction of facilities where the interest in land is leasehold 
contained in Army Regulation 405-10 (Acquisition of Real Property and 
Interests Therein) and DOD Instruction 4165.71 (Real Property 
Acquisition).

    35. Senator Ensign. Secretary Eastin, does the Department of the 
Army have a precedent for this type of request? If so, please provide 
details.
    Mr. Eastin. Yes, the Department of the Army has leased land for a 
construction project. For instance, the Army leased 20 acres of land 
under a 50-year minimum term at a nominal rental consideration of $1.00 
at the Manhattan Regional Airport, Manhattan, KS. This lease supports a 
fiscal year 2006 Fort Riley, KS, project to construct a $5.5 million 
Deployment Facility Ramp Expansion, which includes an airfield 
operations building, aprons, staging area, and vehicle parking.

    36. Senator Ensign. Secretary Eastin, did the Department of the 
Army ever request an outright deed transfer of the land from the State 
of Florida in order to secure ownership? If so, what was the State's 
response?
    Mr. Eastin. The Department of the Army has not requested an 
outright deed transfer of the land from the State of Florida in order 
to secure ownership. However, USSOUTHCOM has been conducting 
discussions with the State of Florida regarding a deed transfer. Early 
feedback is that the State of Florida may transfer title to the land if 
approved by the State Board of Trustees and if the U.S. Government pays 
fair market value or exchanges land of comparable value.

    37. Senator Ensign. Secretary Anderson, currently, Homestead Air 
Reserve Base (ARB) supports the training and operation of the 482 
Fighter Wing and 24 F-16 Falcons. The Marine Corps recently decided to 
locate USMARSOUTH headquarters at Homestead ARB. I've also heard that 
the Air Force is considering new missions for Homestead, to include the 
stationing of C-130 aircraft and Active-Duty Forces as part of total 
force integration initiatives. Please provide a brief review of the 
current proposals to be considered for Homestead and their status.
    Mr. Anderson. As part of our Total Force Integration effort, 
numerous associations were explored to maximize the utilization of our 
installation and range infrastructure. The Air Force routinely explores 
scenarios as to the viability and effectiveness of the proposals. Some 
proposals advance beyond the concept stage to site surveys and 
opportunities. Others prove not to be viable early in the concept 
exploration stages, often as a result of costs, equipment availability, 
or infrastructure environmental incompatibility. Other non-Air Force 
units exploring locating on Homestead ARB are required to go through a 
site survey approval process to ensure their proposed relocation does 
not interfere with ongoing or planned actions at Homestead ARB. As 
such, there we have no announced proposals for new mission activities 
at Homestead ARB beyond those identified in BRAC 05.
    Turning to the question on the Marines, United Stated Marine Corps 
South (MARFORSOUTH) is currently located in leased facilities in Miami, 
FL. Due to planned demolition of these leased facilities in 2010, 
MARFORSOUTH is evaluating other locations in the Miami vicinity. 
Analyses are still ongoing. The final decision is pending 
determinations of these analyses and other options under consideration.

    38. Senator Ensign. Secretary Anderson, if the Air Force decided to 
station Active-Duty Forces at Homestead ARB, what facilities supporting 
military community services would be required to be constructed at 
Homestead?
    Mr. Anderson. Construction requirements would depend on the number 
of Active-Duty Force that might be assigned to Homestead ARB. No such 
plan is currently being contemplated.

                     TOTAL COSTS TO GROW THE FORCE

    39. Senator Ensign. Secretary Eastin and Secretary Penn, regarding 
the decision to grow the Army by 74,000 personnel and the Marine Corps 
by 27,000 marines over the next 5 years, do you have an estimate of 
total investment required in equipment, facilities, and increased base 
operating expenses to complete the growth for each Service?
    Mr. Eastin. At this time, we are refining estimates for the overall 
cost to Grow the Army (GTA). Once stationing decisions for the six 
additional BCTs are made later this year, we will have greater fidelity 
on the expected costs and can provide an estimate for GTA at that time.
    Mr. Penn. The total estimated fiscal years 2008-2013 cost to grow 
the Marine Corps by 27,000 was initially calculated at $30.8 billion. 
That amount was reflected in our fiscal years 2008-2013 President's 
budget submission. Within that amount, $7.025 billion was for the 
procurement of equipment, $3.230 billion was for MILCON and family 
housing projects, and $620.6 million was for additional base operating 
expenses.

    40. Senator Ensign. Secretary Eastin and Secretary Penn, is the 
Army and Marine Corps planning to address these costs as an increase to 
each Service's top line, or do you anticipate that other existing 
requirements will have to be deferred?
    Mr. Eastin. The Army's top line will increase to accommodate GTA.
    Mr. Penn. The President's decision to increase Marine Corps end 
strength to 202,000 was accompanied by a top line increase of $30.8 
billion across the FYDP (2008-2013).

    41. Senator Ensign. Secretary Eastin and Secretary Penn, what do 
you expect will be the impact to the MILCON account over the next 5 
years in terms of recapitalizing existing deteriorated facilities and 
infrastructure?
    Mr. Eastin. GTA construction funding will provide facilities for 
the incremental increase in the strength of the Army. The Army will 
utilize existing facilities wherever possible and build new facilities 
when mission requirements dictate. While an indirect impact of 
construction will be a general overall improvement in the condition of 
Army facilities, GTA funding will generally not recapitalize existing 
deteriorated facilities and infrastructure. There may be some cases 
where deteriorated infrastructure will have to be replaced or upgraded 
to support construction of new facility complexes, but this will only 
be done on an ``as needed'' basis. If any existing requirements must be 
deferred to fund growth, the existing requirements will be reviewed 
during development of the fiscal years 2010-2015 FYDP. For this reason, 
it is important that the GTA requirements be fully funded.
    Mr. Penn. Many of the projects in the Department of the Navy 
baseline and supplemental requests will recapitalize some of the 
existing deteriorated facilities in anticipation of new marines 
arriving at our installations. As we begin to build new structures in 
2010 and beyond, these new facilities (as they come on line and are 
added to the Marine Corps plant value) will actually increase our 
recapitalization requirements in the future.

    42. Senator Ensign. Secretary Eastin and Secretary Penn, are the 
Services considering the increased use of privatization authorities for 
unaccompanied housing as a tool to address the challenge of a 
constrained budget environment?
    Mr. Eastin. The Army will execute five privatized unaccompanied 
personnel housing projects for single staff sergeants and above. The 
first project at Fort Irwin, CA, includes 200 apartments. The second 
project is at Fort Drum, NY, and includes 180 apartments. The remaining 
three projects are based on the lack of available adequate off-post 
housing for single staff sergeants and above at Fort Bliss, TX; Fort 
Bragg, NC; and Fort Stewart, GA. Apartment quantities at these three 
locations will be determined during the development of the 
privatization plan at each installation. We expect the existing 
Residential Communities Initiative developers to execute these 
projects.
    Mr. Penn. The Marine Corps has no planned unaccompanied housing 
privatization projects. Thus far the unaccompanied housing 
privatization projects have not been cost effective or feasible for the 
Marine Corps. Under current rules, the Marine Corps would be unable to 
assign young single marines to barracks. This would negatively impact 
the unit integrity and unit cohesion that are so important in 
developing the camaraderie essential to unit readiness.

    43. Senator Ensign. Secretary Eastin, does the Department of the 
Army have available land on your military bases in the United States in 
order to support the basing, training, and operations of additional 
combat and support brigades? If not, what plans are underway to satisfy 
the land requirement?
    Mr. Eastin. Analysis being conducted to support upcoming GTA 
stationing decisions include evaluation of installation facilities and 
training resources, particularly maneuver land and range 
sustainability. The Army currently has available space at multiple 
installations to build facilities for additional Army growth combat and 
combat support brigades. From a training perspective, the stationing 
analysis for the six BCTs will include consideration of training land 
and ranges as a significant factor. However, while the Army's 
requirement for training land grows, the capacity of, and accessibility 
to, Army lands is decreasing. There are significant challenges that 
must be actively addressed to sustain Army training readiness. 
Urbanization and urban sprawl, endangered species, and environmental 
restrictions are encroaching on military lands at Army installations.

    44. Senator Ensign. Secretary Penn, does the Department of the Navy 
have available land on your military bases in the United States in 
order to support the basing, training, and operations of additional 
combat and support brigades for the United States Marine Corps?
    Mr. Penn. Yes. The basing, training, and operations of additional 
combat and support brigades will be sited on existing Marine Corps 
installations.

       IMPACT OF CHANGES TO SCORING RULES FOR PRIVATIZED PROJECTS

    45. Senator Ensign. Mr. Grone, according to the August 2005 memo by 
the Office of Management and Budget (OMB), the DOD will be required 
beginning in 2010 to follow traditional scoring rules for approval of 
co-owned limited liability corporation structures for privatization of 
family and unaccompanied military housing. What do you see are the 
near-term and long-term impacts from this guidance on the ability of 
the DOD to use privatization as a tool to address the military housing 
challenges emerging from recent end strength increase initiatives?
    Mr. Grone. In the near-term, the August 2005 OMB memorandum should 
not affect the Department's pursuit of the 2007 goal to eliminate DOD-
owned inadequate housing within the continental United States. New 
projects or modifications to executed projects supporting troop 
increases can be pursued through fiscal year 2010 according to current 
scoring rules provided to DOD by OMB in June 1997. In the long-term, it 
is not clear what impact the limitations will have. The August 2005 OMB 
memo does not define traditional scoring, so if a military Service 
proposes any Military Housing Privatization Initiative projects for 
execution after fiscal year 2010, DOD will seek clarification of 
scoring rules to be applied. In any case, the restriction applies 
primarily to the use of partnerships and would still allow use of lease 
agreements such as those structured in current Air Force projects.

                     BRAC PROPERTY RE-USE POLICIES

    46. Senator Ensign. Mr. Grone, I have a question about the DOD's 
policy related to the proposed use by the local community of land made 
available by the 2005 BRAC round. In your testimony before this 
committee last year, you stated ``The Department will not dictate a re-
use approach to the community. We will not dictate the form of 
disposal. It is a partnership and a collaboration.'' This was good news 
for the committee and the local communities affected by BRAC. But 
recently, the Department of the Army stated in a formal letter signed 
on March 16, 2007, to local communities that ``the Army will select the 
methods of property disposal'' and furthermore ``the Army will employ a 
highest and best use analysis of your redevelopment plans.'' These 
statements seem to contradict your position stated to this committee 
last year. Do you agree?
    Mr. Grone. Regarding the seeming contradiction between the Army's 
letter and the Department's policy, let me clarify that the 
Department's policy is to work in close collaboration with affected 
communities throughout the closure, disposal, and redevelopment 
process. The Department takes great care to ensure Local Redevelopment 
Authorities have information on surplus property for the community's 
consideration in their formulation of a redevelopment plan, including 
data derived through military department site assessments and highest 
and best use studies. At the same time, DOD strives to preserve local 
ownership of the uses identified in these plans and does not subject 
redevelopment plans to any highest and best use analysis. On the 
contrary, the Department views the redevelopment plans as the 
community's foreseeable use of the property and uses it to inform any 
highest and best use analysis of the property. In disposing of surplus 
property, the Department is careful to not preclude any disposal method 
until a redevelopment plan is completed. As part of the NEPA decision, 
the military departments give substantial deference to the Local 
Redevelopment Authority's redevelopment plan and flexibly apply 
disposal methods from our ``mixed tool kit,'' ranging from those that 
may be at no cost or discounted consideration to those that yield fair 
market value to the Department, to be responsive to the Department's 
BRAC and community redevelopment needs.

    47. Senator Ensign. Mr. Grone, has the DOD changed their policy on 
the relationship between the local community and each military 
department regarding proposed use of BRAC property? If so, how?
    Mr. Grone. The Department's policy on the relationship between the 
local community and each military department has not changed from that 
expressed in my prior testimony and the DOD BRAC implementation policy 
guidance contained in the Base Redevelopment and Realignment Manual 
issued March 1, 2006.

    48. Senator Ensign. Secretary Eastin, if a conflict exists, will 
the Army clarify its position in writing? If so, will you ensure that 
this committee is notified of any future guidance provided to local 
communities regarding this matter?
    Mr. Eastin. As the disposal agency, the Army has the responsibility 
of selecting the methods of disposal. However, the Army does give 
substantial deference to the redevelopment plan submitted by the 
redevelopment authority when preparing decision documents. If a 
disposal decision is inconsistent with the approved redevelopment plan, 
the Army will clarify its position to the community in writing. The 
Army is working diligently with local communities to preclude this from 
happening. We will notify the committee of any future guidance provided 
to the local communities regarding this issue.

           SCOPE REDUCTIONS FOR BRAC CONSTRUCTION ACTIVITIES

    49. Senator Ensign. Mr. Grone, in the area of funding for MILCON 
related to the 2005 BRAC round, the military services testified last 
year about a significant shortage of funds planned for BRAC 
construction activities. I note that the 2008 budget request seems to 
address that issue. My concern is that as each military Service 
attempts to keep BRAC construction costs for each project in check, 
they are reducing the scope of construction for each project by as much 
as 40 percent to stay within the pre-determined budget. This 
unacceptable approach will result in realigned units and functions to 
be moved into new facilities that do not meet their requirement and may 
detrimentally affect their mission and operations. Who has the 
responsibility to determine whether the size and capability of a new 
facility built as a result of BRAC decisions will meet mission 
requirements?
    Mr. Grone. The component responsible for implementing a BRAC 
recommendation is also responsible for ensuring that necessary MILCON 
projects are properly sized/scoped to meet mission requirements and 
that it is fully funded and justified in the budget documentation 
provided to Congress. Additionally, the Department continues an 
important oversight role of the Infrastructure Steering Group (ISG). 
This senior group reviews and approves all business plans to ensure the 
Department's resources are effectively applied to implement 
recommendations efficiently and in a manner to ensure the Department's 
missions are supported.

    50. Senator Ensign. Mr. Grone, what is the DOD position or guidance 
on adhering to the project scopes as described in BRAC business plans?
    Mr. Grone. The DOD position is that the responsible component 
should adhere to the scope of a MILCON project as described in the 
approved BRAC business plan. Recognizing that the requirements 
necessary to support the operations of the DOD are fluid, changes to 
project scope may be necessary. Those changes should be evaluated by 
the component business manager assigned to that recommendation and 
forwarded for review and processing for approval along with other 
business plan updates. The Department continues the important oversight 
role of the ISG which reviews and approves all business plans to ensure 
the Department's resources are effectively applied to implement 
recommendations efficiently and in a manner to ensure the Department's 
missions are supported.

    51. Senator Ensign. Mr. Grone, are BRAC 2005 construction projects 
subject to the statutory requirement provided by section 2853 of title 
10, U.S.C., for authorized cost and scope of work variations?
    Mr. Grone. The Department provides congressional notification of 
changes to BRAC 2005 MILCON projects through the annual reporting 
requirements specified in the BRAC Act (Public Law 101-510, as 
amended). Specifically, as directed by Section 2906A(c), the Department 
notifies Congress of any changes to BRAC construction projects, 
explaining the differences between what was included in the budget 
justification material and what actually occurred, with appropriate 
explanation of changes, including changes to cost or scope.

             SUSTAINABLE DESIGN STANDARDS IN DOD FACILITIES

    52. Senator Ensign. Mr. Grone, regarding the concept of sustainable 
design standards incorporated into MILCON projects, Congress is 
currently considering a bill which would require all Federal facilities 
to achieve certain standards for energy efficiency and environmental 
impact as dictated by the Leadership in Energy and Environmental Design 
(LEED) Green Building Rating System, as developed by the U.S. Green 
Building Council. What is the current DOD policy on incorporation of 
LEED standards into MILCON projects?
    Mr. Grone. Department of Defense Instruction (DODI) 4170.11, 
Installation Energy Management, states: ``The DOD components shall 
strive to obtain the U.S. Green Building Council's LEED level of 
performance or equivalent. `` DODI 4170.11 also requires sustainable 
development cost to be documented on DD Form 1391, the form used for 
MILCON projects. Additionally, Executive Order 13423, Strengthening 
Federal Environmental, Energy, and Transportation Management, requires 
new construction and major renovation to comply with the Guiding 
Principles for Federal Leadership in High Performance and Sustainable 
Buildings set forth in the Federal Leadership and High Performance 
Buildings Memorandum of Understanding, which established several energy 
conservation and environmental compliance requirements.

    53. Senator Ensign. Mr. Grone, what is the Department's position on 
the mandatory compliance with LEED standards?
    Mr. Grone. Through DODI 4170.11, Installation Energy Management, 
the Department has established LEED level of performance as the 
standard for new construction.

    54. Senator Ensign. Mr. Grone, what are the costs and benefits 
associated with mandating the standard?
    Mr. Grone. Empirical evidence shows the cost of complying with LEED 
level of performance varies with facility type and location, but in 
general adds 1 to 3 percent to the overall building cost. In return, we 
gain the benefit of a proven industry-based standard for reducing 
energy demand and improving building performance. Evidence shows the 
combined energy and environmental benefits generally cover the costs 
over the life of the facility.

               DOD POLICY ON USE OF TEMPORARY FACILITIES

    55. Senator Ensign. Mr. Grone, I am concerned that the massive 
amount of MILCON required over the next 5 years to support current 
operations, BRAC, Army modularity, the Global Base Posture 
Realignments, and now Grow the Force, will not be constructed in time 
to meet the demand of incoming forces at each affected location. As a 
result, the military departments will turn to the acquisition of 
temporary facilities and trailers as a last minute solution, and once 
we ask our military personnel to live and work in these trailers, 
they'll be forgotten as the Services turn to other priorities. What 
policies and programs can the DOD implement to ensure the minimum use 
of and the quick replacement of temporary facilities with permanent 
construction?
    Mr. Grone. The most important practice is to fully identify the 
need for permanent facilities and program for them as early as 
possible, which is what was done in the Department's rebasing plans 
submitted last year. The Department is prepared to execute those plans. 
When relocatable (or ``temporary'') facilities are required, permanent 
facilities are programmed to replace them as soon as feasible.
    For example, in July 2004 the Army approved 91 temporary buildings 
for an incoming BCT at Fort Drum, NY. Eight MILCON projects have been 
programmed for permanent facilities to replace the temporary buildings. 
Three of these projects were started this fiscal year, three will be 
awarded in fiscal year 2008, and the remaining two are programmed for 
fiscal year 2011. These projects will include all the necessary 
facilities for a complete BCT complex, including brigade headquarters, 
battalion headquarters, company operations facilities, and other 
buildings.

    56. Senator Ensign. Mr. Grone, please provide DOD's definition of a 
temporary facility.
    Mr. Grone. ``Temporary Facility'' is not a defined DOD term. DOD 
uses the term ``relocatable'' to refer to facilities filling a 
temporary need. Relocatable facilities are facilities designed to be 
readily moved, erected, disassembled, stored, and reused.

    57. Senator Ensign. Secretary Eastin, what is the Department of the 
Army's current status and plan to eliminate trailers and other modular 
facilities purchased in the last 4 years to support emerging modularity 
requirements?
    Mr. Eastin. The Army continues to utilize relocatable facilities to 
accommodate modular force transformation. Our strategy is to phase out 
relocatable facilities and replace them with permanent construction. In 
our fiscal year 2007 base budget, we requested funds which Congress 
supported to begin this effort at several of our installations. For the 
fiscal year 2008 budget, the Army is requesting funds to construct 
permanent facilities to continue replacing these relocatable 
facilities, and requesting funds to accommodate Army growth in 
permanent facilities rather than purchasing relocatable facilities.

    58. Senator Ensign. Secretary Eastin, please provide a schedule 
detailing the plan, timing, and costs to replace the temporary 
facilities in the United States acquired in the past 4 years.
    Mr. Eastin. The Army will use a phased approach to replace 
relocatable facilities acquired in the past 4 years as quickly as 
possible within available funding. Later this year, we can provide 
details on the plan, timing, and costs once our analysis is complete, 
but, in essence, we have already begun to construct permanent 
replacement facilities beginning in fiscal year 2007 and will continue 
to request funds in succeeding budgets.

       DOD POLICY ON LOCAL COMMUNITY SUPPORT RELATED TO BRAC 2005

    59. Senator Ensign. Mr. Grone, as the DOD gets into the heart of 
carrying out the decisions of the 2005 BRAC, Congress is seeing an 
increasing call by local communities for assistance related to housing, 
roads, and schools to support those bases that will experience a 
significant increase in their military and civilian populations. Can 
you provide a review on how the Department is handling requests by 
local communities seeking Federal assistance with the construction of 
roads and schools to support incoming personnel?
    Mr. Grone. Upon request from affected State and/or local government 
officials, the Office of Economic Adjustment (OEA) will tailor a 
responsive program of technical and/or financial assistance in light of 
their specific needs and resources. This assistance may include 
organizational staff, growth management planning, and follow-on 
specialized studies: for example, planning for public facilities, 
schools, roads, and other community development initiatives. OEA may 
also coordinate other Federal agency support and participation to 
assist locally.
    As specific needs for assistance are identified for road and/or 
school support, the involved military department and OEA will work with 
the cognizant Federal programs, State, local resources, and private 
sector to develop a responsive program. Generally, each location will 
present a unique situation and a responsive program will likely involve 
Federal, State, local, and sometimes private participation.

    60. Senator Ensign. Mr. Grone, in you opinion, will the 
availability of local housing, roads, and schools in communities 
gaining large populations have an impact on the DOD's schedule and 
implementation of the 2005 BRAC decisions?
    Mr. Grone. The Department intends to meet the statutory deadline of 
September 15, 2011 for BRAC 2005 implementation.

    61. Senator Ensign. Mr. Grone, this committee continues to hear 
complaints from local communities that the Department still cannot 
provide accurate projections for incoming populations and school-age 
children. This uncertainty seriously impacts the ability of local 
communities to plan for and to address the need for schools, roads, and 
support services. What is the DOD doing to address this problem?
    Mr. Grone. The Department is working with the Services to refine 
the timelines and schedules of military, DOD civilian, and associated 
contractor movements to include student projections. The Department, 
through the OEA and the Economic Adjustment Committee, is working to 
link the Services with the Department of Education, Military Community 
and Family Policy (MC&FP), in the Office of the Under Secretary of 
Defense for Personnel and Readiness and local community initiatives so 
those trying to respond to this growth have adequate information on the 
nature, timing, and scope of military growth.
    In November 2006, DOD, through MC&FP, provided a Report on 
Assistance to Local Educational Agencies for Defense Dependents 
Education, which contained student growth projections at continental 
United States (CONUS) installations. An update to this report is due in 
January 2008. In May 2007, the Department, through the Army, provided 
Congress and the Department of Education with an update on CONUS 
military personnel increase projections (student projections included). 
It is anticipated that as projections change DOD will provide both 
Congress and communities the most current information.

     CONSTRUCTION OF OUTLYING LANDING FIELD, WASHINGTON COUNTY, NC

    62. Senator Ensign. Secretary Penn, the Department of the Navy has 
a requirement to acquire land and to construct an OLF on the east coast 
of the United States to support aircraft operations at Naval Air 
Station (NAS) Oceana, VA, and Marine Corps Air Station (MCAS) Cherry 
Point, NC. For the past 4 years, the Department has studied an area in 
Washington County, NC, as the preferred location approximately half way 
between NAS Oceana and MCAS Cherry Point by air. As required by the 
NEPA, an EIS was prepared by the Department to study the impact of a 
new OLF on the local environment and nearby nature preserves in North 
Carolina. This study has been the subject of intense scrutiny and a 
lawsuit, which eventually resulted in a Federal court order to the 
Department of the Navy to expand its scope of the environmental study.
    The Department of the Navy has included in the budget request for 
fiscal year 2008 MILCON funds totaling $10 million to be used to 
acquire land and initiate construction activities. This is the fourth 
year in which the Department has requested funds for this project, and 
in each of those years, Congress has rescinded funds due to the 
inability of the Department to obligate them in a timely manner. What 
is the current status of the Navy's SEIS actions?
    Mr. Penn. The Draft SEIS was released for public comment on 23 Feb 
07. Public hearings have been conducted in each of the six counties in 
Northeastern North Carolina that could be impacted by a final decision 
on the OLF site. At the request of Senator Dole, a seventh public 
hearing will be held in Charlotte, NC, on 17 April. The public comment 
period is scheduled to end on May 9, 2007. The Navy is collating and 
cataloguing the public comments which will be included in the Final 
SEIS along with the Navy's response where appropriate.

    63. Senator Ensign. Secretary Penn, what is the estimated date for 
a release of a record of decision?
    Mr. Penn. The Final SEIS is expected in fall 2007, to be followed 
by a Record of Decision in late 2007.

    64. Senator Ensign. Secretary Penn, what further actions are 
required by the U.S. Government to satisfy the Federal court order and 
to be able to proceed unencumbered with the land acquisition and 
construction of the OLF?
    Mr. Penn. The Navy must complete and publish the Final SEIS and the 
Record of Decision to satisfy the Federal court order. At Record of 
Decision the Navy can advertise for a construction contract and can 
begin to acquire the necessary property interests at the selected OLF 
site unless there is further litigation and an injunction that prevents 
us from proceeding.

    65. Senator Ensign. Secretary Penn, in light of the results of the 
EIS and continued opposition by certain representatives in the local 
community, has the Department given consideration to a reassessment of 
the final location of the OLF? If so, would this reassessment include 
reconsideration of the 2003 decision by the Department of the Navy to 
base eight squadrons of F-18 Superhornets at NAS Oceana and another two 
squadrons at MCAS Cherry Point?
    Mr. Penn. While the Washington County, NC, location remains the 
Navy's preferred site among the five OLF alternative sites in 
Northeastern North Carolina considered in the Final EIS and the draft 
SEIS, the views that have been expressed about those alternatives by 
the citizens of North Carolina and their elected leaders deserve our 
most careful consideration before final decisions are made. If the Navy 
receives new information about additional sites that potentially meet 
our OLF siting requirements, the Navy will consider and evaluate that 
new information and determine whether adjustments in the current SEIS 
process are warranted to enable formal analysis and consideration of 
additional sites under the NEPA.
    There is no plan at this time to reconsider the aircraft homebasing 
decision.

    66. Senator Ensign. Secretary Penn, does NAS Oceana have the 
capability in terms of aircraft parking ramps, hangars, and support 
facilities to be able to accommodate the basing of all 10 F-18 
squadrons? If so, would a revised decision to base all 10 squadrons at 
NAS Oceana expand the range of potential locations for construction of 
a new OLF to meet the training requirements for carrier pilots?
    Mr. Penn. The two F/A-18 E/F Super Hornet squadrons scheduled to be 
homebased at MCAS Cherry Point could be based at NAS Oceana in 
currently available facilities (and will be while facilities at MCAS 
Cherry Point are being upgraded to support these two squadrons), but 
permanent stationing would require additions to two hangars to meet 
recommended Facilities Planning Criteria.
    Siting all 10 F/A-18 E/F Super Hornet squadrons and the Fleet 
Replacement Squadron at NAS Oceana does not expand the range of 
potential locations for construction of a new OLF based on current OLF 
siting criteria. The study area radius around a homebase is based 
primarily upon fuel consumption rates for flights to and from the OLF, 
performing field carrier landing practice, and the required safety 
margin.

                 FUTURE STATUS OF FOB #2, ARLINGTON, VA

    67. Senator Ensign. Mr. Grone, DOD has proposed legislation for 
consideration in the National Defense Authorization Act for Fiscal Year 
2008 that would amend existing law to delay from January 1, 2010, to 
January 1, 2013, the transfer of certain real property to Arlington 
National Cemetery (ANC) that is currently under the control of the 
Washington Headquarters Service (WHS). The property, known as FOB #2, 
contains multiple office buildings currently occupied by military 
tenants displaced by the ongoing renovation of the Pentagon. These 
office buildings are scheduled to be torn down prior to transfer of the 
property to the ANC. The justification accompanying the legislation 
states that ``the proposed change is necessary to take into account 
more recent projections on ANC out-year requirements as well as 
realignments mandated under the BRAC process.'' What projections have 
changed in reference to out-year requirements for ANC that supports the 
delay in the transfer of the property?
    Mr. Grone. The ANC stated they do not require the land prior to 
2014 at that time they will begin to prepare the land for gravesites 
for use in 2020 or later. The Navy currently has 900 occupants in FOB 
#2 which must relocate to the Arlington Service Center. Our request to 
defer this transfer until January 1, 2013 is economically prudent since 
occupants of that building are included in BRAC relocations currently 
programmed to occur in 2011. Demolition of the facility and site 
preparation will occur in 2012 once it is vacated. The Army will 
receive the property from WHS after the buildings are demolished and 
the site is cleaned at which time it will be made available to ANC for 
the use of gravesites. Extension of the transfer date prevents needless 
double moves of Department of the Navy and Missile Defense Agency (MDA) 
relocating under BRAC, as well as hundreds of personnel relocated back 
to the Pentagon upon completion of the Pentagon Renovation in late 
2011. Loss of FOB #2 in 2010 would needlessly cause thousands of 
employees to be temporarily moved at a very high cost.

    68. Senator Ensign. Mr. Grone, which functions and how many 
personnel currently occupy FOB #2?
    Mr. Grone. Current population - 3,464.

------------------------------------------------------------------------
                                                            Population
------------------------------------------------------------------------
Pentagon Force Protection Agency (PFPA) to Pentagon                 225
 (PNT) @ closing of FOB #2.............................
WHS to PNT @ at closing of FOB #2......................              26
MDA BRAC'd to Huntsville, AL and Fort Belvoir..........             838
Marine Corps to PNT (after renovation)/Arlington                    908
 Service Center (ASC) (after BRAC).....................
OSD to PNT after renovation............................              25
Navy to ASC after BRAC.................................             880
------------------------------------------------------------------------

    Functions--Administrative policy/management/manpower for the USN/
USMC.

    69. Senator Ensign. Mr. Grone, since the Pentagon's renovation is 
on track to be completed in December 2010 and BRAC actions are required 
by law to be completed by November 15, 2011, specifically which 
functions and how many personnel are planned to occupy FOB #2 in 2011 
and 2012?
    Mr. Grone. FOB currently has a total population of 3,464, broken 
out by entity as follows: PFPA (225); WHS (26); MDA (1,400); Marine 
Corps (908); Navy (880); and the OSD (25). The Department will relocate 
all entities affected by BRAC by the statutory deadline of September 
15, 2011. The Department will relocate all other entities, upon 
completion of the Pentagon renovation, currently anticipated to occur 
in October 2011. After the completion of both actions, there will no 
longer be any tenants in FOB #2. Demolition of FOB #2 and site 
preparation for the cemetery will occur once the facility is vacated, 
and is expected to take approximately 12-14 months. The departure of 
tenants in September-October 2011 together with the 12-14 month 
demolition and site preparation timeline, generates the requirement to 
retain ownership of the facility until Jan. 1, 2013.

    70. Senator Ensign. Mr. Grone, the DOD justification accompanying 
the request for legislation states that ``in a period of 2 years alone, 
office space at FOB #2 will cost approximately $20 million less than 
the equivalent office space elsewhere in the National Capitol Region.'' 
Exactly how was this estimate developed in terms of estimated lease 
costs and operating costs of the existing buildings?
    Mr. Grone. The cost to relocate personnel, prepare new space, and 
procure furniture for a 2-year period is dramatically more expensive 
than the personnel remaining in FOB #2 until the new space is complete. 
Total program cost comparison is: FOB #2 Option = $113.25 million vs. 
Leased Space Option = $186.4 million. The comparable lease costs were 
calculated by analyzing over 100 current leases which WHS has and 
applying a projected increase in current lease costs based on anti-
terrorism/force protection compliance issues (setback, hardening of 
building, et cetera) and historic inflationary increases. In essence, 
the cost to relocate everyone to more expensive space is far more than 
is currently incurred. Being housed in a federally-owned building 
limits ``rent'' to the cost of operation and maintenance of the 
building. These costs are significantly lower than the rent and General 
Services Administration fees currently paid. In addition, costs 
associated with vacating in 2009 (such as furniture, moving costs, et 
cetera) are estimated to total over $91.7 million that when added to 
the additional rents yield a significant result in unnecessary expense 
to the Department and the taxpayer.

            FAMILY HOUSING FOR U.S. MILITARY FORCES IN KOREA

    71. Senator Ensign. Secretary Eastin, the DOD has proposed 
legislation for consideration in the National Defense Authorization Act 
for Fiscal Year 2008 that would amend existing law to increase the 
amount the Secretary of the Army can pay to lease a house for a 
military family stationed in the Republic of Korea. Currently, the 
Secretary has the authority to lease up to 5,200 housing units in 
Korea. For those units, the Secretary has the authority to pay up to 
$34,481 annually for each unit or approximately $2,873 per month. The 
proposed legislation would permit the Secretary to pay up to $51,824 
per year per house, or $4,319 per month per house for 2,800 of those 
units. The Congressional Budget Office recently determined that this 
provision, if adopted, would have a budget impact equal to $530 million 
in potential additional expenses. Congress previously gave the 
authority to the Secretary of the Army to be able to enter into lease 
agreements for a 15-year time period with the intent that the longer 
period would provide an opportunity to seek a lower annual lease cost. 
We would also anticipate that the Secretary would be able to negotiate 
a lower lease cost per house if soliciting for a large block of housing 
to be constructed on land already owned by the Federal Government, 
which is the plan for new housing in Korea. This committee is also 
aware that a favorable contracting climate in Korea has resulted in the 
MILCON projects we have authorized for Korea over the past 3 years 
being awarded at approximately 60 percent of their planned amount, 
meaning construction costs are relatively cheap right now in Korea. 
With all these factors affecting the potential cost of a lease, why 
does the Department estimate they will need to spend up to $4,319 per 
month per house, which exceeds most monthly mortgage costs for a decent 
house even in this area, one of the most expensive in the country?
    Mr. Eastin. Actually, the leasing authority in Korea at the $34,481 
annual level you mentioned pertains to the 1,175 units authorized at 
the $25,000 lease cap, the substantive majority of which are currently 
encumbered. The proposed legislation is solely for the 2,800 units 
authorized and intended by Congress to provide the leased housing 
required to honor the various agreements between the United States and 
the Republic of Korea. The leased housing will not reside on land owned 
by the United States Federal Government, and every effort will be made 
to ensure the lowest leasing costs under competitive sourcing.
    While it is true that there has been a favorable bidding climate in 
Korea in the past for construction projects funded by Congress, some of 
this can be attributed to the differences between the official exchange 
rate and the market rate of exchange in the time interval between the 
budget request and award. The planned housing is similar to three to 
five bedroom condominium units that include underground parking and 
similar other amenities typically found in condominium common areas. 
The $4,319 per month per house figure you cite is the maximum possible 
for the 2,800 units authorized and includes the base rent, operations, 
utilities, maintenance, taxes, insurance, and management costs. 
Moreover, Army leases in Korea are paid in Korea Won, so the dollar 
cost of these leases rises with dollar depreciation. A weaker dollar 
translates into higher adjustments in the annual lease cap, which is 
determined by a formula under existing statute.

    72. Senator Ensign. Secretary Eastin, in you opinion, is $4,319 per 
month per house an acceptable amount to pay in a build-to-lease (BTL) 
transaction?
    Mr. Eastin. Yes, the figure is acceptable for two reasons. First, 
there has been significant and sustained depreciation of the U.S. 
dollar against the Korean Won since the original authority for the 
$35,000 lease cap was enacted in the National Defense Authorization Act 
for Fiscal Year 2003. The depreciation of the dollar since fiscal year 
2002 has resulted in a reduction of 20 percent in purchasing power. 
Second, the dollar figure incorporates all the costs associated with 
newly constructed housing for Army families including all utilities, 
operations, maintenance, and repair of the facilities over the lease 
term. I want to stress that this is the maximum authorization for this 
housing, and the Army intends to remain under this ceiling. The final 
project costs will be determined by a number of factors, including the 
business conditions of the local Korean real estate market, private 
financing available, the currency exchange rate, and the cost of labor 
and materials.

    73. Senator Ensign. Secretary Eastin, can you briefly summarize 
where the Department of the Army has entered into similar BTL 
arrangements around the world and the costs to the Department of the 
Army for these leases?
    Mr. Eastin. The Army has successfully completed several BTL 
projects in Germany and is finalizing negotiations for a project in 
Italy. However, there are differences between all of the BTL projects 
that affect the cost structure of the leases. These cost structures are 
influenced by local market conditions and the manner in which the 
Status of Forces Agreements in the various theaters are governed. For 
example, besides differences in exchange rates, labor, and materials 
costs, the Germany BTL projects are in rural locations that are not 
expected to see increases in population comparable to Camp Humphreys, 
and the lease is between the owner and the German government with a 
real property obligation document held between Germany and the United 
States. The distinct differences between legal and economic conditions 
worldwide have demanded unique approaches to leasing in overseas 
theaters. The annual costs for the active BTL project at Grafenwoehr, 
Germany, are currently about $21,000 per unit per year.

    74. Senator Ensign. Secretary Eastin, has this government estimate 
been validated by any actual contracting action which would allow the 
market to competitively bid on the lease cost? If not, why not?
    Mr. Eastin. Yes, construction cost estimates based on recently 
constructed Army family housing, as well as market and economic 
analyses, constitute the basis for the requested lease authorization 
for our BTL Army family housing program. We have not competed under 
current authorities because our estimates indicate this program would 
not be financially viable. Further, our timeline to meet our treaty 
obligations is a solicitation during fiscal year 2008 with the first 
units available for occupancy in fiscal year 2010.

                              JOINT BASING

    75. Senator Ensign. Mr. Grone, the 2005 BRAC Commission approved a 
recommendation by the DOD to establish 12 joint bases. This decision 
will result in the consolidation of installation management activities 
at multiple military bases of close proximity to each other in the 
United States. In his written statement for this hearing, Secretary 
Anderson noted that ``The Air Force believes that for the welfare of 
the warfighter and their families that joint basing must be a raging 
success.'' Yet, this committee has received testimony today that the 
Air Force is concerned about the potentially detrimental impact of 
implementing the joint basing decision. Can you describe the intent and 
goals of the DOD in implementing the BRAC decision related to joint 
basing?
    Mr. Grone. The goal is to ensure that the Department fully 
implements the BRAC 2005 Joint Basing recommendations in a way that 
expeditiously achieves the optimal level of long-term savings, while 
preserving or enhancing the Department's warfighting capabilities. 
Currently, the Department is developing guidance to establish a 
comprehensive framework for joint basing implementation to capture and 
continue the most practical savings for DOD through the consolidation 
of installation support functions while meeting mission requirements.

    76. Senator Ensign. Secretary Anderson, can you comment exactly 
what concerns the Air Force has with the intent, goals, and 
implementation of the decision?
    Mr. Anderson. The Air Force is committed to making BRAC and joint 
basing a raging success. However, several joint basing policy elements 
currently under development by OSD run counter to the spirit, 
efficiencies, and costs savings intended under the joint basing 
construct. The Air Force believes total obligation authority and real 
property transfer would serve as a disincentive to cost savings, 
efficiency, and effective execution of customer expectations. 
Installation customers, specifically operational commanders, should 
define the requirements necessary to execute the mission and manage the 
funds to meet their needs, regardless of the activity that executes 
those requirements. The Air Force believes that joint basing provides a 
unique opportunity to actually improve the quality of life for every 
soldier, sailor, airman, and marine, including their families, by 
establishing the highest standards at each joint base.
    The Air Force is very concerned that as we move into the joint 
basing construct, that quality of life and support to the warfighter 
are paramount in this process and that neither is degraded as a result 
of joint basing. In our approach to reach common standards for these 
joint bases, we cannot move to some mediocre level of quality or 
service, but we must strive to either maintain existing high levels or 
improve low levels to a common performance level that supports everyone 
on a joint base, every soldier, sailor, airman, marine, civil servant, 
and most importantly, their families.
    The Air Force will continue to work with the OSD and our sister 
Services to establish policy and guidance to the field that supports 
these goals. We look forward to pressing on with these endeavors and 
developing the anticipated efficiencies and reduction in duplication 
that these consolidations will produce, however, we need to establish 
the common standards first, or this will fail.

    77. Senator Ensign. Secretary Anderson, is your statement that 
joint basing ``must be a raging success'' ultimately determined by the 
impact to the Air Force, or to the entire DOD?
    Mr. Anderson. The Air Force is fully committed to making joint 
basing a raging success in providing quality installation support as 
efficiently as possible. The Air Force has been working diligently with 
the OSD as well as our sister Services in developing policy to 
implement joint basing that will benefit all the installations 
involved, not just the Air Force. Joint basing is an opportunity to 
drive the highest standards that will impact the Air Force and all our 
sister Services . . . every soldier, sailor, airman, and marine as well 
as their families. To ensure joint basing is a raging success, we must 
guard against accepting standards that are least common denominator or 
an average and we must allow the natural tension between customers and 
suppliers to exist by keeping the buying power and ownership with those 
acquiring and needing the services, our commanders.
    The success of joint basing will be ultimately judged based on 
whether we take this opportunity to improve the quality of life of 
every individual who puts on the uniform and their families. At the 
same time, this effort will be evaluated based on whether operational 
commanders retain the ability to impact all inputs necessary to execute 
their assigned mission.

    78. Senator Ensign. Mr. Grone, can you respond to this committee 
what the DOD is doing to address the concerns of the Air Force related 
to this matter?
    Mr. Grone. The OSD has been working closely with all the military 
Services to ensure their concerns are addressed in the development of 
implementation guidance.

               CLOSURE OF WALTER REED ARMY MEDICAL CENTER

    79. Senator Ensign. Mr. Grone, in light of the recent concerns 
about the quality of care at the Walter Reed Army Medical Center in 
Washington, DC, this committee has been reviewing the business plan to 
close Walter Reed as required by the 2005 BRAC round and to establish a 
joint National Medical Center at the current Naval Medical Center in 
Bethesda, MD, and to construct a new community hospital at Fort 
Belvoir, VA. I have substantial concerns that the costs to establish 
fully integrated and state-of-the-art facilities for the new hospital 
complexes are not fully funded within the amounts included in the BRAC 
budget request for fiscal year 2008 and subsequent years. Can you 
confirm whether the Department of the Navy and/or Army has identified 
additional requirements at Bethesda or Fort Belvoir needed to provide a 
state-of-the-art facility to include renovations to existing hospital 
facilities for realigned support functions from Walter Reed? If so, can 
you briefly describe the scope of these requirements and the estimated 
cost of each project to satisfy the requirements?
    Mr. Grone. The Department is in the process of assessing the 
requirements and costs necessary to accelerate the establishment of the 
National Military Medical Center at Bethesda and the community hospital 
at Fort Belvoir. The types of projects and a range of associated costs 
will be provided to Congress after the internal review is completed.

    80. Senator Ensign. Mr. Grone, what is the Department's plan to 
accomplish this work?
    Mr. Grone. As previously noted, the Department is in the process of 
assessing the requirements and costs necessary to accelerate the 
establishment of the National Center at Bethesda and the community 
hospital at Ft. Belvoir. The Corps of Engineers and the Naval 
Facilities Engineering Command have begun to work on the detailed 
planning and contracting activities necessary to execute the 
construction projects associated with these efforts. The Assistant 
Secretary of Defense for Health Affairs and the Departments of the Army 
and Navy are working closely to ensure the projects adhere to the 
accelerated schedule and all necessary funds are available.

    81. Senator Ensign. Mr. Grone, will the work be accomplished prior 
to the final realignment of activities from Walter Reed?
    Mr. Grone. Yes, the work will be accomplished prior to the final 
realignment of activities from Walter Reed.

        SPECIAL OPERATIONS COMMAND AT CANNON AIR FORCE BASE, NM

    82. Senator Ensign. Secretary Anderson, in May 2005 after 2 years 
of thorough analysis and review, the Secretary of Defense forwarded his 
recommendations for base closures and realignments to the 2005 BRAC 
Commission. One of those recommendations was to close Cannon AFB, NM, 
which would have saved the Air Force over $206 million annually and 
over $2.6 billion over the next 20 years. The Commission responded by 
agreeing to close Cannon by 2009 if the Secretary of Defense could not 
find ``other newly-identified'' missions to replace the F-16s currently 
operating out of Cannon AFB. The Secretary of Defense announced in 2006 
that Air Force Special Operations (AFSOC) units would be relocated to 
Cannon AFB. The Air Force did not conduct a formal analysis of 
alternatives of other potential receiving installations, as is done 
with all other Air Force weapon system beddowns. The Air Force is 
currently preparing an EIS to study the environmental impact of basing 
various aircraft and missions associated with the AFSOC mission at 
Cannon and on the Melrose training range. This study does not consider 
alternative locations for AFSOC missions, as most EISs do, but only 
addresses Cannon AFB. If the record of decision for the EIS concludes 
that the introduction of AFSOC aircraft operations at Cannon AFB will 
result in unacceptable impacts to the environment, what is the Air 
Force's plan for Cannon AFB?
    Mr. Anderson. The Air Force is currently preparing an EIS on moving 
an AFSOC mission to Cannon AFB, which should be completed in the fall 
of 2007. If the EIS process finds impacts to the environment that 
cannot be overcome, the Air Force would be compelled under BRAC law to 
either identify another mission for Cannon, or close the base.
    With that being said, and for clarification on the genesis of this 
mission search, I offer the following background information in support 
of the potential AFSOC mission relocation to Cannon AFB.
    AFSOC has desired for some time to base assigned forces in the 
western United States. In support of that effort the command has 
evaluated several bases, finally focusing on both Davis-Monthan AFB and 
Cannon AFB. Site surveys have been conducted at each.
    AFSOC's search for another base began back in the mid-1990s with a 
plan called Commando Vision. This plan looked at several locations in 
the western United States. Unfortunately, the plan could not get enough 
support to implement. Since Commando Vision was originally conceived, 
AFSOC has added 4 AC-130, 9 U-28 (light administrative airlift), medium 
unmanned aerial vehicles (UAVs), 12 MC-130W, and CV-22s to their 
inventory, and they are continuing to grow.
    The relevance of special operations in the war on terror is 
demonstrated in the approximately 30 percent growth in the Special 
Operation Forces (SOF) ground components and the addition of a U.S. 
Marine component to SOCOM. Steps are being taken to ensure SOF airlift 
capability grows commensurate with the other SOF components in order to 
guarantee the level of support they need to conduct operations. A key 
factor is that any additional aircraft and personnel will need a home 
and place to train.
    Also being considered by AFSOC is the implications of the Secretary 
of Defense's global defense posture that could bring OCONUS special 
operation groups based at Kadena AB, Japan, and RAF Mildenhall, U.K., 
back to the United States, which will drive beddown/training 
requirements.
    AFSOC's challenge can be summed up by considering range, ramp, and 
weather conditions at their current location at Hurlburt Field, FL.
    AFSOC's primary range is the Eglin range. This range is saturated 
and cannot support additional training requirements.
    The Hurlburt ramp is also quickly reaching maximum capacity. By 
fiscal year 2008, the ramp will be full. Another limiting factor is 
Hurlburt Field is located in the middle of hurricane alley. There is no 
alternate location to train or operate should Hurlburt be devastated by 
a hurricane.
    As mentioned, AFSOC conducted site surveys at both Davis-Monthan 
AFB, and Cannon AFB. Using Hurlburt Field as a base line, each location 
was evaluated on its ability to support the addition of an AFSOC 
mission, based on the areas highlighted below. Hurlburt is the 
benchmark as it has been a SOF base since AFSOC's inception.
OPSEC
    Ability of base to support low visibility operations with joint/
other customers. SOF prefer to train as far away as possible from the 
general populous to avoid curiosity seekers wanting to see what is 
going on when different looking individuals, aircraft, or vehicles are 
operating nearby. Hurlburt was rated moderately desirable due to its 
location in a relatively remote area of the Florida gulf coast, within 
close proximity to Highway 98. Davis-Monthan was rated least desirable 
due to its location within the Tucson city limits and near a major 
interstate. Cannon was rated most desirable due to its location 8 miles 
from the nearest built up area and its ability to support low 
visibility operations.
Weather
    Number of Visual Flight Rule (VFR) flying days. Hurlburt was rated 
moderately desirable. Both Davis-Monthan and Cannon were rated most 
desirable. Although all three bases have over 300 good days of VFR 
flying weather (Hurlburt = 307, Cannon and Davis-Monthan both over 325 
days), the southeastern United States is plagued by daily thunderstorms 
particularly in the spring/summer. This affects the Hurlburt local 
flying area and along the low-level training routes in Florida, 
Alabama, and Tennessee.
Encroachment
    Proximity of civilian population and possible limitations on day 
and night operations. Population density near a base limits its ability 
to expand as new capabilities or facilities are added to an 
installation. Persons located under the runway flight path or aircraft 
traffic pattern are the first to express their displeasure of aircraft 
operating over their property. This is of course compounded when 
aircraft are operating late at night when people are normally trying to 
sleep. Having a base located away from population minimizes the 
potential noise complaints and allows room to expand the base if 
needed. Hurlburt and Davis-Monthan were rated least desirable due to 
proximity of civilian populace and quiet hour restrictions. Davis-
Monthan AFB observes ACC ``Quiet Hours'' from 2230 to 0600 local time. 
Cannon was rated most desirable due to its remote location and least 
restrictive flying limitations (no quiet hours imposed).
Training/Mission Essential Task List
    Ability to accomplish SOF-unique training requirements. Hurlburt 
was rated moderately desirable due to the competition for range time on 
the Eglin range complex. Davis-Monthan was rated moderately desirable 
because AFSOC forces would have to compete for range priority due to 
the number of customers using the Barry M. Goldwater Range (BMGR). 
Cannon was rated most desirable because AFSOC forces would be replacing 
the 27th Fighter Wing as the primary user and would control usage of 
Melrose range. Melrose/BMGR and the terrain features in the States of 
New Mexico/Arizona provide more efficient training opportunities than 
those found in the Florida panhandle. Training sorties are more 
efficient because of the short distance to training ranges. Although 
approximately 95 percent of the mission training events that are 
required to keep SOF combat ready can be accomplished in very close 
proximity to both Cannon and Davis-Monthan, the Cannon/Melrose 
combination is highly desirable because ability to own a range and to 
be able to lure other SOF components to New Mexico and train with 
Cannon-based units (for hours at a time) vice Cannon-based units 
burning up scarce flying hours to go to someone else's base and conduct 
training on someone else's limited range time.
Community Support
    During site visits, the AFSOC team was received favorably by all 
communities. No differentiation was made between the bases.
Flexibility
    Ability of AFSOC to control operations on the base and local 
ranges. Ownership/control of airspace and range operating hours were 
major factors. Hurlburt and Davis-Monthan were rated moderately 
desirable due to competing with other users for the same airspace/
ranges under AETC/ACC/AFMC control. Cannon was rated most desirable 
because AFSOC would own/control the base and Melrose range.
    Melrose is 70 percent utilized and BMGR is 85-90 percent utilized. 
Approximately 95 percent of the Melrose Range availability is utilized 
by Cannon aircraft. Once the 27th Fighter Wing leaves Cannon, AFSOC at 
Cannon would become the primary user and control all operations on the 
range. This opportunity is highly desirable because controlling the 
range schedule would mean that the range would operate around SOF 
training requirements. This would not be the case in the BMGR. Luke AFB 
range office believes that adding over 100 AFSOC aircraft to Arizona 
would completely saturate the complex. This would put the AFSOC west 
base in the same position that the Hurlburt wing faces today with Eglin 
Range saturation. Additionally, BMGR has only three impact areas that 
can support live munitions expended by over 18 military squadrons in 
Arizona. When given a choice, sharing range priority at BMGR with 
Yurna, Luke, and other Davis-Monthan aircraft is not ideal.
Growth Potential
    Availability of land within or adjacent to the base or range to 
expand the existing base or range complex. Hurlburt and Davis-Monthan 
were rated least desirable because the bases are surrounded by 
geographic features or civilian developments. Cannon was rated most 
desirable due to 400+ undeveloped acres on base and adjacent property 
on three sides of the base to support other growth. Additionally, 
Melrose range could be expanded to support SOF-unique requirements to 
include projected use by joint Special Forces.
Terrain
    Proximity of mountainous terrain to support training. Hurlburt was 
rated moderately desirable due to the distance to/from mountainous 
terrain. Davis-Monthan and Cannon were rated most desirable due to the 
close proximity of mountainous terrain.
Facilities
    Availability of facilities to support projected force structure. 
The force list used to evaluate Davis-Monthan and Cannon were based on 
a smaller force projection because Global SOF Posture hadn't been 
approved as of winter/spring 2006. The final Cannon site survey 
included a more robust force projection (included AFSOC OCONUS forces). 
Hurlburt and Davis-Monthan were rated least desirable due to the lack 
of available facilities and the requirement to build all new 
facilities. Cannon was rated most desirable due the facilities freed up 
by the 27 FW departure.
MILCON
    The QDR move will create a duplicate wing mirroring what is 
currently at Hurlburt. For this reason, the MILCON projection to build 
a similar wing was based on the cost to duplicate the Hurlburt wing's 
Plant Replacement Value (PRV) and then adjusted for available 
facilities and local construction costs. Hurlburt's PRV is $1.1 
billion. Adjusting for increased construction costs in Tucson, the cost 
to build a similar wing at Davis-Monthan is $1.4 billion. At Cannon, 
the cost is $886 million due to available facilities when the 27 FW 
departs.
    In support of the language in the Defense BRAC Report to the 
President, which stated ``seek newly-identified missions . . . for 
possible assignment to Cannon AFB,'' the Air Force used an eight-step 
process to determine the future use of Cannon AFB. During this search 
process, there were six inquiries of interest that were reviewed. AFSOC 
was the only permanent re-use proposal for Cannon AFB received. The 
AFSOC requirement was evaluated by Secretary of the Air Force and 
Secretary of Defense and Cannon AFB was selected to host the AFSOC 
mission.
    In summary, the selection of Cannon was the primary focus of the 
mission search due to the language in the Defense BRAC Report to the 
President, but it was not the only base reviewed by AFSOC for use as a 
west base.

    83. Senator Ensign. Secretary Anderson, the Air Force has announced 
that the AFSOC mission will be established at Cannon AFB starting 
October 1, 2007, and will include the relocation of UAV operations from 
Nevada. What regulations and policies must be followed in order to 
operate an UAV in U.S. airspace and is the Air Force in compliance with 
all laws, policies, and procedures regarding the operation of UAVs at 
Cannon?
    Mr. Anderson. To the maximum extent practical, the DOD conducts UAV 
operations or more commonly referred to as unmanned aircraft system 
(UAS) operations in restricted areas or warning areas. For those 
operations that cannot be contained wholly within restricted areas or 
warning areas, UAS operations are conducted in accordance with 
procedures outlined in FAAO 7610.4, paragraph 12-9-3.
    In general, specific authorization to conduct unmanned aircraft 
operations in the national airspace system outside of active 
restricted, prohibited, or warning area airspace must be requested by 
the proponent. The two methods of approval are either a certificate of 
authorization (COA) or the issuance of a special airworthiness 
certificate. As a public applicant, DOD utilizes the COA process while 
civil applicants must utilize the special airworthiness process. 
Although DOD is allowed to self certify under title 10, U.S.C., under 
the authority of title 49, U.S.C, the Administrator of the Federal 
Aviation Administration (FAA) may inspect, at any time, any operator 
issued a COA or special airworthiness certificate for compliance with 
any provision or limitation specified by this guidance document.
    Unless specifically authorized, UAS operations in non-segregated 
airspace other than Class A airspace would require visual observers, 
either airborne or ground-based. While considerable work is ongoing to 
develop a certifiable ``detect, sense, and avoid'' system, no 
acceptable solution exists. As a result, compliance with the ``see and 
avoid'' aspect of 14 Code of Federal Regulation 91.113, Right-of-Way 
Rules: Except Water Operations, becomes one of the primary issues in 
UAS operational approvals. Alternate methods of compliance are required 
to accomplish the ``see and avoid'' function. An applicant may propose 
any reasonable type of mitigation or system, however, the FAA will 
approve only those UAS flight activities that can demonstrate that the 
proposed operations can be conducted at an acceptable level of safety.
    By summer of 2008, AFSOC plans to conduct MQ-1 Predator and MQ-9 
Reaper operations utilizing new airframes from the production line at 
Cannon AFB and utilize Melrose Range and White Sands Missile Range for 
this training. Because the aircraft will be based out of Cannon AFB, a 
COA for Class D operations will be required and COAs will be required 
to allow the aircraft to transit to/from the ranges.
    AFSOC is actively working prerequisites for the COAs to include 
coordinating with local airspace representatives and base officials to 
ensure that they have captured all the requirements and have solid 
operating procedures and guidance in place. Chase aircraft are planned 
as a mitigation strategy and AFSOC recently held a meeting to explore 
using Civil Air Patrol to provide chase aircraft.

    [Whereupon, at 5:08 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

                READINESS OF UNITED STATES GROUND FORCES

    The subcommittee met, pursuant to notice, at 3:04 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Daniel K. 
Akaka (chairman of the subcommittee) presiding.
    Committee member present: Senator Akaka.
    Majority staff members present: Michael J. McCord, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Derek J. Maurer, minority 
counsel; and Lucian L. Niemeyer, professional staff member.
    Staff assistants present: Micah H. Harris and Benjamin L. 
Rubin.
    Committee members' assistants present: Darcie Tokioka, 
assistant to Senator Akaka; Jon Davey, assistant to Senator 
Bayh; M. Bradford Foley, assistant to Senator Pryor; Todd 
Stiefler, assistant to Senator Sessions; and D'Arcy Grisier, 
assistant to Senator Ensign.

     OPENING STATEMENT OF SENATOR DANIEL K. AKAKA, CHAIRMAN

    Senator Akaka. The Subcommittee on Readiness and Management 
Support will come to order.
    Good afternoon to our witnesses, and welcome to what I 
believe may be one of the most interesting and useful hearings 
we will have on the current readiness of our ground forces.
    My welcome today will be brief, because I want to make the 
most of our time today to ensure that our witnesses can fully 
share with us their observations, insights, and opinions, as 
well as to give our members plenty of time to ask questions.
    I also want to welcome the spouses and members of families 
that we have here today.
    Our committee, and, indeed, the entire Congress, shares the 
concern that our ground forces are under tremendous stress and 
may be on the threshold of breaking. We have watched with 
apprehension as the scope and pace of combat operations over 
the last 5 years in Iraq and Afghanistan have degraded the 
readiness of our Army and Marine Corps. All of our military 
readiness systems are challenged. At the moment, recruiting and 
retention in general are stable, but not assured. Troops and 
their families are enduring multiple and longer separations, 
but not without risk. Equipment is not available to meet all 
unit requirements, and it is wearing out faster than it can be 
repaired or replaced. Training is compromised by equipment 
shortages and compressed time limits to meet accelerated 
deployment schedules.
    This afternoon, we welcome Colonel Michael Beech, U.S. 
Army, Commander of the 4th Brigade, 4th Infantry Division, at 
Fort Hood, TX; Colonel Lewis Craparotta, U.S. Marine Corps, 
Commander of the 1st Marines at Camp Pendleton, CA; and Colonel 
Timothy Orr, Commander, 2nd Brigade, 34th Infantry Division, 
Iowa, Army National Guard.
    In my preparation for today's hearing, I enjoyed learning 
about the inspiring accomplishments of your units. It is 
abundantly clear that your soldiers and marines are proud of 
what they do, and are eager to write another glorious chapter 
in your distinguished histories. When you return to your units, 
in addition to explaining that testifying before the United 
States Senate is really not too painful, please pass to your 
soldiers and marines, and especially their families, how deeply 
we appreciate their service, professionalism, and their 
sacrifice.
    As commanders, today's witnesses are responsible for 
everything that their units do, or fail to do. These officers 
are entrusted with the planning, organization, management, and 
evaluation of their units' preparation for war, and, when 
called upon by the Nation, they must lead their soldiers and 
marines in combat. This is an awesome responsibility for which 
we have the utmost respect and gratitude. We appreciate your 
willingness to help us better understand the challenges of 
executing that responsibility, and we look forward to your 
testimony.
    I want to say that our ranking member, Senator Ensign, is 
not here today, but I know he's here in spirit. He is presently 
on the floor, participating in a bill that's being considered. 
So, as a result, not knowing that was going to happen, he has 
to be there, instead of here, and we'll continue without him. 
Of course, we'll miss him, as he has a deep interest in what 
this committee is doing.
    I'd like each of you to take a moment to very briefly 
introduce your units and what they are doing currently and when 
you expect to deploy next, if that's on the schedule. I would 
ask you that, if you have any family members here, will you 
please introduce them before you give your testimony.
    So, with that, let me call on Colonel Beech, and ask for 
your testimony.

STATEMENT OF COL MICHAEL F. BEECH, USA, COMMANDER, 4TH BRIGADE 
       COMBAT TEAM, 4TH INFANTRY DIVISION, FORT HOOD, TX

    Colonel Beech. Thank you, sir.
    Chairman Akaka, distinguished members of the committee, it 
is my pleasure to appear before you today and give my testimony 
on the readiness of my brigade.
    I entered the Army in 1984, and participated in Operation 
Just Cause, Operation Joint Endeavor, and, most recently, 
Operation Iraqi Freedom (OIF). I currently command the 4th 
Brigade, 4th Infantry Division, and have commanded it since its 
activation in December 2004. I also commanded the brigade for a 
1-year tour in Iraq that just recently ended, this past 
December.
    While in Iraq, my brigade conducted security operations in 
the Rashid district of Baghdad. We were also responsible for 
securing the international zone, and my brigade was responsible 
for training and operating with both Iraqi Army and national 
police units.
    My brigade, the 4th Brigade, is a life-cycle manned unit 
under the Army unit manning system. We are nearing the end of 
our life cycle, and will change out a significant portion of 
our leadership by the end of June. We currently anticipate the 
brigade will redeploy to Iraq sometime within the next year. 
Our brigade is a fully digitized, modernized, and we are a 
modularized heavy-brigade combat team with all the latest of 
Army equipment. We are currently equipped with M1A2 SEP Abrams 
tanks, M2A3 infantry fighting vehicles, and M109A6 Paladin 
howitzers.
    For the past 3 months, my brigade has been focused on reset 
and reconstitution, as we have left the majority of our combat 
equipment in Iraq. We expect to be fully resourced again with 
the majority of our combat systems, come mid-May. These, along 
with thousands of other pieces of equipment that we are 
currently being fielded and issued will be sufficient to 
conduct our training as we prepare and conduct our training 
prior to our redeployment to Iraq. However, until deployed, we 
will continue to have shortfalls in some pieces of equipment 
which could limit our capability if called upon to perform 
other strategic contingencies. If called upon to do so, my 
brigade would require some equipment augmentation or theater-
provided equipment.
    We have also been conducting sustainment training on our 
critical individual tasks as we begin again our training cycle 
in preparation for deployment. This train-up will include crew 
qualification, counterimprovised explosive device training, and 
countersniper training. It will include collective training to 
prepare our combat platoons and our combat companies. Our 
training will culminate with a mission rehearsal exercise at 
the Joint Readiness Training Center (JRTC) at Fort Polk, LA. 
That exercise is currently scheduled for this September. On 
completion of this exercise, I know our brigade will be fully 
prepared to redeploy to Iraq and conduct security and 
counterinsurgency operations.
    Although we have optimized our training cycle to suit 
specific counterinsurgency operations, I believe our training 
strategy is sufficiently broad to support a variety of other 
contingencies. However, if deployed in support of other 
emerging contingencies, I would be concerned with the atrophy 
of some specific tactical skills unique to the higher-intensity 
conflicts. My brigade is currently fully manned, near our full 
authorization of over 3,700 soldiers. I am projected to 
maintain this current level of manning. However, we are also 
going through a significant period of turbulence associated 
with the end of our life cycle, which is in June.
    My most significant personnel challenge is with my new 
junior officers who are to lead my platoons during the ongoing 
crew qualification and the upcoming platoon training, in June. 
We are projected to have these leader shortfalls filled prior 
to our mission rehearsal exercise in September.
    Our soldiers continue to amaze me in their dedication and 
patriotism that we face in this long and difficult war. Many of 
my soldiers are preparing for their second or third year-long 
tour in Iraq. In spite of this, our brigade met all our recent 
retention goals. We met our first-quarter goal, our second-
quarter goal, and we are on target to meet our third-quarter 
retention goal in all categories.
    Recent targeted incentives offered to the population 
specifically in the mid-careerist and the captain level, where 
we're experiencing our biggest challenges on retention, are 
particularly worthwhile investment to the long-term quality of 
our Army. The strength of our Army has always been in our 
sergeants and in our junior officers.
    In conclusion, I'd like to thank this committee for your 
time and interest in the training and welfare of our fine young 
men and women who sacrifice so much for our freedoms. I look 
forward to answering your questions on the combat readiness of 
the 4th Brigade.
    Senator Akaka. Thank you very much, Colonel Beech.
    Colonel Craparotta?

  STATEMENT OF COL. LEWIS A. CRAPAROTTA, USMC, COMMANDER, 1ST 
              MARINE REGIMENT, CAMP PENDLETON, CA

    Colonel Craparotta. Good afternoon, Mr. Chairman. Thank you 
for the opportunity to speak today.
    I currently command the 1st Marines at Camp Pendleton, and 
I took command in June 2006. During the 10 months that I've 
been in command, I've had the opportunity to oversee and 
supervise the training of four subordinate infantry battalions, 
and three of those battalions are currently deployed; the 
fourth will deploy this summer; and the regimental headquarters 
will deploy in December of this year.
    During this period, my headquarters and the subordinate 
battalions have been able to train and to maintain the 
capability to execute our required mission-essential tasks.
    Our number-one priority is to ensure that our marines are 
trained and ready for deployment. Our current schedule, and the 
pace of operations, dictates that we primarily focus our 
training for operations in Iraq.
    Now, the deployment schedule requires us to closely manage 
our training time while ensuring that personnel and equipment 
are in place and available during that same period. So, the 
real task is effectively managing personnel and equipment 
resources in a time-constrained environment.
    In my regiment, we've maintained the ability to provide the 
necessary resources to meet the training requirements. I think 
that our past readiness reporting indicates that fact. I 
believe that the current readiness reporting system has allowed 
us to accurately reflect readiness, based both from a numbers 
and percentages perspective, as well as from an analysis by the 
commanders.
    Our greatest challenge is, and will remain, available 
training time, and, because that time is limited, our training 
will continue to focus on the specific mission in Iraq.
    This has, and will continue to limit our ability to train 
for other operations. For example, we do not have time to send 
units to jungle or mountain warfare training. We have not 
conducted large-scale amphibious training, and we have not 
conducted large-scale, high-intensity, combined-arms exercises.
    The second challenge is manpower. Again, to ensure we have 
the personnel in place at the right time to allow us to 
maximize our training window. Current policies have allowed 
battalions to reach required staffing between 150 and 120 days 
prior to deployment. This allows them to execute the necessary 
training, and then to deploy. I suspect that these policies 
will remain in place and effective in the future.
    My third challenge is equipment availability. Currently, we 
have enough equipment to train at home station, but they're 
somewhat limited, in that each battalion does not have its own 
complete set. Therefore, I'm forced to transfer equipment 
between units to support training. But, again, we have been 
able to support all the necessary requirements, and I expect 
that will continue. In fact, we have a plan to ensure that that 
continues.
    Additionally, ongoing efforts in maintenance, 
recapitalization, redistribution within the division will 
improve equipment availability, as will new fieldings and other 
efforts to replace some of our aging and worn out equipment.
    I will close by saying that we're meeting our current 
requirements. Units that are deploying are trained, manned, and 
equipped for the mission. In some cases, our nondeploying units 
are paying a tax in manpower and equipment while we prepare 
these other units to deploy, but this allows us to meet current 
requirements and focus on marines preparing for combat.
    I believe, as our end strength increases and our deployment 
cycle improves beyond the current one-to-one dwell, we'll begin 
to gain additional flexibility in our scheduling, and we'll 
have more opportunity to train for missions other than Iraq.
    Again, I thank the committee for the opportunity to speak 
today, and I look forward to your questions.
    Senator Akaka. Thank you very much, Colonel Craparotta.
    Colonel Orr?

STATEMENT OF COL TIMOTHY E. ORR, USARNG, COMMANDER, 2ND BRIGADE 
 COMBAT TEAM, 34TH INFANTRY DIVISION, IOWA ARMY NATIONAL GUARD

    Colonel Orr. Good afternoon, Chairman Akaka and 
distinguished members of the subcommittee. On behalf of the 
3,800 soldiers of the 2nd Brigade, 34th Infantry Division, Iowa 
National Guard, I want to thank you for the opportunity to 
address you today and address the readiness of the 2nd Brigade.
    I'm currently the commander, and have been for the last 3 
years, of the brigade. I'm what we call an Active Guard/Reserve 
officer, dual status, also serving as a commander. I'm also the 
Director of Operations, Training, and Mobilization for the Iowa 
National Guard.
    Since 2001, the 2nd Brigade has provided the Nation with 
soldiers and units to fit the mission required. Unlike other 
infantry teams in the Army, the 2nd Brigade has not deployed as 
an entire combat organization. Instead, the brigade deployed 
individual battalions, companies, and select individuals of 
command and staff leaders based on theater requirements. The 
total number of the 2nd Brigade soldiers that have mobilized is 
4,200 soldiers. Over 1,000 of those soldiers have volunteered 
to mobilize more than once, with the brigade and with other 
units within the State of Iowa. Currently, the brigade has 765 
soldiers deployed with the 1st Brigade, 34th Infantry Division, 
in Iraq. These troops mobilized in September 2005. They spent 6 
months at the main operating base (MOB) station at Fort Shelby, 
Mississippi, completed 1 year boots-on-the-ground, and have 
been extended for up to 125 days. By the time these soldiers 
complete their end-of-tour leave, they will have completed 24 
months of continuous Active Duty.
    In addition to this mobilization, we have 48 soldiers and 
leaders mobilizing for the Afghanistan National Army Embedded 
Training Team mission, two battalions for the Kosovo campaign, 
and two companies for Iraq. Within the next 3 months, the 2nd 
Brigade will mobilize over 845 soldiers, and we will demobilize 
765 soldiers. As part of our homeland security mission, the 2nd 
Brigade supported the Midwest snowstorm this past February, 
with over 200 additional soldiers on State Active Duty.
    Despite all these missions and the increased operational 
tempo (OPTEMPO), the 2nd Brigade has been able to exceed its 
enlistment, accessions, and retention goals for the last 3 
years. Much of this success has been credited to the variety of 
State and Federal recruiting, retention, and educational 
incentives that have been offered to our soldiers. However, 
this success has not been without its challenges. The increased 
OPTEMPO and the need to cross-level personnel and equipment 
from nondeploying units to increased readiness of deploying 
units over the last 5 years has resulted in a decline of 
readiness in the brigade.
    We continue to reset units from deployment, conduct 
premobilization training, provide equipment sets for 
postmobilization training, and unit deployment equipment 
packages, while simultaneously maintaining a capability in the 
State to react to homeland missions. Our ability as a brigade 
to perform these missions continues to be degraded by continued 
equipment shortages, substitutions, and the cross-leveling of 
equipment between the State and Nation to support our deploying 
units. These practices hinder our ability of my units to 
conduct premobilization training to standard and add time at 
the mobilization station before deployment. It can also slow 
our ability to respond to disasters and terrorist incidents 
within the State and the region.
    One of the greatest assets of the 2nd Brigade is our 
extremely dedicated full-time workers. That small team of 
Active, Guard, Reserve, and military technicians back in our 
communities look after our soldiers and their families on a 
day-to-day basis. The lack of full-time manning continues to be 
a critical issue for the brigade, and with all of our units, 
which has an adverse effect upon our retention and the quality 
of life for our soldiers and their families. The 2nd Brigade's 
current full-time manning is at 59 percent of the Army-
validated requirement.
    Finally, the current policy on the reintegration of our 
soldiers and their families back from deployment into the 
Reserve status hampers our ability to properly identify and 
meet our soldiers' and their families' postdeployment needs in 
a timely manner.
    Mr. Chairman, the 2nd Brigade continues to answer the call 
of duty. Given the proper amount of resources, training, and 
deployment predictability, we will be able to continue our 
support for our State and our Federal missions while minimizing 
the impacts on our soldiers, their families, and employers.
    I am grateful for this opportunity to address this 
committee today, and I welcome your questions.
    Senator Akaka. Thank you very much, Colonel Orr.
    Before we begin with the questions, I want to introduce a 
group that's here today. We are visited today by a group of 
West Point Cadets from the United States Military Academy, 
Department of Social Sciences. [Applause.]
    Will you please rise, Cadets? Thank you very much.
    We welcome you all, and thank you for your willingness to 
serve our Nation as future Army officers. The witnesses that we 
have today are icons for you, and officers that you can look 
forward to following, because they've served our Nation now for 
a number of years.
    I think all of you have been serving for about 20 years 
already, so, let me ask a question to all of you. Congress has 
consistently expressed concern, as I did in my opening 
statement, over the readiness of forces, deployed and preparing 
to deploy, in support of operations in Iraq and Afghanistan. 
Short dwell time at home station drives compromises in manning, 
training, and equipment that impact unit readiness and increase 
risk. I'm quoting: ``What keeps you awake at night?'' Because 
you are the billpayers, how would you characterize the 
readiness of your units for your mission-essential tasks and 
worldwide deployment? What are the greatest challenges, in 
terms of people, equipment, or training? Please paint for us a 
picture of your units' readiness, without getting into details 
that may be classified?
    Colonel Beech, will you begin, please?
    Colonel Beech. First and foremost, what characterizes the 
readiness of my brigade is the process of reset and 
reconstitution. Right now, my brigade is in the process of 
being issued all our major combat systems, so that is the focus 
of what my brigade is doing. We have not even yet begun the 
full training cycle for our redeployment to Iraq, which will 
happen sometime in the next year. So, right now we're in the 
process of receiving equipment, having change-over in 
personnel, and then we'll begin our training cycle.
    So, as it stands today, my brigade is focused on the reset 
and reconstitution, and that characterizes everything we're 
doing.
    Senator Akaka. Colonel Craparotta?
    Colonel Craparotta. Yes, sir. My experience over the past 
10 months is that we've had the ability to shift manpower, 
personnel, and resources to prepare our forces for combat. 
There is a very short period of time when a unit returns from 
deployment, where we send the marines on leave, giving them an 
opportunity to reunite with their families; during that same 
period, we reconstitute equipment sets. So, within that 7-month 
period, there's 6 months where they have adequate time, 
adequate people, adequate equipment to do the training they 
need for the next rotation.
    Senator Akaka. Colonel Orr?
    Colonel Orr. Sir, our strength in the brigade is personnel. 
We continue to have our citizen soldiers and volunteers step up 
to the plate. Our retention and recruiting--our numbers are 
good. I think our challenge is the equipment piece. Our 
challenge here is that when our soldiers leave the mobilization 
station and go overseas, they're very well-equipped, and 
they're very well-trained. We have this continuing challenge, 
since September 11, as a brigade, that was a non-enhanced 
brigade; we were at about 63 percent of equipment going into 
the current war. We've currently dropped to about 53 percent, 
and a lot of that is because we've transferred equipment within 
the State to support other units. We've also left about 5.7 
million in theater as part of what we call the stay-behind 
equipment, in both Afghanistan and Iraq.
    What's concerning, as a brigade commander, is our ability 
to train. We have four training sets that we're required to 
use, and the first one is, is to train our soldiers to prepare 
for mobilization. We then move into what we call the equipment 
set that we need for the actual mobilization station. They 
train for a series of days with the equipment set that they'll 
actually fight with. Finally and foremost, we train for our 
State mission. The homeland mission, we train with the 
equipment we need for a natural disaster and any kind of 
terrorist incident that we could potentially see in our area.
    I think what's important here, as a brigade, is that 
training with equipment builds confidence, and it's more than 
proficiency, it's their ability to work together as teams and 
to certify our soldiers. My readiness really revolves around my 
ability to train on equipment, and equipment availability, sir.
    Senator Akaka. Thank you.
    To all of you, our soldiers and marines have tremendous 
combat experience, but is that enough? What are your 
observations with regard to the quantity and quality of your 
mid-grade and junior officers, and your quantity and quality of 
noncommissioned officers (NCOs) among your subordinate units? 
Do your officers and NCOs have the education, training, and 
experience necessary to provide the most effective management 
and tactical leadership for their soldiers and marines? What 
steps are you taking to mitigate these challenges?
    Let me begin with Colonel Beech.
    Colonel Beech. Certainly, I have seen no degradation in 
performance or capability of our junior officers and our NCOs. 
The soldiers, those sergeants, lieutenants, and captains that 
are on the streets of Iraq in Baghdad, and Afghanistan, and 
elsewhere, they're where the rubber meets the road in this war 
on terrorism. It is my experience that the soldiers, the 
sergeants, the lieutenants, and captains are performing 
magnificently.
    During our recent deployment, I know our NCOs and our 
officers did everything we asked of them. But the challenge I 
have is for my NCOs and officers, 40 percent of whom who have 
been to Iraq once already and are looking at going back on 
their second or third time, is retaining those mid-grade NCOs 
and those junior officers. They're the future of our Army, and 
they're the decisive element in this war on terrorism.
    Senator Akaka. Colonel Craparotta?
    Colonel Craparotta. Our mid-grade and junior officers, and 
our NCOs, are in the best shape that I have seen them in 24 
years of service. They have combat experience, they're 
educated. We take the time to send them to professional 
military education. I have no indication that any of them, in 
numbers that would differ from generations, are leaving the 
service to do something else, other than serve their country.
    Senator Akaka. Colonel Orr?
    Colonel Orr. Sir, in 29 years of service, I've probably 
worked with the best corps of NCOs, enlisted soldiers, and 
officers that I've ever seen. Not only are they professionals 
in the military, but they're professionals in their civilian 
occupation, and what they do for their communities. We 
currently have 1,000 of the brigade soldiers that have deployed 
two or more times, which is significant in the eyes of the 
quality of folks that we have that continue to step up and 
volunteer to go two, three times. Our retention rate has stayed 
above an 85-percent, which is very significant. It's lower than 
the national average for the National Guard, which is at 18 
percent.
    I think that the significance for our force is the 
education. The majority of my soldiers and leaders are in the 
education field, they're going to get an education, and they're 
taking advantage, and so, we have very highly-qualified 
educated soldiers that I think that, thanks to our State and 
the Federal incentives, are staying with our force and helping 
us through these times.
    Senator Akaka. Each of you have indicated, and have 
mentioned, the word ``retention,'' especially in the middle 
grades. What do you think about retention among our mid-grade, 
junior officers, and NCOs? If you are short in key leaders, 
what impact does that have on your ability to effectively plan, 
organize, and manage your material and training readiness? How 
are you dealing with this kind of challenge on retention?
    Colonel Beech?
    Colonel Beech. The shortage I have in junior officers is 
particularly infantry and armor lieutenants as we go into our 
crew qualification phase in our platoon lanes. I'm confident 
that those shortages we do have in those positions will be 
filled prior to going into our mission rehearsal exercise. So, 
I'm confident we'll be prepared with qualified leaders for our 
deployment. However, during this period right now, what we're 
experiencing is a challenge meeting our retention goals both 
for junior officers and for mid-grade NCOs. Of course, the 
targeted incentives at those populations help us significantly 
to maintain the qualified leaders that we need to conduct our 
training, conduct operations.
    Senator Akaka. Colonel Craparotta?
    Colonel Craparotta. I have not experienced any shortages of 
junior officers or NCOs. My recent first-term re-enlistment 
requirement was raised from 27 to 34 percent of a very small 
population, and we're already at 83 percent of that goal. So, 
retention is not going to be a problem for me, either.
    Senator Akaka. Colonel Orr?
    Colonel Orr. Sir, we continue to maintain our level of the 
senior leaders, both at the junior grade and at the NCO grade. 
I think the challenge for us is our families and employers, and 
that's really where our retention effort helps us carry our 
soldier on to another term of service. Really, what we're 
looking at is, there's a lot of incentives that are currently 
out there that benefit both our enlisted soldiers and our 
officers. However, I do think there needs to be some targeted 
incentives at that senior captain to major level, where we're 
making some decisions at the 20-year mark with their civilian 
career that causes them to make a decision whether they want to 
stay in or they pursue their professional degree as part of 
their civilian career.
    So, I think, overall, we've maintained a fairly solid 
percentage of soldiers that remains in the ranks, both in 
senior-level officer and NCO. I think we're a solid force 
because of their experience.
    Senator Akaka. Equipment has always been a concern. What 
are your general observations about the numbers and state of 
repair of your most important vehicles, weapons, and 
communications systems?
    Colonel Beech?
    Colonel Beech. Sir, the equipment we are receiving now out 
of the Army Reset Program--obviously, we receive equipment from 
many different sources, but I know the equipment that we have 
received thus far has been fully mission-capable. It certainly 
has some deficiencies on some items of equipment that our 
maintenance folks, our technicians, have to repair during the 
process. However, the vehicles that we're receiving now, 
particularly the combat systems--the Bradleys, the tanks, and 
the howitzers, and those issues that are ongoing right now--
they are in better shape than the ones that we received 2\1/2\ 
years ago when we started this process.
    Senator Akaka. Colonel Craparotta?
    Colonel Craparotta. Our equipment is old--certainly, the 
equipment that we have at home station for training. We're 
wearing it out quicker than we have in the past. At this point, 
we have had plenty of, certainly, money for maintenance, and 
we've had no problems maintaining our equipment well above 80 
percent.
    Senator Akaka. Colonel Orr?
    Colonel Orr. We continue to reset equipment coming back 
from theater. We receive that weekly in our State. We're also 
receiving, in the brigade, new equipment fielding, which we've 
seen more new equipment today than we've ever seen in my 
history of being in the brigade.
    I think our challenge becomes the fact that we move 
equipment, though, from the brigade to those units that are 
deploying, as our priority. Our ability to train, and to train 
to standard, is affected by the fact that we're moving 
equipment to cover down on these different deployments as we 
move forces into theater.
    Senator Akaka. I'd like to know a little more about your 
reset programs. What is your experience with your Service's 
equipment reset programs? How much of your unit equipment would 
you say is working its way through the reset system? Or do you 
have visibility on its progress? How would you characterize the 
condition of equipment that comes back to you out of the reset 
system?
    Colonel Beech?
    Colonel Beech. Of course, reset is a complicated process, 
and I want to start out by saying that I left all my major 
combat systems in Iraq--tanks, Bradleys, howitzers, uparmored 
Humvees; that all stayed in Iraq. When I came back to home 
station, of course, there was some equipment that I was able to 
repair and bring back to fully mission-capable status myself. 
Those items that I couldn't do that were turned into a local or 
field reset program. Then, I was issued new equipment from the 
Army Support Command for those systems that I left behind.
    It's been my experience, thus far--and we are still in the 
midst of equipment reconstitution--that the major combat 
systems we're getting from the Army Support Command are in good 
shape; in other words, they're fully mission-capable. Again, 
they do have deficiencies, routine-type of maintenance 
shortfalls on those combat systems, but they are certainly 
shortfalls that we can repair.
    Furthermore, we have been augmented with maintenance 
technicians to help us overcome any deficiencies that we should 
find in the early stages of the training process. So, it has 
been my experience, thus far, within the reset and 
reconstitution program, that it's meeting the requirement, and 
I will be able to meet my predeployment training timeline, as 
we currently have it planned.
    Senator Akaka. Colonel Craparotta?
    Colonel Craparotta. We do not do reset like the Army. When 
my battalions deploy to Iraq, they do not take their equipment 
with them. They fall in on equipment sets in the theater. So, 
the equipment that is left behind, currently two battalion sets 
that I am maintaining, we turn to on that gear with a 
maintenance battalion, and repair it, and we won't have any 
issues having that equipment ready when those battalions return 
to train for the next round of deployments.
    Senator Akaka. Colonel Orr?
    Colonel Orr. Sir, in my brigade, we've done reset through 
the National Guard, and in Maine is where we do the reset for 
our Humvees. We are receiving those back in the State. We're 
receiving those in pretty good quantity, in pretty good shape.
    I think the issue that we have is we continue to leave and 
transfer weapons systems, night-vision systems, from unit to 
unit, we're getting the reset equipment, and we're also getting 
new equipment as part of the transformation effort and the 
equipment modernization. I think our real challenge is the 
individual weapons systems and night-vision systems that we 
pass on to our units that are deploying out the door that pull 
the readiness away from the brigade.
    Senator Akaka. I'd like to ask you about your training. 
With regard to training, what are your general observations 
about the quality of training among your subordinate units? 
What are your greatest challenges regarding individual skills 
and occupational specialty qualification? What are your 
challenges in achieving standards for individual and crew-
served weapons qualifications? What are your challenges in 
providing combat maneuver training for subordinate combat 
units?
    All of these are under training, so let me call on Colonel 
Beech.
    Colonel Beech. Sir, our training that we're currently 
ongoing is primarily individual skills. It's focused on medical 
training and weapons qualification. That's based upon the 
amount of equipping we currently have, because we don't have 
complete combat systems for all our units, because we're still 
in the process of drawing them. We're focused on the individual 
training. As of yet, based upon the reset program, many of our 
small arms, of course, are still in the reset program. So, we 
are doing all the training we can at the individual training 
level until we have all our combat systems. At that point, 
later in June, July, and August, we will begin our training 
cycles that focus on the collective training tasks, and then 
complete our collective training at the JRTC.
    Based upon the current resourcing plan for our materiel, I 
believe that we'll be able to meet our training timelines as we 
prepare to go back to Iraq.
    Senator Akaka. Thank you.
    Colonel Craparotta?
    Colonel Craparotta. As I mentioned earlier, I think our 
biggest challenge is time available to train. That forces us to 
focus specifically on the mission at OIF, in Iraq, and prevents 
us from doing things that we might have done in the past, large 
combined-arms maneuver, and amphibious operations.
    Our entry-level training allows us to integrate new marines 
into our units very effectively. They're well-trained. They get 
a great deal of training on weapons systems that they're going 
to employ, so it's very easy to integrate them. They go 
through, I would say, about 90 to 120 days, starting off with 
basic skills. It's a building-block approach. It's very 
specific. We end with the Service Assessment at Twentynine 
Palms Marine Corps Air Ground Combat Training Center, which we 
call ``Mojave Viper,'' before a unit goes to OIF.
    So, our biggest challenge is time. As I mentioned earlier, 
we're able to address that challenge, and I don't have any 
concerns with integrating new marines and training them for the 
mission at hand.
    Senator Akaka. Thank you.
    Colonel Orr?
    Colonel Orr. Sir, our training focus is what we call 
premobilization training, focused on individual leader. As we 
move through, right now, in a transformation process of what we 
call the ``reduction of postmobilization training,'' we're 
working very close with the Army and the National Guard Bureau 
to push training in the premobilization requirements. Slide it 
to our weekends and our annual training, in order for us to be 
able to maximize time at home, and allow our soldiers to spend 
more time with their families, and less time at the 
mobilization station.
    Our challenge becomes, as we move those tasks to the home 
station for us to train, because we have the quality trainers, 
and we have the facilities--it's the equipment that we need in 
order to be able to do that premobilization training.
    Our biggest challenge is: to train to standard, you have to 
have the proper equipment. As we look at the rapid-fielding 
initiative, we don't see that until we get to the mobilization 
station, and that's important for us to build confidence, 
important for us to be able to train to standard.
    Senator Akaka. On the topic of training, I would like to 
know a little bit more about what you do with headquarters-type 
personnel, as well as support services. What are your 
challenges in getting command-and-control training for your 
headquarters and your subordinate unit headquarter staffs? Do 
you have challenges getting the appropriate training for your 
support personnel and units?
    Colonel Beech?
    Colonel Beech. Sir, the biggest effect on training my 
battalion and brigade headquarters is the personnel turbulence 
that is currently undergoing, and will go through the end of 
June and into July. Of course, we are a life-cycle unit. The 
end of our life cycle is in June. We'll see the changes of 
command of all six of my battalions and the brigade 
headquarters. We've seen a significant personnel turbulence in 
our field-grade ranks, those staff officers, those majors at 
the battalion and brigade level. So, the personnel turbulence 
associated with the end of my life cycle, which is in mid-June, 
is the primary detractor from battalion and brigade 
headquarters training proficiency. Of course, that'll be 
resolved once the new officers come in to take command of these 
units, and the new officers are assigned to the staff position.
    Likewise, from an equipment perspective, our command-post 
fielding, those command-and-control mechanisms that the brigade 
uses to operate its six battalions, and those command posts for 
the six battalions, will be out of the reset program and be 
fielded to my units beginning in May and, again, complete in 
June. Of course, the primary training exercise to get after 
that is the JRTC mission rehearsal exercise, as well as some 
intermediate-level command-post exercises at Fort Hood.
    From a support capability, we are just now receiving our 
wheeled vehicle fleet, and we'll have sufficient light-, 
medium-, and heavy-wheeled vehicles to conduct our training. We 
will not have all the medium- and heavy-wheeled vehicles we are 
authorized, but we will have enough to conduct our training.
    For my brigade at Fort Hood, the medium- and heavy-wheeled 
vehicles we have are all light-skinned vehicles. There is a 
small training set of armored vehicles that we can use to 
conduct driver's training, but, by and large, the entire set of 
equipment that I'll be training with is light-skinned vehicles.
    Senator Akaka. Colonel Craparotta?
    Colonel Craparotta. Really, my headquarters goes along two 
tracks. One is, as I mentioned earlier, to prepare the 
battalions for deployment. The other is to prepare the 
regimental headquarters. The current construct, we have our 
operations center in place. The newest unit-operations center 
was fielded to us in January. Currently, the headquarters is in 
the field, conducting the second in a series of exercises. The 
headquarters will be fully manned by June of this year, which 
is 6 months prior to deployment. We'll have no problem getting 
in training that we need on the systems that we'll use in 
theater. We'll have all the people in place in order to do that 
training.
    Senator Akaka. Colonel Orr?
    Colonel Orr. Sir, I have a unique challenge, in the fact 
that, since the beginning of my command time, I've deployed 
individual units, and our priority has been to push leaders and 
key members of the staff down to be able to support those units 
that are deploying. What this causes me is a shortfall at the 
brigade headquarters in the ability to do what we would call 
collective staff training.
    Now, that being said, the officers I do have I've put 
through the schooling system, the total Army schooling system. 
They're qualified in the level that they're expected to perform 
at. The other piece that's significant here is, in this last 
deployment, as we're currently preparing, I've sent three teams 
of Afghan National Army Embedded Training Teams out, and that 
pretty much takes the majority of my staff and any senior 
leader that I have remaining in the brigade as we move into 
this deployment year for the brigade. There's not much left at 
the brigade headquarters for me to be able to do a collective-
level training, though we still assist the units, and their 
preparation is our priority.
    Senator Akaka. Congress is concerned that the low levels of 
readiness in our National Guard is handing the States 
additional risks of public safety. The lack of equipment leaves 
the States very concerned about the Guard's ability to respond 
to domestic contingencies and emergencies.
    Colonel Orr, how do you report to the National Guard Bureau 
of the Department of the Army the readiness of your unit for 
their domestic support missions? How does Iowa measure and 
monitor the readiness of your unit for your domestic support 
missions? What are you doing to try to manage your readiness to 
meet your domestic support missions and reduce risks to public 
safety for your State?
    Colonel Orr. Sir, unlike my wartime mission, we take our 
State mission and the homeland defense mission as a State 
mission. So, we collectively monitor the 10 key areas of 
equipment that we are required to be able to respond, whether 
it's communications vehicles, water capability, or aircraft. 
But we monitor that at the State level, and we report it at the 
State level through our Joint Force Headquarters. So, I don't 
report it as strictly a brigade level, but it's a State-level 
reporting system that we use through the Joint Force 
Headquarters that reflects our ability to respond to the State 
emergencies.
    Just like in February, with the State emergency we had with 
the winter storms, though I'm missing equipment and I have 
equipment that's overseas, we, collectively, had to pull 
together, within the State, the equipment needed for the 
brigade to be able to go out and accomplish the highway-assist 
mission and some of the cordon-and-searches we did within our 
communities. But we still have a shortfall of equipment, and we 
still have a need that requires us to pull that equipment 
together in a collective effort.
    Senator Akaka. Each of you report the current readiness of 
your units using the Global Status of Resources and Training 
Systems. We have seen reports of units, not yours, in which 
they have the lowest objective rating for equipment or 
personnel. But a commander somewhere in the chain, and within 
their authority, has subjectively upgraded the unit to the 
highest rating. How has each of you personally used this 
authority over time? What analysis or criteria do you use in 
the application of your professional judgment? What, in your 
views, are the strengths and the weaknesses of this readiness 
reporting system? That is, what is it about this system that 
gives you confidence or frustrates you in communicating your 
evaluation of the readiness of your command up the chain?
    Colonel Beech?
    Colonel Beech. I think the biggest advantage of the current 
reporting system that I find useful as a commander is the 
qualitative narrative statements that I communicate to the Army 
staff and my higher headquarters, my division commander, every 
month. As I put in what I think are the biggest challenges that 
I have, in a narrative format, I always see feedback, not only 
from my division commander and his staff, but, on occasion, I 
have gotten calls from the Army staff directly to my brigade 
looking at ways to help or improve the readiness of my unit, 
particularly as it applies to personnel and readiness. So, 
those qualitative comments that I write in there, myself, every 
month, I find very useful.
    Less useful in the readiness reporting, on occasion, is the 
quantitative personnel reporting, because in that reporting, 
there are often hidden personnel issues, as I send NCOs off to 
schools for, say, recruiting or drill-sergeant schools, those 
key leaders might still be assigned to my unit, but they're not 
available to me to deploy, making me look more healthy than I 
actually am in personnel. So, those are the types of challenges 
that we see with the reporting. How I overcome any kind of 
hidden issues with the quantitative reporting, I address 
through my commander's narrative to the Army staff.
    Senator Akaka. Colonel Craparotta?
    Colonel Craparotta. I think the strength of the system is 
that you balance numbers and percentages with the commander's 
assessment. As Colonel Beech stated, the commander's assessment 
and those narrative comments are what gets read by our 
commanders up the chain, it's what I review specifically from 
my subordinate commanders, but it's a balance between those 
comments and what the percentages and the numbers are telling 
you that is the strength of the system.
    Senator Akaka. Colonel Orr?
    Colonel Orr. Sir, I report quarterly from the brigade and 
the State perspective. I believe that the system we currently 
use is much better than the old system that we replaced within 
the last year. I think that the commander's card accurately 
reflects the strengths and weaknesses in my organization and my 
ability to support the full-spectrum operation brigade.
    There's two challenges that I have, and the first one deals 
with equipment, predominantly focusing on the substitution in 
the Unit Status Report (USR). Though I have equipment on hand, 
and it may be old equipment that's outdated that continues to 
be on our inventory, we're allowed to substitute that for new 
equipment, which doesn't truly reflect our true readiness and 
the ability to go do our full-spectrum mission. The other 
challenge that I have is not within the USR system, but how we 
reflect the data higher. That is a transmission line called a 
Secure Internet Protocol Route (SIPR) line, which is a secure 
line that allows us to send our information forward. When you 
look at Fort Iowa, and we're spread out among all the 
communities, I have organizations 3 to 4 or 5 hours away from 
the headquarters, I don't have the capability to transmit the 
data. It's a significant problem, not just within our State, 
but across the National Guard, in the fact that the 
infrastructure and the dollars are not there to provide the 
SIPR lines. For us, that takes time, and it takes a lot of 
energy in order to report that data forward.
    Senator Akaka. Colonel Beech, Secretary Gates recently 
announced that Active-Duty Army combat tours would be extended 
from 12 months to 15 months. How were the families of your 
brigade informed of this decision? Did you, or they, know this 
before the Secretary of Defense announced it in a press 
conference?
    Colonel Beech. No, sir. We learned of this when the 
Secretary of Defense made the announcement. Of course, that was 
followed up widely in the media, even out there at Fort Hood, 
TX. Of course, we've been communicating with our junior leaders 
ever since. That has not specifically changed the situation for 
my brigade, as of yet, and we're waiting to see what the 
impacts of that might be. But we're currently proceeding along 
our training and preparation original timelines.
    Senator Akaka. Colonel Beech, how is this impacting the 
morale of the families of your brigade? Has the Army or you put 
any special programs in place to address the family issues this 
unanticipated combat tour extension is sure to create?
    Colonel Beech. Right now, sir, we do not have a deployment 
date, although we expect to deploy sometime in the next year. 
So, we're anticipating what the results might be of these unit 
extensions. For my particular families, what this means is that 
we may have a year or more dwell time at home between 
rotations. What was challenging to my brigade, as about 40 
percent of my junior officers and NCOs have just completed 
their second tour, looking at their third tour, any short-term 
turns back to Iraq in less than a year would be very difficult 
on our families. So, the soldiers are looking forward to the 
prospect of having additional time at home.
    Senator Akaka. Colonel Orr, until recently involuntarily 
mobilizations of National Guard and Reserve personnel were 
limited to 24 cumulative months. Recently, the Secretary of 
Defense changed this policy to limit each mobilization to 12 
months, but removed the 24-cumulative-month limitation. As a 
result, National Guard and Reserve units who have already 
served their complete tour are being mobilized again. How do 
the families of your brigade feel about this change in policy? 
Do you think it will have an impact on your soldiers' civilian 
employment?
    Colonel Orr. From the brigade's perspective, we have nobody 
that's currently being remobilized under that new policy. The 
folks that we currently are sending out to the MOB stations, 
we've known for approximately a year, year and a half, of their 
deployment. We do have units within the State, outside of the 
brigade, that fall into that category. I think that there's 
always that issue, dealing with families and employers, when we 
turn around and we send a unit back-to-back, but I think what's 
probably more important here is what I would call--is the 
deployment cycle support, and that is, is the ability, when we 
bring soldiers home, to reset them, and their families and 
their employers, for the potential next deployment. I think 
there's some work that we need to do, as an organization and as 
a State, to help facilitate that. The current policy, the 
hands-off policy, eliminates us from being able to voluntarily 
get to our soldiers, upon return home from mobilization, for 90 
days. We're finding that the problems that are surfacing from 
deployments, whether medical, physical, psychological, family, 
occur between the time they take leave from returning from 
deployment, to about that 90-day window. Compound that, along 
with the fact that we're spread over, in my case, a battalion's 
worth of 211 communities, we have some unique challenges there 
to communicate with our soldiers. It's important that we have a 
reintegration process very similar to Colonel Beech, 4th 
Infantry Division, and the Active Army, where we're able to 
bring the families, the soldiers, in sooner, and have funding 
that can support that, so we can do a reintegration and take 
care of their physical and family needs prior to finding about 
it 90 days later, and when they return back to duty.
    Senator Akaka. Colonel Orr, do you think that we need new 
or different programs for families of National Guard personnel 
who are mobilized a second time?
    Colonel Orr. Sir, I think that, in dealing with the 
families, we have a pretty solid family support program, as 
long as we continue to fund our family support personnel, and 
that we continue the support programs that are there. I think, 
as I mentioned in my earlier statement, the challenge becomes, 
for us, is the hands-off policy in the reintegration of our 
families. Many of the States--specifically, Minnesota, went out 
for the 1st Brigade that--to include some of the soldiers from 
my battalion that belong with them--they were extended for 125 
days. They've worked very hard with their congressional folks 
to receive additional funding in order to be able to support a 
reintegration program that engages the families, prior to the 
soldiers arriving, and then, through a series of engagements 
after the soldier and their families come home. I think that 
really is the key for us to maintain readiness, retention, and 
really take care of our families and the employers, that early 
engagement with our soldiers and their families.
    Senator Akaka. I want to thank you, Colonel Beech, Colonel 
Craparotta, and Colonel Orr, for your thoughtful and frank 
testimony today. As I expected, this has been an interesting 
and very useful hearing. Although your units face serious 
readiness challenges, we can see that you are trying to deal 
with them in a realistic and creative way. You have given us 
much to think about as we consider how best to support you, 
your soldiers and marines, and your families in this year's 
National Defense Authorization Bill. So, all of this 
information you've given us will help us do that.
    I want to tell you that we are proud of you. We are proud 
of what you're doing and proud of your soldiers and marines and 
what they're doing for our country. These training programs are 
so important to prepare them for whatever the mission will be. 
So, the effort here is to try to learn what is there, the 
status of training at this point. You have given that to us, 
and we hope we can then prepare the proper National Defense 
Authorization Bill that will help you continue to do the good 
job that you're doing with your brigades.
    So, with that, I want to say thank you so much, again, for 
being here today, and I want to also extend that to your 
families and to all the soldiers and marines that you command. 
So, thank you very much.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Mark Pryor

                                TRAINING

    1. Senator Pryor. Colonel Beech, Colonel Craparotta, and Colonel 
Orr, how adequate is your training for convoy operations?
    Colonel Beech. Before the end of this fiscal year every one of my 
platoons will have completed a very detailed and deliberate train-up on 
convoy procedures, counter-improvised explosive device (IED) 
operations, counter ambush, and medical treatment and evacuation. In 
June and July, all of our platoons will execute a basic-level IED 
identification and reaction course where they will drive a route in 
convoy and attempt to identify and react to IEDs similar to those found 
in theater. Following this, platoons will move to a more complex 
situational training exercise where they will have to react to enemy 
snipers, more sophisticated IEDs, and a complex enemy ambush. Platoons 
will be externally evaluated in this exercise and will have to deal 
with local civilians and treat and evacuate wounded personnel. In order 
to familiarize soldiers with the unique challenges of operating in a 
dense urban environment, we will require every platoon to conduct a 
convoy operation (unarmed) through the traffic in our surrounding 
communities. This will teach convoy leaders how to maintain cohesion 
and communications in a high traffic environment and how to treat 
locals appropriately while maintaining force protection. Our logistics 
patrols have a unique burden in Iraq given the nature of the threat and 
will receive additional training. In July we will conduct a series of 
convoy live-fire exercises for each one of the logistics elements in 
this brigade. This scenario will build on the force-on-force exercises 
in June but employ live ammunition. Logistics convoys will have to 
respond to a series of threats first while stationary and then on the 
move. They will have to develop methods to synchronize and distribute 
their fires, discriminate between hostile and non-hostile targets, and 
take all the appropriate safety precautions inherent in live-fire 
training. Finally, prior to deployment every soldier who will occupy 
the commander's or gunner's seat in a combat vehicle in Iraq will be 
required to qualify in a series of externally evaluated live-fire 
gunnery tables on the type of vehicle that he will operate in Iraq.
    Our greatest challenge in the training of convoy operations is the 
lack of uparmored M1114 HMMWVs at home station because of the demand in 
theater. I currently do not have any uparmored trucks of any kind in my 
brigade. The M1025 Scout HMMWV is our surrogate vehicle for training 
purposes but lacks the weight and other characteristics to adequately 
replicate driving this armored truck. The shortage of M1025 and M1026 
HMMWVs also limits crew training and qualification. In my brigade we 
have attempted to mitigate this by pooling and rotating a training 
fleet of M1025s among units to accomplish required predeployment 
training.
    Colonel Craparotta. Marine Corps convoy operations training is 
sufficient for the current operating environment. Marines receive the 
level of convoy operations training commensurate with their deployment 
assignment. In our Pre-deployment Training Plan (PTP) block approach, 
all marines deploying to the Central Command (CENTCOM) theater, 
regardless of assignment, are required to receive Blocks I and II 
training which include driver and convoy operations training. Blocks 
III and IV contain unit-specific convoy operations training.
    The training and education continuum begins with entry level 
training and ascends through formal schools, home station, professional 
military education, and culminates with a final exercise such as Mojave 
Viper, Desert Talon, or Mountain Warrior. This ascending-levels-of-
competency approach allows marines of all ranks to be trained at the 
right level, at the right time, and the right place. This further 
provides a disciplined approach to studying, thinking, and discussing 
the profession of arms. The threading of convoy operations training 
throughout the continuum ensures that all marines will be well-prepared 
for the types of challenges they may face.
    Finally, a rapid, continuous lessons-learned process ensures the 
latest enemy and friendly tactics, techniques, and procedures are used 
in training. Above all, the Marine Corps takes pride in ensuring much 
of the individual training, and virtually all unit training, is 
conducted with the oversight of combat experienced NCOs and Officers.
Additional Information:
         Block I: Mandatory for all deploying marines, this block is 
        conducted at home station to establish mastery of basic 
        warfighting skills. These skills include:

                 Enhanced Marksmanship Package
                 Common Combat Skills
                 Annual Training Requirements (Physical Fitness Test, 
                Gas Chamber, Swim Qualification and Rifle Range)
                 Military Occupational Specialty Proficiency Skills
                 Incidental Driver Training
                 Vehicle Familiarization and Preventive Maintenance
                 Immediate Action Drills
                 Basic Driver Skills
                 Crew-served Weapons Training
                 Weapons Assembly/Disassembly and Maintenance
                 Weapons Loading, Unloading, and Immediate Action

         Block II: Mandatory for all deploying marines, this block is 
        conducted at home station with a focus on current operating 
        environment skills. This training includes:

                 Marksmanship
                 Improvised Explosive Devices-Defeat
                 Motorized Operations
                 Urban Tactics Techniques and Procedures Orientation
                 Vehicle Control Point/Entry Control Point/Escalation 
                Of Force/Law Of War
                 Pre-combat Actions
                 Aspects of Culture
                 Fixed Site Security
                 First Aid
                 High Risk of Capture

         Block III: Focused training for combat support units with the 
        following tasks in their Mission Essential Task List (METL) 
        (these are collective tasks, usually involving convoy 
        operations, conducted at service level training events):

                 Conduct Defensive Actions
                 Conduct Relief in Place
                 Forward-deploy Units
                 Conduct Intelligence Operations
                 Perform Logistics and Combat Service Support (CSS)
                 Exercise Command and Control
                 Protect the Force
                 Conduct Civil Military Operations (CMO) in the Joint 
                Operating Area (JOA)
                 Train Forces and Personnel

         Block IV: For ground combat elements, combat aircrews, and 
        those that will be exposed to hostile action on a recurring 
        basis. This block is conducted at service level training 
        events. These units will typically have the following tasks in 
        their METL:

                 Conduct Offensive Action
                 Control or Dominate an Operationally Significant Area
                 Clear Enemy Forces from an Area
                 Conduct Defensive Action
                 Conduct Relief in Place
                 Interdict an Area or Route
                 Forward Deploy Units
                 Conduct Intelligence Operations
                 Provide Fires in Support of Maneuver
                 Perform Logistics and CSS
                 Exercise Command and Control
                 Protect the Force
                 Conduct CMO in JOA
                 Train Forces and Personnel

    Training culminates in a full-scale, intelligence-driven, 
controlled, and evaluated mission rehearsal exercise conducted at 
Twentynine Palms, Bridgeport, Yuma, or a joint venue.
    Colonel Orr. Convoy operation training is integrated into both our 
weekend and annual training requirements. The requirement is for every 
soldier to complete convoy operation training within an 18-month cycle 
of weekend and annual training events. Every unit conducts a minimum of 
two 8-hour convoys annually as they travel to their annual training 
site. Once we get to the annual training site, I require every soldier 
in the brigade to participate in a live-fire convoy lane as part of 
their annual training program. Within this training program, every 
soldier is qualified on individual and crew served weapons, has 
completed advance weapons marksmanship, and completed numerous 
iterations of convoy training in a crawl, walk, and run methodology. In 
addition, my units will conduct numerous convoys throughout the 2 weeks 
as they conduct combat and logistics operations. My greatest challenge 
is the lack of equipment to train my soldiers to standard. Many times, 
I am forced to train my soldiers on a convoy lane without the proper 
individual weapons, vehicles, and crew served weapons. I can train 
soldiers and give them some experience, but once they get overseas, 
they will usually have to retrain with the updated equipment and 
vehicles.

    2. Senator Pryor. Colonel Beech, Colonel Craparotta, and Colonel 
Orr, how are you training to identify and defeat IEDs?
    Colonel Beech. As I stated above, IED identification and reaction 
are two of the most basic and important individual skills that we will 
train prior to redeployment to theater. The 4th Infantry Division has 
invested a great deal of resources into developing appropriate training 
lanes that teach soldiers how to detect, avoid, and respond to IED 
threats. I have added the completion of this IED lane to our routine 
gunnery certification requirement so that it receives the attention 
that it deserves from every vehicle crew in the brigade.
    We are enrolling many of our mid-level noncommissioned officers 
(NCOs) from my two engineer companies into the Route Reconnaissance and 
Clearance Operators Course (R2C2) taught at the Engineer School in Fort 
Leonard Wood, MO. This course teaches NCOs the fundamentals of counter-
IED and route clearance operations using the latest techniques that are 
being developed in theater.
    Like convoy operations, our biggest challenge with respect to 
counter-IED training comes down to a shortage of equipment at home 
station. The Army has fielded some exceptional and specialized route 
clearance equipment in Iraq including the Buffalo, RG-31, and Husky. 
Unfortunately, due to resource limitations, these vehicles are not 
available for home station training. Route clearance platoons will 
receive a 2-week block of instruction in Iraq on this equipment once we 
arrive but we will be unable to incorporate these critical tools into 
our home station train-up and mission rehearsal exercise.
    Colonel Craparotta. To ensure all marines receive appropriate 
training prior to deploying to theaters of operations and potential 
combat operations, the Commandant of the Marine Corps established the 
U.S. Marine Corps PTP in 2006. Within the PTP, unit commanders build on 
the individual and collective IED-defeat (IED-D) skills learned in the 
institutional training domain. The hallmark of IED-D training within 
this domain is the ability of the marine and leader to apply those 
previously learned individual and collective task skills in 
increasingly more complex scenarios and situations. This integrated, 
building-block approach incorporates the traditional crawl/walk/run 
methodology to create marines, leaders, and units capable of defeating 
an insurgent IED system and mitigating its effects on operations. This 
training progression starts with home station training and culminates 
with a Mission Rehearsal Exercise at the Marine Air Ground Task Force 
Training Command, Twentynine Palms, CA, or at an approved alternate 
training venue.
    The training and education continuum provides the strong foundation 
upon which individual marines and units develop tactics, techniques, 
and procedures to defeat the evolving IED threat. These tasks include 
both common combat and military occupational specialty-specific 
individual and collective skills. We are currently developing the 
standardized master lesson files (MLF) to cover all common IED-D 
individual and collective skills, and will update these with the 
evolving threat.

         MLF 1: recognition of IED indicators, reaction to a suspected 
        IED, and reaction to an IED detonation.
         MLF 2: small unit leader training in mounted and dismounted 
        movement in an IED threat environment, including actions to 
        predict, avoid, and protect against various IED threats.
         MLF 3: operation and employment of the new counter radio-
        controlled IED electronic warfare devices/systems, and an 
        introduction to the fundamentals of ground electronic warfare.
         MLF 4: staff actions for planning, preparing, and executing 
        counterinsurgency operations where IEDs are the enemy's weapon 
        of choice. Staff actions include terrain visualization, 
        predictive analysis, site exploitation, ground EW operations, 
        integrating joint IED enablers, and enemy network surveillance 
        and targeting.

    Lastly, in conjunction with the Joint IED-D Organization, we will 
continue to explore every avenue of defeating IEDs through the paradigm 
of Defeat the System, Defeat the Device, and Train the Force.
    Colonel Orr. IED training is integrated into both our weekend and 
annual training requirements. The requirement is for every soldier to 
complete IED training within an 18-month cycle of weekend and annual 
training events. I have procured a variety of IED simulators that can 
be used by the units to integrate into their training lanes. I have 
created a new assignment in the BCT Headquaters and every battalion 
headquarters for an IED Master Gunner. This person attends a series of 
training courses at Fort Leonard Wood on IEDs and the proper methods of 
identifying and defeating IEDs. They come back to the unit and become 
the IED expert for their units. However, because of how the enemy is 
always changing their tactics, most of the IED training occurs once my 
units are at the post mobilization training site and can receive the 
most current information. Also, once the mobilized unit gets to Kuwait, 
they spend several weeks receiving training on IEDs, using the newest 
tactics, techniques, and procedures.

    3. Senator Pryor. Colonel Beech, Colonel Craparotta, and Colonel 
Orr, what new technologies would you like to see employed on the 
battlefield?
    Colonel Beech. Our brigade was superbly equipped in Iraq with the 
latest technologies. I am not an expert on the research and development 
process in the Army and don't have visibility on what is already in the 
development pipeline.
    Certainly the proliferation and expansion of persistent 
surveillance intelligence collection capabilities among all echelons 
should continue along with any and all efforts to protect our soldiers 
from and allow us to defeat IEDs.
    As important as new technologies is the full resourcing of unit 
equipment authorizations. I want to thank the committee for your 
continued support of the Army in these efforts.
    Colonel Craparotta. The Marine Corps articulates its technology 
needs in its biennial Science and Technology Strategic Plan. This 
document provides science and technology objectives across all of the 
battlefield functions. Representative of these technology priorities 
are the following:

         Achieve persistent, focused, wide-area surveillance over the 
        battlespace
         Be able to find and pre-detonate IEDs
         Halve the weight of the basic fighting load of infantryman
         Incorporate common electrical power without the variety of 
        short life batteries
         Make infantrymen essentially bulletproof and climatically 
        controlled
         Provide a combat helmet with a pilot-like heads-up display 
        containing optics, protection, data display and communications 
        that is both lighter than the current helmet and which provides 
        more protection
         Develop training simulators that support realistic infantry 
        training requirements
         Provide systems that support combat identification of 
        friendly forces and display of friendly force position location 
        information in near real time
         Develop adaptive camouflage that conforms to any environment 
        and light conditions
         Provide devices that will permit near-synchronous voice 
        translation

    Colonel Orr. I think new technology is great, but I would like to 
see it and the newest equipment get filtered down to my units, prior to 
mobilization. The Army has done a great job in fielding my units at the 
mobilization stations with the best equipment and technology, but prior 
to mobilization we do have the same capability. As I bring units home 
from deployment, they are either leaving equipment in theater for other 
units or having to turn it in to supply, so that other units can have 
it to mobilize. My challenge is to reset the force and maintain our 
skills from deployment, which is very hard with the lack of equipment 
and technology. I have tried to procure simulation systems that will 
provide some relief to the shortage, but it does not fill the gap 
created by the shortfall in equipment and technology.

    4. Senator Pryor. Colonel Beech, Colonel Craparotta, and Colonel 
Orr, a suicide bomber exploded a truck near a U.S. military outpost in 
Baqubah, Iraq, yesterday, killing 9 soldiers and wounding 20 others. Do 
you have the tools necessary in your training to better identify and 
defeat these bombers?
    Colonel Beech. I am not familiar with this incident beyond what I 
have read in DOD press releases. I can't say with certainty that my 
brigade could do a better job of identifying this type of threat than 
the soldiers of this unit did in April. A committed and well-equipped 
suicide bomber is a very difficult opponent to stop. We are doing 
everything in our capability to train and equip our soldiers with the 
tools to identify this kind of threat and react appropriately. We will 
train force protection operations during our field exercises at home 
station and at our mission rehearsal exercise using mock scenarios 
similar to the one in Baquba. This fall, I am sending my staff engineer 
officers to a course that will train them on the fundamentals of 
constructing blast walls and security barriers that can withstand these 
kinds of attacks. We also train our soldiers to look for intelligence 
and environmental indicators of pending attacks such as the abnormal 
behavior or absence of local children. Good force protection is 
fundamentally about discipline and vigilance and these are skills that 
our NCOs attempt to instill everyday into the soldiers of this brigade.
    Colonel Craparotta. Yes, in our PTP block approach, all marines 
deploying to the CENTCOM theater, regardless of assignment, are 
required to receive Blocks I and II training which include IED-D and 
Urban Tactics Techniques and Procedures Orientation training. Blocks 
III and IV contain unit-specific intelligence collection, protect the 
force. and civil-military operations training.
    The training and education continuum begins with entry level 
training and ascends through formal schools, home station, professional 
military education, and culminates with a final exercise such as Mojave 
Viper, Desert Talon, or Mountain Warrior. This ascending-levels-of-
competency approach allows marines of all ranks to be trained at the 
right level, at the right time, and the right place. This further 
provides a disciplined approach to studying, thinking, and discussing 
the profession of arms. The threading of force protection training 
throughout the continuum ensures that all marines will be well-prepared 
for the types of challenges they may face.
    Finally, a rapid, continuous lessons-learned process ensures the 
latest enemy and friendly tactics, techniques, and procedures are used 
in training. Above all, the Marine Corps takes pride in ensuring much 
of the individual training, and virtually all unit training, is 
conducted with the oversight of combat experienced NCOs and Officers.
Additional Information:
         Block I: Mandatory for all deploying marines, this block is 
        conducted at home station to establish mastery of basic 
        warfighting skills. These skills include:

                 Enhanced Marksmanship Package
                 Common Combat Skills
                 Annual Training Requirements (Physical Fitness Test, 
                Gas Chamber, Swim Qualification and Rifle Range)
                 Military Occupational Specialty Proficiency Skills
                 Incidental Driver Training
                 Vehicle Familiarization and Preventive Maintenance
                 Immediate Action Drills
                 Basic Driver Skills
                 Crew-served Weapons Training
                 Weapons Assembly/Disassembly and Maintenance
                 Weapons Loading, Unloading, and Immediate Action

         Block II: Mandatory for all deploying marines, this block is 
        conducted at home station with a focus on current operating 
        environment skills. This training includes:

                 Marksmanship
                 Improvised Explosive Devices-Defeat
                 Motorized Operations
                 Urban Tactics Techniques and Procedures Orientation
                 Vehicle Control Point/Entry Control Point/Escalation 
                Of Force/Law Of War
                 Pre-combat Actions
                 Aspects of Culture
                 Fixed Site Security
                 First Aid
                 High risk of Capture

         Block III: Focused training for combat support units with the 
        following tasks in their Mission Essential Task List (METL) 
        (these are collective tasks conducted at service level training 
        events):

                 Conduct Defensive Actions
                 Conduct Relief in Place
                 Forward-deploy Units
                 Conduct Intelligence Operations
                 Perform Logistics and Combat Service Support (CSS)
                 Exercise Command and Control
                 Protect the Force
                 Conduct Civil Military Operations (CMO) in the Joint 
                Operating Area (JOA)
                 Train Forces and Personnel

         Block IV: For Ground Combat Elements, Combat Aircrews, and 
        those that will be exposed to hostile action on a recurring 
        basis. This block is conducted at service level training 
        events. These units will typically have the following tasks in 
        their METL:

                 Conduct Offensive Action
                 Control or Dominate an Operationally Significant Area
                 Clear Enemy Forces from an Area
                 Conduct Defensive Action
                 Conduct Relief in Place
                 Interdict an Area or Route
                 Forward Deploy Units
                 Conduct Intelligence Operations
                 Provide Fires in Support of Maneuver
                 Perform Logistics and CSS
                 Exercise Command and Control
                 Protect the Force
                 Conduct CMO in JOA
                 Train Forces and Personnel

    Training culminates in a full-scale, intelligence-driven, 
controlled, and evaluated mission rehearsal exercise conducted at 
Twentynine Palms, Bridgeport, Yuma, or a joint venue.
    Colonel Orr. Suicide bomber is the number one problem in 
counterinsurgency operations in OIF. Currently there is no official 
program for defeating the suicide bomber. Defeating a suicide bomber is 
a very difficult task. We developed an entire spectrum of 
countermeasures, identified indicators, and continue to train and raise 
the situational awareness of our soldiers in relation to the threat. 
But threat tactics continue to evolve in the face of our 
countermeasures, and we will never come to a point when we are 
completely protected from suicide bombers. The U.S. Army has a Center 
for Army Lessons Learned that continues to provide great information on 
the suicide bomber and how we can defeat it. They have provided to its 
readers tools to develop a Suicide Bomber Defeat program.

    5. Senator Pryor. Colonel Orr, what readiness challenges do you 
face when balancing your unit's responsibility to the Department of 
Defense (DOD) and Department of Homeland Security (DHS)?
    Colonel Orr. I have no real challenges when it comes to balancing 
my DOD and DHS mission. We train every year focused on our war fight 
mission. The tasks that we are expected to execute overseas are the 
same tasks that are expected for us to execute in our DHS mission. The 
only addition to my training program is teaching the civil disturbance 
training. Over the last 2 years, we have deployed most of the BCT, 
while supporting several homeland security missions. We supported the 
Midwest Winter Storms and Operation Jump Start along the border without 
degrading our ability to support the Nation. The greatest challenge for 
me is the lack of equipment issue. The same equipment required for pre-
mobilization training, post-mobilization training, and the DOD 
deployment is the same equipment required for a DHS mission. My 
soldiers have exceeded in every mission they have received from DOD or 
DHS. I believe if we can perform the warfighter mission, then we will 
be able to support the DHS mission.

    6. Senator Pryor. Colonel Beech, Colonel Craparotta, and Colonel 
Orr, are your soldiers and marines effectively training for irregular 
warfare (IrW)?
    Colonel Beech. Yes. Our training strategy is focused on full-
spectrum operations. This strategy breaks down into three major 
components: (1) leader training, (2) individual soldier training, and 
(3) collective or unit training.
    We have an aggressive program to train our junior leaders on a 
variety of subjects that they will need in Iraq or any other 
environment. This summer and fall our leaders will attend classes on 
Cultural Awareness and Sensitivity, Counterinsurgency operations, and 
antiterrorism. Additionally, all of the senior leaders in the brigade 
will travel to Fort Polk for a week to study and practice techniques 
for planning complex operations in an IrW environment.
    Our individual training emphasizes the fact that every soldier is a 
rifleman. We will train marksmanship very heavily this next quarter. 
Other training will include basic cultural awareness, rules of 
engagement, IED detect and defeat techniques, and basic first aid.
    Our collective unit training focuses on building tough realistic 
scenarios that replicate the complexity of the irregular battlefield. 
This summer our focus will be on training at the company level and 
below so that we build those cohesive and capable teams that are so 
critical in this type of warfare. The culmination of our collective 
training will be a deployment to the JRTC at Fort Polk where we will 
fully exercise all the capabilities of the brigade in a full-spectrum 
and realistic environment. I think this training strategy adequately 
prepares us to fight IrW.
    Colonel Craparotta. Yes. The Marine Corps is preparing its 
operating forces to operate, today and in the future, in IrW 
environments. The essence of our Maneuver Warfare doctrine is 
outsmarting a thinking enemy by exploiting key weaknesses to defeat the 
enemy's center of gravity. In many aspects, this philosophy closely 
parallels IrW. From forward-looking IrW-related concepts to present 
day-focused IrW doctrine, emerging lessons learned and training, we 
instill in marines the importance of understanding the irregular threat 
and the nature of today's battlefield. Additionally, we maintain close 
coordination with joint force and external agencies on IrW issues 
within a variety of forums.
    A sampling of some of our ongoing IrW training efforts is provided 
below:

         We recently published Countering Irregular Threats: A 
        Comprehensive Approach; the Tentative Manual for Countering 
        Irregular Threats: An Updated Approach to Counterinsurgency; 
        and the Small Unit Leader's Guide to Counterinsurgency intended 
        to stimulate debate and facilitate combat development. Our 
        Small Unit Leader's Guide to Counterinsurgency provides a ready 
        reference incorporating recent lessons learned. A similar 
        project is underway to capture lessons in the urban 
        environment. Additionally, the Multi-Service Concept for IrW 
        was published in collaboration with SOCOM; and we are 
        collaborating with the Army on FM 3-24/MCWP 3-33.5 
        Counterinsurgency providing guidance for battalion level and 
        higher commanders and staff.
         Our Small Wars Center of Excellence Web site (www.smallwars.-
        quantico.usmc.mil) provides an unclassified, interactive 
        information resource and management tool for the understanding 
        of the history, nature, and relevance of small wars in the 21st 
        century security environment. It supports the marine who is 
        seeking relevant information including cultural intelligence, 
        IrW, counterinsurgency, and after action reports.
         Marine Corps University has placed an increased emphasis on 
        IrW by hosting subject matter experts as guest speakers, 
        incorporating seminar discussion and planning exercises. In 
        2005, we established the Kim T. Adamson Chair of Insurgency and 
        Terrorism to focus on the theory and nature of terrorism and 
        insurgencies. At the senior level, the Marine Corps War College 
        devotes approximately 84 hours, half its War Policy and 
        Strategy Course, to the study of IrW. The intermediate school, 
        Command and Staff College program of instruction called ``Small 
        Wars and Operations other than War'' totals 107.5 instruction 
        hours. Students explore counterinsurgencies, transnational 
        threats, stability operations and reconstruction; while also 
        receiving instruction in operational culture, language, 
        interagency issues. At the primary level, Expeditionary Warfare 
        School devotes 3 weeks to an IrW-specific program.
         All new officers receive entry-level training in the 
        operational aspects of foreign cultures and counterinsurgency, 
        and our schoolhouses include IrW in their lesson plans. An IrW/
        Distributed Operations mission training plan is under 
        development to identify IrW Collective and Individual Training 
        Standards to be incorporated into the relevant training and 
        readiness manuals.
         The Center for Advanced Operational Culture Learning provides 
        pre-deployment training focusing on operational culture and 
        language learning for operating forces and on schoolhouse 
        instruction and curricula support. We are working to establish 
        satellite Language Learning Resource Centers to support focused 
        pre-deployment language training and to build distance learning 
        products for the Career Marine Regional Studies program.
         Our Marine Air Ground Task Force Staff Training Program 
        supports the operating forces by preparing a Marine 
        Expeditionary Force staff for deployment to any theater of 
        operations. MSTP constructs a five-part exercise package across 
        two of four quadrants of war while tailoring its program to 
        current requirements, notably, IrW.
         The Security Cooperation Education and Training Center is 
        leading the development of formalized Marine Corps civil-
        military operations training and education for Civil Affairs 
        Groups and Artillery Regiments in their secondary mission of 
        Civil Affairs. They also conduct pre-deployment and IrW, 
        advisor-specific training for all Marine Corps Transition 
        Teams.
         Based on lessons collected from recent operations in Iraq and 
        Afghanistan, the Marine Corps Center for Lessons Learned has 
        identified a number of performance gaps in IrW training. 
        Solution sets for tactical questioning, detainee handling, 
        evidentiary collection, biometrics, civil military operations, 
        advisor training, and non-lethal weapons are under development.

    During 2006, we assessed the current state of IrW training and 
education, and identified gaps and areas of potentially greater risk, 
to meet the Secretary of Defense and warfighting commanders' 
requirements for Marine forces more agile and capable of countering 
irregular threats, and conducting counterinsurgency operations. This is 
leading to changes to the curricula at schoolhouses and training venues 
that shift the balance between conventional and IrW, and better 
prepares marines for the modern battlefield.
    Colonel Orr. I train my soldiers to fight in a full-spectrum of 
operations, which includes IrW. I do not specifically focus their 
training on IrW only; I try to ensure that we include elements within 
our training program. Since the beginning of the war, my units have 
only been executing theater security operations, which are focused on 
route and convoy security. However, we try to implement elements of 
training that will help them in the event that their mission changes. 
As part of the post mobilization training, each soldier receives 
training in the country's language, culture, and customs. The soldiers 
I sent to Afghanistan this summer received training for 2 weeks with 
members of the Afghanistan National Army (ANA). They were part of a new 
training process focused to help our soldiers learn how to communicate 
and operate with ANA soldiers, before going into country. This concept 
of training has proven to be very beneficial and should continue as we 
develop our teams for deployment. Also, once my soldiers arrived in 
Afghanistan, they spent one week attending the counterinsurgency 
academy at Kabul. At the academy, everyone received the most updated 
information and training on the counterinsurgency operations in 
Afghanistan. The feedback was very positive from all soldiers.

    7. Senator Pryor. Colonel Beech, Colonel Craparotta, and Colonel 
Orr, do you have access to adequate facilities that specialize in urban 
warfare?
    Colonel Beech. We have two dedicated urban training facilities at 
Fort Hood, TX, and several smaller `shoot-houses' that allow for live-
fire exercises. The two large urban sites are adequate for a platoon or 
smaller company operation. They allow for the development and training 
of basic small units tactics and procedures for operations in urban 
terrain. While more and larger facilities would be desirable, our 
current training resources allow us to effectively train our platoons 
and companies.
    Colonel Craparotta. Yes, my subordinate battalions have had access 
to required training sites to conduct necessary urban training. There 
are currently three sites available at Camp Pendleton to train in urban 
warfare. These sites were available for my battalions. In some cases we 
had to share these training sites with other units but we were always 
able to get the necessary training completed.
    Because of the high demand on current urban training sites, the 
Marine Corps is investing to improve existing sites as well as adding 
sites on Camp Pendleton. While I don't have all the details, I know 
there has been construction at the existing site (range 131), and that 
there are plans which will dramatically improve the other two older 
sites aboard Camp Pendleton. So while we have had access to required 
training sites, we have also identified a requirement to improve 
existing facilities and the Marine Corps is investing significant money 
to upgrade urban training centers where my units conduct training.
    I would add that the Marine Corps has invested significant money 
into urban training at our training center in Twentynine Palms for both 
live-fire and non-live-fire training. Both of these facilities are 
operational and have been for some time. Units train at these 
facilities as part of our service-level assessment before deployment to 
Iraq.
    My assessment is that there has been adequate availability of urban 
training sites and that the sites at our training center have improved 
dramatically. We are also investing now to improve facilities so that 
we can maintain the best possible facilities for future urban warfare 
training.
    Colonel Orr. I feel that we have the required facilities and 
simulations to support urban warfare training in a simulated, virtual, 
and live-fire capacity. In the State of Iowa, we have built a 
simulation room that allows my leaders the ability to train room-
clearing procedures to new soldiers and understand the training 
principles, before moving into a higher level of training. After the 
simulation, the soldiers move to a mobile container facility that can 
be used to teach them the fundamentals of entering and clearing a room 
using blank ammunition and simunitions. We are also updating our urban 
training facility with additional buildings, environmental injects, and 
constructing a live-fire shoot house that can be used to train soldiers 
under a simulated and live-fire environment. At our annual training 
site at Camp Ripley, MN, they also have a live-fire shoot house and an 
urban training facility.

                                 MORALE

    8. Senator Pryor. Colonel Beech, Colonel Craparotta, and Colonel 
Orr, what effect has the recent decision to extend deployments from 12 
months to 15 months had on morale of your soldiers and marines as well 
as their families?
    Colonel Beech. Our brigade's deployment timeline has shifted in 
large part because of this policy. This will allow the soldiers and 
families in this brigade additional dwell time at home station with 
their loved ones and an adequate opportunity to reset and train the 
brigade in preparation for the next rotation. Overall this has had a 
positive impact on my soldiers and their families. I think that, as our 
deployment date draws closer, more families will become concerned about 
the long rotation and the impact it will have on their lives. For this 
reason, I am most concerned about our younger married soldiers.
    Colonel Craparotta. The U.S. Marine Corps has not extended any 
marines from 12 to 15 months. The morale of our marines is extremely 
high. Marines and their families are experiencing stress due to 
deployments, something which we hope to reduce with our goal of a 1:2 
dwell time.
    Colonel Orr. For my unit, we have fallen under the 1-year 
mobilization policy, which includes the post mobilization training and 
deployment. I feel the new policy will greatly enhance the morale of 
soldiers, their families, and employers. In the past, I have had some 
units that spent 6 months at a mobilization station training, prior to 
their 1-year deployment overseas. By the time they return to the States 
and go on leave, they have been deployed for over 19 months, not 
including any extensions. I think the new policy will not only minimize 
the impact for families and employers, but it will allow the State 
leadership the ability to manage their dwell time for future 
deployments.

    [Whereupon, at 4:08 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
